NO. ___________

IN THE

Supreme Court of the United States
DOUGLAS J. HOLDINGS, INC., ET AL.,
Petitioners,
v.
JOY EBERLINE, ET AL.,
Respondents.
On Petition for a Writ of Certiorari
to the United States Court Of Appeals
for the Sixth Circuit

PETITION FOR A WRIT OF CERTIORARI

WILLIAM M. JAY
GOODWIN PROCTER LLP
1900 N St., N.W.
Washington, DC 20036
GERARD J. CEDRONE
GOODWIN PROCTER LLP
100 Northern Avenue
Boston, MA 02210

MATTHEW T. NELSON
Counsel of Record
AMANDA M. FIELDER
BRANDON J. CORY
WARNER NORCROSS +
JUDD LLP
150 Ottawa Avenue, NW
Suite 1500
Grand Rapids, MI 49503
(616) 752-2000
mnelson@wnj.com

Counsel for Petitioners
(Additional counsel listed on inside cover)

MICHAEL G. BRADY
ADAM T. RATLIFF
WARNER NORCROSS +
JUDD LLP
2715 Woodward Avenue
Suite 300
Detroit, MI 48201

i
QUESTION PRESENTED
The Fair Labor Standards Act requires an
employer to compensate “employees” for the
work they perform. 29 U.S.C. 206, 207. But
not all working relationships are characterized by employment. The question presented
is:
Whether the Fair Labor Standards Act
requires a court to consider all the circumstances of the parties’ relationship, or only
those discrete tasks identified by the plaintiff,
in assessing whether a student, intern, or
trainee is an employee under the Act.

ii
PARTIES TO THE PROCEEDING AND
CORPORATE DISCLOSURE
Petitioners are Douglas J. Holdings, Inc.; Douglas
J. AIC, Inc.; Douglas J. Exchange, Inc.; Douglas J.
Institute, Inc.; Scott A. Weaver; and TJ Weaver.
Petitioner Douglas J. Holdings, Inc. does not have
a parent corporation, and no publicly traded corporation owns a 10% or greater interest in the company.
Petitioners Douglas J. AIC, Inc., Douglas J.
Exchange, Inc., and Douglas J. Institute, Inc. are
wholly owned subsidiaries of Petitioner Douglas J.
Holdings, Inc.
Respondents are Joy Eberline, Tracy Poxson, and
Cindy Zimmermann.

iii
RELATED PROCEEDINGS
United States District Court (E.D. Mich.):
Eberline v. Douglas J. Holdings, Inc., 14-cv10887 (Oct. 1, 2018) (order granting partial
summary judgment to respondents)
Eberline v. Douglas J. Holdings, Inc., 14-cv10887 (Mar. 1, 2019) (order certifying
summary-judgment ruling for appeal)
United States Court of Appeals (6th Cir.):
In re Douglas J. Holdings, Inc., No. 19-0104
(Jul. 17, 2019)
Eberline v. Douglas J. Holdings, Inc., No. 191781 (Dec. 17, 2020)

iv
TABLE OF CONTENTS
QUESTION PRESENTED.................................... i
PARTIES TO THE PROCEEDING AND
CORPORATE DISCLOSURE ....................... ii
PETITION APPENDIX TABLE OF
CONTENTS ................................................... v
TABLE OF AUTHORITIES ............................... vii
PETITION FOR A WRIT OF CERTIORARI ...... 1
OPINIONS BELOW ............................................. 1
JURISDICTION ................................................... 1
STATUTES INVOLVED ...................................... 1
INTRODUCTION ................................................. 2
STATEMENT ....................................................... 4
A. Employee status under the FLSA ........... 4
B. Factual Background ................................. 7
C. Proceedings in the district court .............. 9
D. Proceedings in the Sixth Circuit............ 11
REASONS FOR GRANTING THE
PETITION .................................................... 15
I.

The decision below splits from other
circuits by assessing whether a student,
intern, or trainee is an employee on a
task-by-task basis .................................. 15

II. The Sixth Circuit’s holding is wrong .... 24
III. The question presented concerns an
important issue of federal law that
warrants review in this case ................. 27
CONCLUSION ................................................... 31

v
PETITION APPENDIX TABLE OF CONTENTS
Appendix A: United States Court of Appeals
for the Sixth Circuit, Opinion in 19-1781,
Issued December 17, 2020 ................................ 1a–43a
Appendix B: United States Court of Appeals
for the Sixth Circuit, Judgment in 19-1781,
Issued December 17, 2020 ...................................... 44a
Appendix C: United States District Court
for the Eastern District of Michigan, Opinion
and Order Granting Plaintiffs’ Motion for Partial
Summary Judgment [60] and Granting in Part and
Denying in Part Defendants’ Motion for Summary
Judgment [56] in 5:14-cv-10887-JEL-MJH,
Issued October 1, 2018 .................................... 45a–70a
Appendix D: United States District Court for the
Eastern District of Michigan, Opinion and Order
Granting Defendants’ Motion to Amend and
Certify Order for Interlocutory Appeal [81],
Denying Motions for Leave to File Amicus
Curiae Brief [90, 91], And Staying Case in
5:14-cv-10887-JEL-MJH,
Issued March 1, 2019 ...................................... 71a–81a
Appendix E: United States Court of Appeals
for the Sixth Circuit, Order Granting Petition
for Permission to Appeal in 19-104,
Issued July 17, 2019 ........................................ 82a–83a
Appendix F: United States Court of Appeals
for the Sixth Circuit, Order Denying Petition
for Rehearing En Banc in 19-1781,
Issued February 9, 2021.......................................... 84a

vi
Appendix G:
29 U.S.C. §203. Definitions ...................... 85a–96a
29 U.S. Code § 206. Minimum
wage ......................................................... 97a–103a
29 U.S. Code § 207. Maximum
hours ...................................................... 104a–122a

vii
TABLE OF AUTHORITIES
Page(s)
Cases
Atkins v. Capri Training Center, Inc.,
2014 WL 4930906 (D.N.J. Oct. 1, 2014) ..............22
Benjamin v. B & H Education, Inc.,
877 F.3d 1139 (9th Cir. 2017) .............. 6, 18, 19, 22
Benshoff v. City of Virginia Beach,
80 F.3d 136 (4th Cir. 1999) ..................................23
Donovan v. Brandel,
736 F.2d 1114 (6th Cir. 1984) ..............................30
Ford v. Yasuda,
2017 WL 4676575 (C.D. Cal. June 20,
2017) .....................................................................22
Gerard v. John Paul Mitchell Systems,
2016 WL 4479987 (C.D. Cal. Aug. 22,
2016) .....................................................................22
Glatt v. Fox Searchlight Pictures, Inc.,
811 F.3d 528 (2d Cir. 2016) ......................... passim
Goldberg v. Whitaker House Co-op., Inc.,
366 U.S. 28 (1961) ................................ 5, 24, 27, 31
Guy v. Casal Institute of Nevada, LLC,
2019 WL 2192112 (D. Nev. May 21,
2019) .....................................................................22
Guzman v. Lincoln Technical Institute,
339 F. Supp. 3d 1048 (D. Nev. Sept.
10, 2018) ...............................................................21
Halferty v. Pulse Drug Co.,
821 F.2d 261 (5th Cir. 1987) ................................26

viii
TABLE OF AUTHORITIES—Continued
Page(s)
Harbourt v. PPE Casino Resorts
Maryland, LLC,
830 F.3d 655 (4th Cir. 2016) ................................28
Hollins v. Regency Corp.,
867 F.3d 830 (7th Cir. 2017) ...................... 6, 18, 19
Integrity Staffing Solutions, Inc. v. Busk,
574 U.S. 27 (2014) ................................................26
Jochim v. Jean Madeline Educational
Center of Cosmetology, Inc.,
98 F. Supp. 3d 750 (E.D. Pa. 2015) .....................22
McLaughlin v. Ensley,
877 F.2d 1207 (4th Cir. 1989) ................................6
Nationwide Mutual Insurance Co. v.
Darden,
503 U.S. 318 (1992) ..............................................24
Nesbitt v. FCNH, Inc.,
908 F.3d 643 (10th Cir. 2018) ..............................19
Ortega v. Denver Institute LLC,
2015 WL 4576976 (D. Colo. July 30,
2015) .....................................................................22
Reich v. Parker Fire Protection District,
992 F.2d 1023 (10th Cir. 1993) .......................... 6, 7
Rutherford Food Corp. v. McComb,
331 U.S. 722 (1947) ...................................... passim
Sandler v. Benden,
715 F. App’x 40 (2d Cir. 2017) .............................28
Schumann v. Collier Anesthesia, P.A.,
803 F.3d 1199 (11th Cir. 2015) ............ 6, 20, 21, 28

ix
TABLE OF AUTHORITIES—Continued
Page(s)
Solis v. Laurelbrook Sanitarium &
School, Inc.,
642 F.3d 518 (6th Cir. 2011) ........................ passim
Tony & Susan Alamo Foundation v.
Secretary of Labor,
471 U.S. 290 (1985) ................................ 2, 6, 24, 26
Vanskike v. Peters,
974 F.2d 806 (7th Cir. 1992) ................................24
Vaughn v. Phoenix House N.Y., Inc.,
957 F.3d 141 (2d Cir. 2020) .................................28
Velarde v. GW GJ, Inc.,
914 F.3d 779 (2d Cir. 2019) ............... 17, 18, 21, 29
Walling v. Portland Terminal Co.,
330 U.S. 148 (1947) .................................. 2, 4, 5, 27
Wang v. Hearst Corporation,
877 F.3d 69 (2d Cir. 2017) ...................................28
Winfield v. Civitano,
2018 WL 5298748 (E.D.N.Y. Mar. 14,
2018) .....................................................................21
Statutes
28 U.S.C. 1254 .............................................................1
29 U.S.C. 203 ............................................. 4, 12, 22, 24
29 U.S.C. 206 ......................................................i, 4, 24
29 U.S.C. 207 ......................................................i, 4, 24
Regulations
29 C.F.R. 553.103 ......................................................22

x
TABLE OF AUTHORITIES—Continued
Page(s)
Other Authorities
Douglas Belkin, Why an Honors Student
Wants to Skip College and Go to Trade
School,
Wall Street Journal (Mar. 5, 2018) .....................28
Meg St-Espirit, The Stigma of Choosing
Trade School Over College,
The Atlantic (Mar. 6, 2019) .................................27
Nathalie Saltikoff, The Positive
Implications of Internships on Early
Career Outcomes,
National Association of Colleges &
Employers J. (May 1, 2017) .................................29

1
PETITION FOR A WRIT OF CERTIORARI

Douglas J. Holdings, Inc.; Douglas J. AIC, Inc.;
Douglas J. Exchange, Inc.; Douglas J. Institute, Inc.;
Scott A. Weaver; and TJ Weaver respectfully petition
for a writ of certiorari to review the judgment of the
United States Court of Appeals for the Sixth Circuit.
OPINIONS BELOW
The United States Court of Appeals for the Sixth
Circuit’s opinion, App. 1a–43a, is reported at 982 F.3d
1006. The United States District Court for the
Eastern District of Michigan’s opinion partially granting summary judgment, App. 45a–70a, is reported at
339 F. Supp. 3d 634. The district court’s opinion
certifying its summary-judgment opinion for appeal,
App. 71a–81a, is unreported but available at 2019 WL
989284. The Sixth Circuit’s order granting permission
to appeal, App. 82a–83a, is unreported.
JURISDICTION
The judgment of the court of appeals was entered
on December 17, 2020. App. 44a. A petition for rehearing was denied on February 9, 2021. App. 84a. The
jurisdiction of this Court is invoked under 28 U.S.C.
1254(1).
STATUTES INVOLVED
Sections 203, 206, and 207 of Title 29 of the United
States Code are set forth in an appendix to this
petition. App. 85a–122a.

2
INTRODUCTION
This case raises a significant issue concerning
when vocational training programs and internships
create employment relationships for purposes of the
Fair Labor Standards Act. The FLSA requires an
employer to pay employees for their work, but not all
working relationships are subject to the FLSA. The
FLSA “was obviously not intended to stamp all persons as employees who, without any express or implied compensation agreement, might work for their
own advantage on the premises of another.” Walling
v. Portland Terminal Co., 330 U.S. 148, 152 (1947).
In Portland Terminal, the Court concluded that
trainees in a company-run training program were not
employees. Since then, the regional circuits have
diverged over how to apply the Court’s decision to
internships and vocational schools. But the court of
appeals’ decision below greatly expanded the scope of
the conflict.
The Sixth Circuit held that courts should assess
whether an employment relationship exists based
solely on those segments of the parties’ overall
relationship challenged by the plaintiff. As Judge
Batchelder explained in her dissent, the panel
majority’s minute-by-minute approach to determining
whether students are employees—in which the
answer may shift back and forth multiple times over
the course of the workday—conflicts with the decisions of the other circuits. App. 37a–40a. The other
circuits have recognized that the question of whether
a student, intern, or trainee is an employee for purposes of the FLSA is resolved by the economic reality
of the parties’ whole relationship. See Tony & Susan
Alamo Found. v. Sec’y of Labor, 471 U.S. 290, 301
(1985). And this analysis requires consideration of the

3
totality of the circumstances. See Rutherford Food
Corp. v. McComb, 331 U.S. 722, 730 (1947).
The decision below creates immense practical
problems. The court of appeals acknowledges that its
analysis may result in a student, intern, or trainee
being designated an employee when performing
certain tasks but not others. Here, for example,
cosmetology students spent time sanitizing the
training salon during their downtime. Under the
Sixth Circuit’s approach, a student who spends 15
minutes wiping down the hair-washing station and
changing a load of towels in the laundry between
cutting guests’ hair might be deemed an employee
because of those 15 minutes—but only during that
period. The practical complexities created by resolving
the threshold issue of whether an employment
relationship exists on a task-by-task basis are
burdensome for courts and a record-keeping
nightmare for schools, internship providers, and
training programs.
As the dissent points out, the Sixth Circuit’s
decision conflicts with the decisions of three other
circuits addressing cosmetology students who performed nearly identical activities. The other circuits
concluded that the cosmetology students in each case
were not employees of their school. More fundamentally, the other circuits assessed whether an employment relationship existed by considering the totality
of the parties’ relationship, not segments thereof.
The question presented affects any FLSA case
arising from an educational, internship, or training
relationship. The Court should grant certiorari and
restore the nationwide predictability and uniformity
to the application of the FLSA in the vocationaltraining context.

4
STATEMENT
A. Employee status under the FLSA
Enacted in 1938, the FLSA sought “to insure that
every person whose employment contemplated
compensation should not be compelled to sell his
services for less than the prescribed minimum wage.”
Walling v. Portland Terminal Co., 330 U.S. 148, 152
(1947). To that end, the FLSA requires an employer to
pay its employees a minimum wage for services performed. See 29 U.S.C. 206, 207. The Act unhelpfully
defines “employee” as “any individual employed by an
employer” and “employ” as “to suffer to permit to
work.” 29 U.S.C. 203(e)(1), (g).
It did not take long before this Court was called
upon to address the ambiguity of these definitions. In
1947, the Court decided two cases that would set the
stage for how courts are to answer the “employee”
question: one in the context of trainees, Portland
Terminal, 330 U.S. at 149; and the other concerning
whether workers were independent contractors,
Rutherford Food Corp. v. McComb, 331 U.S. 722, 730
(1947). In both cases, the Court assessed the relationships between the employers and workers as a whole
and identified the workers as either employees or not
employees.
Portland Terminal concerned whether the FLSA
compelled a railroad to pay wages to prospective railyard workers who participated in a training program
operated by the railroad. 330 U.S. at 149. The Court
observed that the trainees had no expectations of
compensation, were not guaranteed a job, and did not
displace regular employees. Id. at 150. To determine
whether the trainees were employees, the Court contrasted an employment relationship with an educational relationship. The Court noted that the FLSA

5
did not treat people who worked without any expectation of compensation, and for their own advantage, as
employees. “Otherwise, all students would be employees of the school or college they attended, and as such
entitled to receive minimum wages.” Id. at 152. The
Court also observed that if the trainees had “taken
courses in railroading in a public or private vocational
school, wholly disassociated from the railroad, it could
not reasonably be suggested that they were employees
of the school.” Id. at 152–153. The Court held that the
trainees were not employees. Id. at 153.
Later that same year, the Court held that workers
in a meat-packing plant, who had ostensibly entered
into independent contracts, were actually the plant’s
employees. Rutherford Food, 331 U.S. at 723–726,
730. The Court considered the workers’ relationship
with the plant and concluded that because the circumstances as a whole suggested that they worked “as a
part of the integrated unit of production” with the
plant, they were employees under the FLSA. Id. at
729. Addressing the district court’s observation that
certain aspects of the work contracts were inconsistent with an employee relationship, the Court
stressed that the “determination of the relationship
does not depend on such isolated factors but rather
upon the circumstances of the whole activity.” Id. at
730.
The Court has since applied this analysis to
determine that homeworkers for a cooperative were
employees under the FLSA, Goldberg v. Whitaker
House Co-op., Inc., 366 U.S. 28, 33 (1961), and that
volunteers who engaged in various commercial activities for a non-profit foundation were employees
because they did so in expectation of receiving in-kind
benefits, Tony & Susan Alamo Foundation v.

6
Secretary of Labor, 471 U.S. 290, 301–303 (1985). In
each instance, the Court assessed the economic relationship as a whole. In Alamo, the Court described its
approach as one that assesses the “economic reality”
of the relationship between the employer and
individual. Id.
In 1975, the Department of Labor adopted a
multi-requirement test, taking six factual aspects of
the training program observed by the Court in
Portland Terminal and making each of them a
requirement that had to be met for a trainee not to be
an employee. See Reich v. Parker Fire Protection Dist.,
992 F.2d 1023, 1025–1026 (10th Cir. 1993) (quoting
Wage & Hour Manual (BNA) 91:416 (1975)). The
Department contended that the same multi-requirement test should be applied to internships and
schools. See Glatt v. Fox Searchlight Pictures, Inc.,
811 F.3d 528, 534 (2d Cir. 2016); Solis v. Laurelbrook
Sanitarium & Sch., Inc., 642 F.3d 518, 524–525 (6th
Cir. 2011).
The Department’s test was not well received.
Most circuits rejected the test as too rigid. See, e.g.,
Glatt, 811 F.3d at 536; Laurelbrook, 642 F.3d at 524–
525.1 Courts noted that under Rutherford Food, the
question of whether an employment relationship
exists must consider the totality of the circumstances
so that no single factor in isolation is dispositive.

1

Seven circuits rejected the Department’s test. Benjamin v. B &
H Educ., Inc., 877 F.3d 1139, 1148 (9th Cir. 2017); Schumann v.
Collier Anesthesia, P.A., 803 F.3d 1199, 1209 (11th Cir. 2015);
Parker Fire, 992 F.2d at 1027; McLaughlin v. Ensley, 877 F.2d
1207, 1209–1210 & n.2 (4th Cir. 1989); see Hollins v. Regency
Corp., 867 F.3d 830, 834–836 (7th Cir. 2017).

7
Parker Fire, 992 F.2d at 1027; Laurelbrook, 642 F.3d
at 525.
Having rejected the Department’s multi-criterion
test, most circuits have coalesced around the concept
that Portland Terminal requires courts to assess the
totality of the parties’ relationship to determine
whether a student, intern, or trainee is the primary
beneficiary of the educational or vocational relationship. Yet the courts have fractured over how to make
that assessment.
After a number of circuits rejected its analysis,
the Department of Labor scuttled its previous test. In
its place the Department adopted a more flexible,
multifactor approach to “align with recent case law”
and “eliminate unnecessary confusion among the
regulated community.” (ECF No. 91-1, DOL Wage &
Hour Div. Field Assistance Bulletin 2018-2 (Jan.
2018).)
The decisions below were made against this
backdrop.
B. Factual Background
Douglas J. Institute, Inc. operates cosmetology
schools in Michigan and Tennessee. Douglas J. AIC,
Inc. operates a cosmetology school in Illinois.2 App.
47a. These two entities are referred to as “Douglas J.”
As in most states, cosmetology schools in
Michigan are heavily regulated. For example, individuals cannot render cosmetology services to the public
The other Petitioners, Douglas J. Holdings, Inc., Douglas J.
Exchange, Inc., Scott A. Weaver, and TJ Weaver, do not operate
cosmetology schools. Respondents included them as defendants
based on enterprise-liability and personal-liability theories not
at issue here.

2

8
without a license, and to obtain a cosmetology license,
one must first complete 1,500 hours of study at a
licensed cosmetology school. App. 4a. This includes at
least 425 hours of classroom instruction and 965
hours of practical instruction. Ibid. These hours are
divided among various skills, including sanitation.
Michigan inspects cosmetology schools bi-annually to
ensure compliance with these state laws, including
the content of the instruction. App. 25a.
Consistent with the applicable state requirements, Douglas J’s program offers both classroom
instruction and clinic-based instruction at clinic
salons. App. 4a–5a. The clinic salons emulate a true
salon setting and are open to the public. Ibid. Only
students provide services at the clinic salon, all under
the supervision of licensed instructors. Ibid. The
instructors assist and observe the students, and grade
the students based on their technical execution. App.
Ibid. Douglas J employs daytime staff to maintain the
cleanliness of its school, guest-services personnel to
assist clients, and a nighttime janitorial service to
clean the facilities six nights each week. App. 28a.
Opportunities to practice on a guest in the clinic
salon depend on members of the public coming in, so
students are not guaranteed to have a full number of
guests each day. App. 5a–6a. To ensure that students
continue to make progress toward their statemandated minimum hours, Douglas J provides
students with activities they can perform between
seeing guests. Ibid. The activity is the student’s
choice. App. 27a. At times, this includes cleaning,
restocking, and laundering the clinic towels. App. 4a–
6a, 8a. Douglas J applies all of these hours, including
time spent on sanitation activities between guests,
toward a student’s 1,500-hour requirement. App. 4a–

9
6a, 8a. This system works well for Douglas J’s
students, who graduate, pass the state cosmetology
licensing exam, and find cosmetology jobs at rates
that greatly exceed the benchmarks established by its
accreditors. (Accreditor’s Report, ECF No. 56-20,
PageID 1743.) Indeed, 85% of Douglas J students pass
the state licensing exam, which the district court
recognized was a “high rate.” App. 56a.
C. Proceedings in the district court
Respondents are former Douglas J students who
graduated from Douglas J’s Michigan schools between
2011 and 2013. App. 46a. Starting in 2013, cosmetology students throughout the country sued various
cosmetology and beauty schools alleging that students
were employees under the FLSA. In 2014, respondents joined this litigation wave, filing this case in the
United States District Court for the Eastern District
of Michigan. Like all of the preceding cases, respondents alleged that they were “employees” under the
FLSA and entitled to unpaid wages. Specifically,
respondents alleged that they were entitled to compensation for all time spent working in Douglas J’s
student clinics—time they had counted toward the
965-hour and 1500-hour education requirements.
App. 8a–9a.
Respondents made these allegations even though
they later testified that they did not expect to be paid
for the time in the student clinic. App. 5a. In addition,
respondents understood that they would be responsible for finding employment after they successfully
completed their education at Douglas J. App. 5a. Each
respondent received from Douglas J what they
requested—a cosmetology education that fulfilled the
state practical-learning requirements and prepared
them to pass the Michigan cosmetology exam and find

10
employment in the field. Indeed, each respondent
passed the exam and obtained employment in the cosmetology industry after graduating from Douglas J.
App. 46a.
Douglas J and respondents filed cross motions for
summary judgment on the question of whether
respondents could bring claims as “employees” under
the FLSA.
The district court granted partial summary judgment to the respondents, concluding that the primarybeneficiary analysis does not require an “all-ornothing determination of employee status.” App. 60a.
The court adopted the respondents’ argument that it
could “extract” certain tasks—cleaning, doing laundry, and restocking products—from the parties’ whole
relationship and examined whether those tasks were
outside the educational framework. App. 30a. Because
the court believed that the extracted tasks were outside the educational framework, the court determined
that respondents were employees while performing
those tasks. And it did so without even applying the
primary-beneficiary test to those tasks. See App. 13a.
After extracting the sanitation tasks, the district
court granted Douglas J partial summary judgment
as to the rest of the respondents’ time in the student
clinic. App. 9a–10a.
Acknowledging that its holding was inconsistent
with the decisions of various circuits on the same
issue, the district court certified its summaryjudgment ruling for appeal. App. 10a. The Sixth
Circuit granted Douglas J’s petition to appeal. App.
82a–83a.

11
D. Proceedings in the Sixth Circuit
The Sixth Circuit unanimously agreed that the
district court had erred by declining to apply the
primary-beneficiary test to the extracted tasks. App.
12a–13a. But the panel divided over whether courts
should apply the primary-beneficiary test to just the
activities that the district court had extracted or to the
parties’ relationship as a whole. App. 14a, 33a–37a. A
majority of the panel agreed with the respondents
that courts should “segment” each activity and
analyze it separately. App. 12a. In dissent, Judge
Batchelder rejected this “segmented” analysis and
noted that the panel majority’s decision was inconsistent with the rulings of three other circuits. App. 33a–
37a.
The court of appeals first concluded that the tasks
that the district court had extracted from the parties’
relationship arose in the educational context. App.
12a–13a. The respondents were in the student clinics
as part of the program; they alleged that they were
assigned tasks by instructors; and they received
academic credit for the tasks performed. Ibid. Thus,
the “tasks spring from the students’ relationship with
Douglas J.” App. 12a–13a. For that reason, the court
held that the district court should have applied the
primary-beneficiary test that the Sixth Circuit had
adopted in Laurelbrook. Ibid.
The panel majority then turned to whether the
primary-beneficiary test applies to the parties’
relationship as a whole or just to the extracted tasks.
App. 14a–20a. This is where things went awry.
Despite acknowledging that the “proper approach for
determining whether an employment relationship
exists in the context of a training or learning situation

12
is to ascertain which party derives the primary benefit
from the relationship,” App. 11a (citation omitted),
and highlighting factors discussed by other courts
“like whether the purported employee had an expectation of compensation, derives educational value
from the work, or displaces paid employees,” ibid., the
court nonetheless concluded that relationships can,
and should, be segmented for purposes of the FLSA
analysis. App. 14a–20a. Under the panel majority’s
“targeted” approach, the primary-beneficiary analysis
is only applied to the “segments” of the relationship
for which the plaintiffs seek compensation. Ibid.
Courts must not consider any benefits that flow to
students from the rest of the relationship, but must
decide whether students are employees for the
purposes of those tasks only. App. 14a–15a, 20a, 23a.
The panel majority asserted that its segmentation
approach is consistent with the one-of-a-kind
statutory exemption from the definition of employee
for individuals who perform volunteer work for the
same public agency that employs them so long as the
volunteer work is not the same type as the work
performed as an employee. App. 15a–16a (citing 29
U.S.C. 203(e)(4)(A)). The court remanded for the
district court to apply this approach. App. 24a.
Judge Batchelder dissented in part. App. 24a–
43a. She disagreed with the panel majority’s
“targeted” approach, which she recognized as
inconsistent with Sixth Circuit precedent and
creating a circuit split with the Second, Seventh, and
Ninth Circuits. App. 24a. In deciding that cosmetology
students were not employees, each of those courts of
appeals analyzed the totality of the circumstances of
the students’ relationship with the school—not
individualized tasks. App. 37a–39a. Judge Batchelder

13
would have followed the approach in those cases and
applied the primary-beneficiary test to the entire
relationship between Douglas J and the students to
categorize them as either students or employees. App.
31a.
The dissent recognized that this Court has
instructed that a determination of employee status
“depends on ‘the circumstances of the whole activity’
and the parties’ respective contributions ‘to the
accomplishment of a common objective.’” App. 31a
(citing Rutherford Food, 331 U.S. at 727, 730). With
this framework, the dissent considered how to apply
the Sixth Circuit’s version of the primary-beneficiary
test, as articulated in Laurelbrook. The dissent
observed there that the Sixth Circuit had considered
several relationship-level factors such as the benefits
to the students from the “hands-on” training; the
competitive advantage the students gained in the job
market from having attended the school; and the
intangible value of “receiv[ing] a ‘well-rounded
education’ that valued ‘responsibility and the dignity
of manual labor.’” App. 33a (quoting Laurelbrook, 642
F.3d at 531). The Laurelbrook court did not, “analyze
each challenged activity . . . in isolation from the
vocational-training context.” App. 33a.
The dissent pointed out several factors that the
district court could consider under a proper approach,
but could not consider under the majority’s segmentation approach. These factors include the benefits that
flowed to both parties from the students’ work at the
clinic salons—the hands-on experience and instruction the students receive and the income Douglas J
receives from paying customers—as well as the
burdens, such as the time and effort spent supervising

14
and training the students. App. 33a–37a. By disallowing trial courts from considering these relationshiplevel factors, the dissent recognized that the panel
majority split with the other circuits. App. 37a–40a.
The dissent also identified that the majority
“confus[ed] the issue of whether a student is an
employee with the issue of whether an employee is
owed compensation.” App. 40a. These issues require
separate inquiries: the working time question is
“narrowly focused on whether the employee is
working during a particular time period,” whereas the
employee question “makes a broader inquiry, focusing
on the benefits accrued to each party by virtue of the
educational and working relationship.” Ibid. By
“eradicat[ing] any distinction between these distinct
legal issues,” the majority had run afoul of the
purpose of the FLSA and this Court’s guidance in
Portland Terminal. Ibid. For these reasons, the
dissent would have directed the district court to apply
the primary-beneficiary test to the entirety of the
students’ relationship with Douglas J. App. 37a.

15
REASONS FOR GRANTING THE PETITION
The circuits are deeply divided about how to
determine whether a student, intern, or trainee is an
employee under the FLSA. The Sixth Circuit’s
decision below sharpens the division into a clear split
on a threshold methodological issue, by directing that
employee status should be assessed on a task-by-task
basis and not based on the parties’ overall relationship. Three other circuits confronting the same fact
pattern have reached the opposite result. And the
Sixth Circuit’s minority position also conflicts with
the decisions by this Court addressing how courts are
to determine whether an employment relationship
exists for purposes of the FLSA. The Court has not
addressed the issue since its seminal decision in
Portland Terminal. The Court should grant certiorari
to provide clarity to the lower courts and to schools,
internship providers, and employers.
I.

The decision below splits from other circuits
by assessing whether a student, intern, or
trainee is an employee on a task-by-task
basis.

The court of appeals’ decision creates a circuit
split. As the dissent observed, three circuits have held
that cosmetology students who work in their schools’
clinic salons are not employees under the FLSA. App.
37a. More fundamentally, the Sixth Circuit has split
from the other circuits on how to assess whether and
to what extent a student, intern, or trainee is an
employee. The Sixth Circuit’s segmentation approach
sets it apart from the decisions of all the other circuits.
No other circuit separates a learner’s relationship into
constituent tasks—sometimes just minutes in

16
length—and assesses whether the plaintiff or the
school is the primary beneficiary of each task.
1. The other circuits evaluate the entirety of the
working relationship between the student, intern, or
trainee and the school, internship provider, or trainer.
Indeed, as Judge Batchelder pointed out, three
circuits have confronted materially identical facts—
cosmetology training that entailed some cleanup and
similar tasks—and have come to the opposite
conclusion from the Sixth Circuit’s.
The Second Circuit has adopted the most widely
followed analysis. In Glatt v. Fox Searchlight Pictures,
Inc., 811 F.3d 528 (2d Cir. 2016), the court determined that the proper inquiry is “whether the intern
or the employer is the primary beneficiary of the
relationship.” Id. at 536 (emphasis added). The court
identified three features of the primary-beneficiary
test: “it focuses on what the intern receives in
exchange for the work”; it allows courts to consider the
economic reality of the parties’ relationship; and it
recognizes that the intern-internship provider
relationship differs from an employer-employee
relationship because of the intern’s “expectation of
receiving educational or vocational benefits.” Ibid.
The Second Circuit then identified a nonexhaustive list of factors to consider when determining if an intern is an employee. Id. at 536–537. As
the dissent below points out, these factors assess “the
entirety of the working relationship.” App. 38a. The
Glatt factors are:
•

The extent to which there is no express or
implied expectation of compensation.

•

“The extent to which the internship provides
training that would be similar to that which

17
would be given in an educational environment,
including the clinical and other hands-on
training provided by educational institutions.”
•

Whether there is a connection between the
internship and a formal education program.

•

“The extent to which the internship accommodates the intern’s academic commitments by
corresponding to the academic calendar.”

•

“The extent to which the internship’s duration
is limited to the period in which the internship
provides the intern with beneficial learning.”

•

The extent to which the intern’s activities
complement or displace the work of paid
employees.

•

The extent to which the intern and employer
understand that the intern is not entitled to a
paid job at the end of the internship.

811 F.3d at 537. The Second Circuit explained that the
breadth of the analysis may include “evidence about
an internship program as a whole rather than the
experience of particular interns.” Ibid.
Glatt addressed internships, but the Second
Circuit applied the same primary-beneficiary analysis
to cosmetology students in Velarde v. GW GJ, Inc., 914
F.3d 779 (2d Cir. 2019). There, the court explained
that the primary-beneficiary test distinguishes students from employees by “disentangling the threads of
a complex economic fabric and teasing out the
respective benefits garnered by students and their
commercial training programs . . . .” Id. at 785. The
court explained that this analysis is “key to determining whether, for FLSA purposes, a trainee is
serving primarily as an employee of that school or

18
training program—or is primarily a student.” Ibid. In
so doing, the court recognized that a cosmetology
student may be required to engage in some activities
that lack an educational benefit but still be a student
because their activities of chief importance are
educational in nature.
Applying the primary-beneficiary test “to balance
flexibly the benefits received by the student and the
economic realities of the student-entity relationship,” the court had no trouble concluding that the
plaintiff was the primary beneficiary of the relationship. Id. at 786. The court did so even though the
plaintiff complained that he was required to perform
clerical and janitorial tasks that he perceived to have
no educational value. Id. at 786–787.
The Ninth Circuit adopted the primary-beneficiary test as set forth in Glatt and applied it to a
cosmetology program as a whole without segmentation. Benjamin v. B & H Educ., Inc., 877 F.3d 1139,
1146–1148 (9th Cir. 2017).3 The court did so because
it believed the primary-beneficiary test “best
captures” this Court’s economic-realities test in the
educational context. Id. at 1147. The court assessed
various relationship-level factors including the
students’ lack of expectation of compensation or
employment, the students’ receipt of academic credit,
and that the students’ participation ended when they
The plaintiffs in Benjamin, Hollins v. Regency Corp., 867 F.3d
830 (7th Cir. 2017) discussed below, and this case filed nearly
identical complaints. (Compare Compl., ECF No. 1, PageID 1;
with Hollins v. Regency Corp., 13 C 07686 (N.D. Ill.) Compl., ECF
No. 1; Benjamin v. B & H Educ., Inc., 13-cv-4993 (N.D. Cal.)
Compl. ECF No. 1.) Despite the common allegations in the three
complaints, the district court below reached the opposite result
by segmenting the parties’ relationship.
3

19
had accumulated the state-required number of
training hours. Id. at 1147–1148. The Ninth Circuit
ruled that the cosmetology students were not
employees even though they were required to spend
time laundering linens, sanitizing work stations, and
selling products. Id. at 1142, 1147–1148.
The Seventh Circuit also assesses whether
students are employees without segmenting the
student-school relationship. Hollins v. Regency Corp.,
867 F.3d 830, 836–837 (7th Cir. 2017). In another case
involving a cosmetology student claiming to be an
employee of his cosmetology school because he was
required to sanitize the salon floor and restock
products, the court determined that the student was
not an employee because he was paying the school for
instructional time including practical-training time,
and the purportedly menial tasks were also part of the
job of the cosmetologist. Ibid. The Seventh Circuit
considered the full scope of the parties’ relationship to
conclude that no employment relationship existed.
Ibid. The purportedly menial tasks, it concluded, were
“incidental”—“not enough to tip the balance over to
the ‘employee’ side of the line.” Id. at 837. The Seventh
Circuit thus agreed that either the plaintiffs were
employees or they were not, and that there was a
“line” between them—as opposed to the Sixth Circuit’s
zigzag.4

4 The Tenth Circuit has explicitly rejected Glatt, but it also
applies its test to the relationship as a whole. Nesbitt v. FCNH,
Inc., 908 F.3d 643, 646–647 (10th Cir. 2018). The court explained
that its test “relies on the totality of the circumstances and
accounts for the economic reality of the situation.” Id. at 647. The
court reiterated the district court’s assessment, “‘[p]ut another
way, I look at the forest, not just the trees.’” Ibid.

20
2. It is noteworthy that there is a 3-1 split just on
the cosmetology student fact pattern. But the significance of the issue extends to numerous other internship and training scenarios. Even after adding the
circuit decisions from these other contexts to the mix,
the Sixth Circuit’s segmented approach is still distinct. The closest any other circuit has come to
endorsing a segmentation approach is a hypothetical
example from the Eleventh Circuit.
The Eleventh Circuit adopted the primarybeneficiary analysis from Glatt, including the seven
factors that, as discussed above, assess the parties’
overall relationship. Schumann v. Collier Anesthesia,
P.A., 803 F.3d 1199, 1211–1212 (11th Cir. 2015). The
court applied the primary-beneficiary analysis and
the Glatt factors to assess whether students seeking
to become certified registered nurse anesthetists were
employees of the anesthesiology practice where they
performed clinical internships. Ibid. However, despite
adopting the Glatt factors, the Eleventh Circuit
suggested that the application of the primarybeneficiary test may not result in “an all-or-nothing
determination.” Id. at 1214–1215. The court said it
could “envision a scenario” where a plaintiff primarily
benefited from an internship but “the employer also
takes unfair advantage of the student.” Ibid. The
court then posited a hypothetical example of a person
engaged in a medical-related internship who is
required “to paint the employer’s house in order for
the student to complete [the] internship.” Id. at 1215.
The court believed that in that situation, the student
would be an employee for the time spent house

21
painting and a student within the “legitimate confines
of the internship.”5 Ibid.
3. In contrast, the Sixth Circuit has taken a
different approach, departing significantly from the
analysis applied by all of the other circuits. Here, the
court applied the primary-beneficiary test to particular tasks within the parties’ relationship instead of
the relationship as a whole. App. 14a. The panel
majority identified the fact that its analysis allows a
person to transition from employee to student and
back from minute to minute as a “feature” of its
approach. App. 22a. As the dissenting judge noted,
this approach is at odds with the primary-beneficiary
analysis adopted by the Second, Seventh, and Ninth
Circuits. App. 37a–40a. Indeed, the Second Circuit
had expressly noted that the primary-beneficiary
analysis is not intended to require that vocational
school students receive the “optimal learning
experience.” Velarde, 914 F.3d at 787.
The panel majority’s contention that its application of the primary-beneficiary test is no different
than that of the other circuits is belied by the result
here. As the dissent explained, in every other case in
which a cosmetology student has claimed to be a
cosmetology-school employee, the circuit courts have

The dissent distinguishes the Eleventh Circuit’s hypothetical
by noting that it involves two distinct relationships, “clearly
demarcated by both time and place,” unlike the activities at issue
here. App. 36a.

5

22
held that the students are not employees.6 App. 37a–
40a (citing Velarde, Benjamin, and Hollins). And, as
noted above, in Benjamin and Hollins, the plaintiffs
filed complaints that are nearly identical to the
respondents’ complaint here, challenging the same
activities that the respondents challenged here—the
entire time spent in the clinic salon.
The panel majority’s assertion that its application
of the primary-beneficiary analysis is part of the mine
run of cases is further undermined by the absence of
any court adopting a segmentation or “targeted”
approach to determine whether an employment relationship exists in any context. The closest the panel
majority comes to identifying support for segmentation is its discussion of 29 U.S.C. 203(e)(4)(A). App.
16a. But that statute merely creates a narrow
exemption to the rule that a person’s employment
status is considered based on the entire relationship
between a person and their putative employer, limited
to government employees who also volunteer in some
different capacity (e.g., a police officer who volunteers
The district courts have reached the same result. Guzman v.
Lincoln Tech. Inst., 339 F. Supp. 3d 1048, 1057 (D. Nev. Sept. 10,
2018); Winfield v. Civitano, 2018 WL 5298748, at *7 (E.D.N.Y.
Mar. 14, 2018); Ford v. Yasuda, 2017 WL 4676575, at *5 (C.D.
Cal. June 20, 2017); Gerard v. John Paul Mitchell Sys., 2016 WL
4479987, at *8 (C.D. Cal. Aug. 22, 2016); Jochim v. Jean
Madeline Educ. Ctr. of Cosmetology, Inc., 98 F. Supp. 3d 750,
758–760 (E.D. Pa. 2015); Ortega v. Denver Inst. LLC, 2015 WL
4576976, at *17 (D. Colo. July 30, 2015); Atkins v. Capri Training
Ctr., Inc., 2014 WL 4930906, at *10 (D.N.J. Oct. 1, 2014). In the
one other case where a district court ruled that a cosmetology
student was an employee, the court later reversed itself because
of the Ninth Circuit’s decision in Benjamin. Guy v. Casal Inst. of
Nev., LLC, 2019 WL 2192112, at *5 (D. Nev. May 21, 2019).

6

23
as a sports referee). Ibid.; 29 C.F.R. 553.103(c). The
fact that the statutory exemption is necessary
evidences the FLSA’s general rule that a person is
either an employee or not an employee with regard to
a particular employer.
Contrary to the panel majority’s assertion,
Benshoff v. City of Virginia Beach, 180 F.3d 136 (4th
Cir. 1999), is not “an example of how courts have
routinely segmented working relationships for the
analysis of FLSA claims.” App. 16a. There, the court
determined that the plaintiffs, city firefighters, were
not working for the city when they volunteered for
private rescue squads. Benshoff, 180 F.3d at 147.
What mattered was that the rescue squads were not
the city; thus, the plaintiffs had two working relationships, not a single “segmented working relationship[].” Ibid.; App. 16a. The Sixth Circuit’s analysis,
by contrast, breaks a single working relationship with
a single entity into employee and not-employee segments. Nothing in Benshoff supports that approach.
*

*

*

Nearly 75 years after Portland Terminal, the
circuits are in disarray over how to determine
whether a student, intern, or trainee is an employee
for their school, internship provider, or trainer. The
Sixth Circuit’s approach creates a stark circuit split at
the threshold of the analysis: even the circuits that
disagree over what factors make up the “primary
beneficiary” analysis agree that those factors must be
applied to the working relationship as a whole. By
contrast, in the Sixth Circuit, the analysis applies
only to the specific activities challenged by the
plaintiff. Indeed, the Sixth Circuit considers it a
feature of its “targeted” application of the primarybeneficiary analysis that it allows a person to be both

24
a student and an employee for work performed during
the same shift at the same location. This Court’s
intervention is necessary to provide a uniform
national standard.
II. The Sixth Circuit’s holding is wrong.
The question of whether an employment relationship exists under the FLSA is always determined by
the economic realities of the relationship. The
primary-beneficiary test simply tailors the economicrealities assessment to the educational, internship,
and training context. The Sixth Circuit’s decision
misdirects the analysis to specific tasks and away
from the economic reality of the parties’ relationship.
First, the Sixth Circuit’s “segmentation” analysis
is contrary to this Court’s determination that the
existence of an employment relationship is based on
the economic realities of the parties’ relationship.
The FLSA applies only to employment
relationships. See 29 U.S.C. 206, 207. The FLSA
defines “employee” as “any individual employed by an
employer,” and “employ” as “suffer or permit to work.”
29 U.S.C. 203(e)(1), (g). These definitions have been
criticized, including by this Court, as “completely
circular and explain[ing] nothing.” Nationwide Mut.
Ins. Co. v. Darden, 503 U.S. 318, 323 (1992) (applying
the identical definition under ERISA). Accord
Laurelbrook, 642 F.3d at 522 (“exceedingly broad and
generally unhelpful”); Glatt, 811 F.3d at 534
(“unhelpful[]”); Vanskike v. Peters, 974 F.2d 806, 807
(7th Cir. 1992) (“circular”).
In the absence of useful statutory definitions, the
Court has directed that employment is assessed based
on the “economic reality” of the relationship between
the parties. Alamo, 471 U.S. at 301 (citing Goldberg,

25
366 U.S. at 33). And that assessment requires
consideration of “the circumstances of the whole
activity.” Rutherford, 331 U.S. at 730.
The Sixth Circuit acknowledged these requirements, App. 11a, but concluded that the determination of whether a student is an employee should not
be based on “the broader relationship as a whole,”
App. 14a. Instead, the court concluded that the
primary-beneficiary analysis, and thus the assessment of whether a student is an employee, should be
applied “only to that part of the relation-ship” for
which the plaintiff seeks compensation. App. 14a.
The dissent correctly explains that the “economic
reality” of the parties’ relationship cannot be
understood by assessing the relationship piecemeal.
App. 35a. “The economic reality of the parties’
relationship—the very reason for their affiliation—
cannot be appreciated” without considering all of the
circumstances. App. 35a.
Second, the Sixth Circuit conflated whether an
employment relationship exists with questions of
whether various tasks are compensable. App. 40a.
The Sixth Circuit defended its “targeted”
approach for the “segmented” work by citing to several
cases where courts had occasion to divide an
employee’s time between compensable and noncompensable activities, arguing that its new approach
was no different. App. 21a–22a. But as the dissent
pointed out, by conflating the primary-beneficiary test
with this separate question, the court “confus[ed] the
issue of whether a student is an employee with the
issue of whether an employee is owed compensation.”
App. 40a.

26
The FLSA only applies if there is an employment
relationship. Thus, the decision about whether time
spent on call, donning and doffing work-related garments, and on lunchbreaks is compensable follows the
threshold question of whether an employment relationship exists at all. See, e.g., Halferty v. Pulse Drug
Co., 821 F.2d 261, 264 (5th Cir. 1987), modified on
reh’g on other grounds, 826 F.2d 2 (5th Cir. 1987)
(acknowledging that when a plaintiff brings an FLSA
claim seeking compensation for certain tasks, “[t]he
first issue we address is whether, under the FLSA,
[plaintiff] is an . . . employee”). There is a good reason
for this. People do not stop being employees while they
are eating lunch. The term “employment” describes a
relationship, but the compensable-time inquiry
focuses on discrete tasks to determine whether an employee is working during a particular time. Compare
Alamo, 471 U.S. at 301 (weighing factors like the
length of the relationship between the parties and the
parties’ expectations to determine whether an
employment relationship exists), with Integrity
Staffing Sols., Inc. v. Busk, 574 U.S. 27 (2014) (considering whether time spent on security screenings fell
within the undisputed employment relationship such
that it was compensable time under the FLSA).
By prohibiting lower courts from considering
these factors and instead focusing solely on the
benefits that flow from the particular tasks at issue,
the Sixth Circuit has converted the employment
question into another version of the compensable-time
question—essentially reading the threshold employee
requirement out of the FLSA.

27
III. The question presented concerns an
important issue of federal law that warrants
review in this case.
The question presented raises a critical threshold
issue under an important federal statute.7 It warrants
this Court’s review because allowing the Sixth
Circuit’s approach to stand will have significant
practical consequences for vocational schools and
internship providers. Schools and internship providers must now ensure that every moment of a
vocational program or internship primarily benefits
the student over the school or risk a collective action
for minimum wages under the FLSA for some portion
of the program—at least if there is any chance they
can be sued in the Sixth Circuit. Balkanizing a single
relationship in this fashion creates uncertainty to
which schools are sure to respond by restricting the
activities for which students can obtain credit, and
lengthening the time necessary for them to meet
state-hours requirements.
This comes at a time when enrollment in
vocational education is increasing as an alternative to
traditional college. See Meg St-Espirit, The Stigma of
Choosing Trade School Over College, The Atlantic
(Mar. 6, 2019), https://tinyurl.com/4tjf2xfz (noting
that from 1999 to 2014 trade-school enrollment in the
This Court has explicitly acknowledged the importance of the
employee question under the FLSA before. Goldberg, 366 U.S. at
29 (granting cert. “because of the importance of the problem in
the administration of the [FLSA]”); Rutherford Food, 331 U.S. at
723 (reviewing “because of the importance of the issues presented by the petition for certiorari to the administration of the
[FLSA].”); Portland Terminal, 330 U.S. at 149 (“Certiorari was
granted because of the importance of the questions involved to
the administration of the [FLSA].”).

7

28
country rose about 67% compared to a 28% increase in
traditional college enrollment). Indeed, as traditional
college is perceived as increasingly less affordable,
vocational schools are becoming more important for
training the nation’s high school graduates. Douglas
Belkin, Why an Honors Student Wants to Skip College
and Go to Trade School, Wall St. J. (Mar. 5, 2018),
https://tinyurl.com/56zmyyfn (reporting that in light
of increasing affordability concerns over traditional
college, “U.S. high schools . . . are beginning to reemphasize vocational education”).
All of these programs are potentially implicated
by the issue presented because it applies far beyond
cosmetology schools. It affects the myriad forms of
vocational training provided by schools and
employers. Recent cases have applied the primarybeneficiary analysis to relationships ranging from
attendees at a casino’s “dealer school” to participants
in residential rehabilitation programs who are
required to perform work. Vaughn v. Phoenix House
N.Y., Inc., 957 F.3d 141 (2d Cir. 2020) (rehabilitation
program participants); Harbourt v. PPE Casino
Resorts Maryland, LLC, 830 F.3d 655 (4th Cir. 2016)
(casino dealers). In the traditional education setting,
the issue presented here arises at every level of
vocational training from high school through graduate
school. See, e.g., Laurelbrook, 642 F.3d 518 (boarding
school students); Sandler v. Benden, 715 F. App’x 40
(2d Cir. 2017) (students pursuing a master’s degree in
social work). The circuit split applies to unpaid internships too, including internships that are required to
obtain the necessary practical experience to sit for
state-licensing exams. Wang v. Hearst Corporation,
877 F.3d 69 (2d Cir. 2017) (fashion magazine interns);
Glatt, 811 F.3d 528 (film company interns);
Schumann, 803 F.3d 1199 (nurse anesthetist students

29
working at an internship to fulfill state-required
training requirements).
In all of these contexts, the students and interns
will likely be able to identify tasks that, in isolation,
are either so mundane or repeated so often as to have
little educational value. For every moment that an
intern shadows a senior employee, participates in
trainings, and observes meetings, the intern may
spend twice as much time making photocopies,
opening mail, and cleaning up after meetings. And for
students in vocational programs, some days “may
include relatively menial or repetitive tasks,” but this
does not mean that students do not still benefit from
gaining familiarity with the “day to day professional
experience” of a particular career. Velarde, 914 F.2d
at 787 (quotation omitted). The Sixth Circuit’s
approach subjects internship providers and
vocational-training programs to claims that an intern
who resets conference rooms after observing a
meeting, or the culinary-school student who washes
the dishes, is actually an employee when those tasks
are performed. This unworkable and uncertain segmentation will deter employers from offering internships altogether, even though internship experience
remains one of the most important factors to potential
employers.8 And it will reduce the real-world nature
of vocational training by deterring expectations that
students keep busy while accruing hours for
professional licensure.
8 See Nathalie Saltikoff, The Positive Implications of Internships
on Early Career Outcomes, Nat’l Ass’n of Colls. & Emp’rs J. (May
1, 2017) (“[S]tudents graduating with internship experiences, in
general, are more likely than students without those experiences
to
find
employment
upon
graduation.”),
https://tinyurl.com/y2f76me9.

30
The Sixth Circuit’s new test logically applies in
other contexts too, with surely unintended consequences. If students can “segment” their time between
students and employees, then employers can
“segment” a worker’s time between being an
independent contractor and employee. Indeed, in
crafting its new test, the Sixth Circuit relied, in part,
on its precedent guiding whether workers are
employees or independent contractors. App. 10a–11a
(citing Donovan v. Brandel, 736 F.2d 1114, 1116 (6th
Cir. 1984)). Employers that follow the Sixth Circuit’s
lead could eliminate worker benefits for any portion of
an employee’s work that might more closely resemble
that of an independent contractor than an employee.
In an era where work-from-home has become the
norm for many workers, this could mean a massive
loss in worker benefits.
The Court has not addressed the application of the
FLSA in the educational context since its Portland
Terminal decision. And that case was about unpaid
trainees in a company-run training program, a context that does not mirror many training relationships
today. During the Court’s nearly 75-year silence,
other courts have developed divergent approaches,
none more at odds with this Court’s authority than the
decision below.
Nor have courts been guided by the Department
of Labor. Courts are generating differing multi-factor
analyses in part because the Department of Labor has
not adopted an applicable regulation and its guidance
has been confined to summarizing judicial decisions.
After courts widely rejected the Department’s first
approach, the Department reduced the scope of its
guidance to internships only. And the Department’s
guidance is simply to adopt the factors devised by the

31
Second Circuit in Glatt. Administrative action is not
going to resolve the split caused by the Sixth Circuit’s
decision.
This case raises a clean, purely legal question:
does employee status on the entire working
relationship vary based on what a student does each
minute? There is nothing left to percolate below—the
federal judiciary has gone from the “economic reality”
test in Goldberg, 366 U.S. at 33, to the Sixth Circuit’s
new “targeted” approach assessing only the “segment
of work at issue.” The Sixth Circuit articulated its new
test at length, and the dissent explained in detail why
there is now a clear circuit split. The Court should
grant certiorari to resolve the circuit split and reject
the Sixth Circuit’s segmentation approach to preserve
stability for vocational schools and internships.
CONCLUSION
The petition for a writ of certiorari should be
granted.
Respectfully submitted,
WILLIAM M. JAY
GOODWIN PROCTER LLP
1900 N St., N.W.
Washington, DC 20036
GERARD J. CEDRONE
GOODWIN PROCTER LLP
100 Northern Avenue
Boston, MA 02210

MATTHEW T. NELSON
Counsel of Record
AMANDA M. FIELDER
BRANDON J. CORY
WARNER NORCROSS +
JUDD LLP
150 Ottawa Avenue, NW
Suite 1500
Grand Rapids, MI 49503
(616) 752-2000
mnelson@wnj.com

32
MICHAEL G. BRADY
ADAM T. RATLIFF
WARNER NORCROSS +
JUDD LLP
2715 Woodward Avenue
Suite 300
Detroit, MI 48201

MARCH 17, 2021

Counsel for Petitioners

ia
Appendix A: United States Court of Appeals
for the Sixth Circuit, Opinion in 19-1781,
Issued December 17, 2020 ................................ 1a–43a
Appendix B: United States Court of Appeals
for the Sixth Circuit, Judgment in 19-1781,
Issued December 17, 2020 ...................................... 44a
Appendix C: United States District Court
for the Eastern District of Michigan, Opinion
and Order Granting Plaintiffs’ Motion for Partial
Summary Judgment [60] and Granting in Part and
Denying in Part Defendants’ Motion for Summary
Judgment [56] in 5:14-cv-10887-JEL-MJH,
Issued October 1, 2018 .................................... 45a–70a
Appendix D: United States District Court for the
Eastern District of Michigan, Opinion and Order
Granting Defendants’ Motion to Amend and
Certify Order for Interlocutory Appeal [81],
Denying Motions for Leave to File Amicus
Curiae Brief [90, 91], And Staying Case in
5:14-cv-10887-JEL-MJH,
Issued March 1, 2019 ...................................... 71a–81a
Appendix E: United States Court of Appeals
for the Sixth Circuit, Order Granting Petition
for Permission to Appeal in 19-104,
Issued July 17, 2019 ........................................ 82a–83a
Appendix F: United States Court of Appeals
for the Sixth Circuit, Order Denying Petition
for Rehearing En Banc in 19-1781,
Issued February 9, 2021.......................................... 84a

iia
Appendix G:
29 U.S.C. §203. Definitions ...................... 85a–96a
29 U.S. Code § 206. Minimum
wage ......................................................... 97a–103a
29 U.S. Code § 207. Maximum
hours ...................................................... 104a–122a

1a
Appendix A
RECOMMENDED FOR PUBLICATION
Pursuant to Sixth Circuit I.O.P. 32.1(b)
File Name: 20a0383p.06
UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT
_________________________
JOY EBERLINE; TRACY POXSON;
CINDY ZIMMERMANN,

No. 19-1781

Plaintiffs-Appellees,
v.
DOUGLAS J. HOLDINGS, INC.;
DOUGLAS J. AIC, INC.; DOUGLAS J.
EXCHANGE, INC.; DOUGLAS J.
INSTITUTE, INC.; SCOTT A.
WEAVER; TJ WEAVER,
Defendants-Appellants.
Appeal from the United States District Court
for the Eastern District of Michigan at Ann Arbor.
No. 5:14-cv-10887—Judith E. Levy, District Judge.
Argued: May 5, 2020
Decided and Filed: December 17, 2020
Before: COLE, Chief Judge; BATCHELDER and
STRANCH, Circuit Judges.
_________________
COUNSEL

2a
ARGUED:
Matthew
T.
Nelson,
WARNER
NORCROSS + JUDD LLP, Grand Rapids, Michigan,
for Appellants. John C. Philo, SUGAR LAW CENTER
FOR ECONOMICS & SOCIAL JUSTICE, Detroit,
Michigan, for Appellees. ON BRIEF: Matthew T.
Nelson, Amanda M. Fielder, WARNER NORCROSS +
JUDD LLP, Grand Rapids, Michigan, Adam T. Ratliff,
WARNER NORCROSS + JUDD LLP, Southfield,
Michigan, for Appellants. John C. Philo, Anthony D.
Paris, SUGAR LAW CENTER FOR ECONOMICS &
SOCIAL JUSTICE, Detroit, Michigan, Kathryn
Bruner James, GOODMAN HURWITZ & JAMES,
P.C., Detroit, Michigan, for Appellees.
COLE, C.J., delivered the opinion of the court in
which STRANCH, J., joined, and BATCHELDER, J.,
joined in part. BATCHELDER, J. (pp. 18–31),
delivered a separate opinion concurring in part and
dissenting in part.
_________________
OPINION
_________________
COLE, Chief Judge. Plaintiffs Joy Eberline, Tracy
Poxson, and Cindy Zimmermann are former cosmetology school students who sued defendants Douglas
J. Holdings, Inc., Douglas J AIC, Inc., Douglas J.
Exchange, Inc., Douglas J. Institute, Inc., Scott
Weaver, and T.J. Weaver (collectively, “Douglas J”),
the operators of the Michigan cosmetology schools
that the plaintiffs previously attended. The plaintiffs
claim that Douglas J owes them compensation under
the Fair Labor Standards Act (“FLSA”) for work
performed during their time in school. The district
court granted summary judgment to the plaintiffs on
a subset of their claims, holding as a matter of law

3a
that the plaintiffs were owed compensation under the
FLSA for certain cleaning and janitorial work they
were required to complete during their time as
students at Douglas J.
We determine that the district court properly
focused its partial summary judgment analysis on the
specific work for which plaintiffs seek compensation,
rather than on the entirety of the vocational training
program in which plaintiffs participated. It failed,
however, to correctly apply our decision in Solis v.
Laurelbrook Sanitarium & School, Inc., which governs FLSA claims in an educational setting. See 642
F.3d 518, 529 (6th Cir. 2011). We therefore reverse the
district court’s order granting summary judgment to
the plaintiffs and remand for proper application of
Laurelbrook to the work at issue.
I. BACKGROUND
A. Michigan’s Regulation of Cosmetologists
We begin by recounting the complex regulatory
structure that Michigan imposes upon cosmetologists
and the schools that train them. Michigan law
requires people to obtain a license before they can
perform cosmetology services for the public. See Mich.
Comp. Laws § 339.1203a(1). Specifically, the law
prohibits people from performing “any form of cosmetology services, with or without compensation, on any
individual other than a member of his or her
immediate family without a license.” Id. Those
services include hair care, skin care, manicuring, and
electrology. Id. § 1201(d), (f). To be licensed, a person
must meet several requirements. He or she must be at
least 17 years old and of good moral character, have
at least a ninth-grade education, complete either a
1,500-hour course of study in a school of cosmetology

4a
or a two-year apprenticeship at a licensed cosmetology
establishment, and pass a licensing examination. Id.
§ 1207.
Cosmetology schools themselves must also be
licensed. Id. § 1203b. To maintain its license, a
cosmetology school must meet several requirements,
including that it must follow a state-mandated
curriculum. Id. § 1205. The distribution of instruction
time included in a school’s 1,500-hour cosmetology
curriculum is set by state regulation. See Mich.
Admin. Code R. 338.2161. The curriculum must
include 425 hours of classroom instruction on theory,
965 hours of practical experience, and 110 hours that
are not assigned to any specific topic. Id. Both the
theoretical and the practical hours are further
controlled in that they must be divided between
several different cosmetology topics such as facials,
manicuring and pedicuring, hairdressing, and hair
coloring, as prescribed by regulation. Id.
B. Douglas J’s Cosmetology Schools
Douglas J operates licensed cosmetology schools
in Michigan. The plaintiffs in this case attended
Douglas J’s Ann Arbor, Grand Rapids, and East
Lansing schools. At each school, Douglas J has classrooms that are used for theoretical instruction and
operates a clinic salon where students work towards
the 965-hour practical experience requirement set by
the state. The clinic salons aim to “emulate a true
salon setting,” with “numerous styling stations . . .
and a complete skin and nail spa.” (Acad. Catalogue of
Douglas J, R. 21-8, PageID 312.) The salons are open
to the general public, and customers pay for beauty
services provided by students under the tutelage of
Douglas J’s instructors. The salons also have a retail
floor where apparel, tools, merchandise, skin and hair

5a
care products, makeup, and other products are
available for sale. Douglas J’s curriculum materials
state that this retail floor “gives students the opportunity to enhance their product knowledge and retail
sales abilities—skills essential to a successful career
in the beauty and wellness industry.” (Id.)
Only students perform cosmetology services for
customers in the salons, doing so under the supervision of licensed instructors. The instructors assist
and observe the students working in the salon in order
to evaluate their performance and ensure that the
customers receive the service for which they paid.
Ultimately, the students are graded for their work in
the salon based on the technical execution of the service performed and the customer service experience
provided.
Students sign an enrollment agreement with the
school that does not include any mention of students
being compensated for any of their time spent in
salons, or for any other portion of their relationship
with Douglas J. The plaintiffs in this case did not
expect to be paid by Douglas J during their time at the
school. The students also did not have an expectation
of employment with Douglas J upon the completion of
their educational training and knew that they would
be responsible for finding employment as a
cosmetologist after graduating.
Although students are not paid for their time in
the salons, Douglas J does make a profit from the
salons. These profits come from tuition paid by students, products purchased as required equipment by
students, beauty products sold to customers in salons,
and sales from salon services to the public. Douglas J
employs the aforementioned licensed instructors and
other guest-services personnel and also contracts with

6a
a janitorial service. Among the guest services
personnel employed by Douglas J are aesthetics workers who are expected to sweep, dust, and polish the
salons; clean and stock the shelves; clean windows;
and generally keep the school clean.
C. Cleaning and Janitorial Activities
Students are scheduled to work in the salons
during set times, during which they may not always
have a customer to work with. Douglas J provides its
instructors with a list of acceptable activities to assign
to students during such times. Some of these tasks
appear to be related to the training of students for a
career in cosmetology. Those activities include working on techniques using mannequins, assisting fellow
students who are working with customers, and working on group projects with other students. Other tasks
may be less related to the school’s purpose. Students
could also be asked to do laundry, restock shelves with
products sold to customers, clean various stations
where customer services are performed, and clean and
replace coffee mugs, among other tasks.
Testimony from the students provides additional
insight into the nature of these general cleaning and
janitorial tasks. Eberline explained that students
were required to wash, sort, and fold towels; sweep
and dust the studio; clean glass surfaces; clean the
break room microwave; and perform other jobs as
needed. She added that students would not be permitted to leave until every station in the studio (not just
the station used by the student) was so clean that “you
could eat off of it pretty much.” (Eberline Dep., R. 6027, PageID 2325.) Poxson testified that students also
were required to clean the break room, stock product
shelves, and maintain shampoo and wax stations. She
further described how students who were behind on

7a
their hours could also come in on days when the salon
was closed to customers and help give the salon and
classrooms a “deep cleaning.” (Poxson Dep., R. 60-28,
PageID 2404.) Zimmermann explained that students
would empty the trash and clean the boards, tables,
and floors in the school’s classrooms as well.
Instructors were encouraged to assign students these
janitorial tasks and Douglas J’s president testified
that a student who refused to perform these tasks
would be sent home for the day, denying that student
of the opportunity to gain additional hours toward his
or her state-imposed requirement on that day and
necessitating that the student make up the hours on
another day.
The amount of time spent on these activities
varied by student. Eberline estimated that she spent
a half-hour on these tasks each day, and nearly four
hours on slower days. The plaintiffs extrapolate
Eberline’s estimates to conclude that she spent
roughly 348 hours on these tasks over the course of
her time at Douglas J. Using similar methods, they
estimate that Poxson spent 304 hours doing these
tasks and that Zimmermann spent at least 150 hours.
The plaintiffs argue that the cleaning and janitorial activities are not included in Douglas J’s curriculum or in the state requirements for cosmetology
schools.1 Moreover, Douglas J does not provide
1 Douglas J and the dissent assert that these activities may have
been included in the curriculum. Douglas J says that “Plaintiffs
agree that, as part of their educational experience in the clinic,
Douglas J trained them on proper sanitation procedures.”
Appellant Br. at 16. Michigan regulations do require instruction
on sanitation and patron protection in cosmetology schools. See
Mich. Admin. Code R. 338.2161. This instruction, however,

8a
classroom instruction on these tasks or supervise students as they perform them as it does for curriculumrelated activities in the salons, because, unlike other
tasks in the salon, student performance on these
activities is not graded by Douglas J’s instructors. To
the extent that students did not complete the cleaning
and janitorial tasks, they fell to paid workers.
Students, however, received academic credit for
the time spent on these tasks in the sense that the
time went toward their total hours of practical experience required for graduation. Eberline testified that
the students’ logs for their hours—which specify how
many hours were spent on particular tasks—did not
include a spot for hours spent on these cleaning and
janitorial tasks, so students were instructed to
“magically make those numbers work” by apportioning the hours spent on these tasks to the areas where
the students were short. (Eberline Dep., R. 60-27,
PageID 2340.) Whether Douglas J was permitted to
issue credit for this time under state regulation is
unclear, see Mich. Admin. Code R. 338.2161, but the
parties do not dispute that all plaintiffs were credited
for their time working on janitorial and cleaning tasks
while at Douglas J and graduated on time.

appears to be distinct from the tasks for which the students are
seeking compensation, as the regulations refer to instruction on
ensuring proper sanitation of a cosmetology station before and
after providing service to a customer and the tasks the students
complain about are undertaken when there are no customers for
the student to serve, or when not in the salons at all. Moreover,
the time spent on the tasks at issue here seems to exceed the
amount of time that the regulations allow schools to devote to
sanitation. See id.

9a
D. District Court Proceedings
The students filed a complaint under the FLSA in
the United States District Court for the Eastern
District of Michigan, seeking compensation for all
time spent working in Douglas J’s clinics. The complaint included allegations stating a collective action
and that the three named plaintiffs represent a class
of similarly situated individuals. The parties agreed,
however, to stay conditional class certification proceedings while they litigated the question of liability
through summary judgment. Class certification
proceedings remain stayed pending this appeal. After
discovery concluded, the students moved for partial
summary judgment, arguing that there was no genuine dispute of material fact as to their claim that they
are entitled to compensation for time spent working
on general cleaning and janitorial tasks. The plaintiffs
did not seek summary judgment on their other claims.
Douglas J also moved for summary judgment as to all
the plaintiffs’ claims.
The district court granted the plaintiffs’ motion
for partial summary judgment on the grounds that the
cleaning and janitorial activities were far removed
from the educational relationship between the parties
and that Douglas J was taking advantage of the
students by forcing them to perform the subject tasks.
The district court found that the students were therefore employees under the FLSA. Accordingly, the
court denied in part Douglas J’s motion for summary
judgment, but it granted summary judgment for
Douglas J on the plaintiffs’ remaining claims. The
plaintiffs asked the district court to reconsider its
decision to grant summary judgment to Douglas J on
the plaintiffs’ other claims for compensation. The dis-

10a
trict court denied the plaintiffs’ motion for reconsideration without prejudice, stating that the plaintiffs
could refile following our decision in this appeal.
The district court then granted Douglas J’s motion
to certify the summary-judgment order for appeal to
this court under 28 U.S.C. § 1292(b). We granted
Douglas J’s request for an interlocutory appeal. Thus,
we have appellate jurisdiction over Douglas J’s appeal
under 28 U.S.C. § 1292(b). All the issues raised in this
appeal are legal ones, so our review of the district
court’s grant of summary judgment is de novo. Chao
v. Double JJ Resort Ranch, 375 F.3d 393, 396 (6th Cir.
2004).
II. ANALYSIS
The FLSA requires that employers pay employees
a minimum wage. 29 U.S.C. § 206(a). The law—
perhaps tautologically—defines “employee” to include
“any individual employed by an employer.” Id.
§ 203(e)(1). “Employ” is defined as “to suffer to permit
work.” Id. § 203(g). “Employers” include “any [individual, partnership, association, corporation, business
trust, legal representative, or organized group of
persons] acting directly or indirectly in the interest of
an employer in relation to an employee.” Id. § 203 (a),
(d). The question in this case is whether students of
Douglas J’s cosmetology schools are employees at all.
In applying the FLSA’s definition of employee
status, courts have developed tests to analyze the
question of whether an employment relationship
exists. “Whether a particular situation is an employment relationship is a question of law.” Fegley v.
Higgins, 19 F.3d 1126, 1132 (6th Cir. 1994). In
general, “it is the ‘economic reality’ of the relationship
between parties that determines whether their

11a
relationship is one of employment or something else.”
Solis v. Laurelbrook Sanitarium & Sch., Inc., 642 F.3d
518, 522 (6th Cir. 2011) (quoting Tony & Susan Alamo
Found. v. Sec’y of Labor, 471 U.S. 290, 301 (1985)).
This standard “is not a precise test susceptible to
formulaic application.” Ellington v. City of East
Cleveland, 689 F.3d 549, 555 (6th Cir. 2012). Rather,
the employment relationship “is to be determined on
a case-by-case basis upon the circumstances of the
whole business activity.” Donovan v. Brandel, 736
F.2d 1114, 1116 (6th Cir. 1984) (citing Rutherford
Food Corp. v. McComb, 331 U.S. 722 (1947)).
For vocational schools, we have rejected a
proposed bright-line rule that no student can ever be
considered an employee of his school. Laurelbrook,
642 F.3d at 523–24. In Laurelbrook, we explained that
“determining employee status by reference to labels
used by the parties is inappropriate.” Id. at 524.
Rather, “the proper approach for determining
whether an employment relationship exists in the
context of a training or learning situation is to ascertain which party derives the primary benefit from the
relationship.” Id. at 529. To determine the primary
beneficiary, we look at factors like whether the purported employee had an expectation of compensation,
derives educational value from the work, or displaces
paid employees. Id. And we may consider “[a]dditional
factors that bear on the inquiry . . . insofar as they
shed light on which party primarily benefits from the
relationship.” Id. A plaintiff who claims entitlement to
compensation under the FLSA for work done in a
training or learning situation will only be considered
an employee when she does not derive the primary
benefit from the relationship. Id.

12a
But before reaching the primary-beneficiary
analysis in this case, we must answer two questions.
First, do we apply the primary-beneficiary test at all
when the work at issue is not part of the school’s
educational curriculum? Second, given that the
students claim an entitlement to compensation for
some, but not all, of the work they performed during
the course of the vocational program, do we apply the
primary-beneficiary test to only that targeted
segment of the program at issue or to the educational
program as a whole? As we explain below, the
Laurelbrook test governs this case and applies only to
the activities at issue in the claim for compensation.
A. Applicability of the Primary-Beneficiary
Test
We turn first to the question whether the primarybeneficiary test applies to the subset of the plaintiffs’
claims presently before us. The district court determined that the test does not apply. It correctly observed that the primary-beneficiary test as announced
in Laurelbrook is limited to situations where the
activity in question occurs in a training or learning
situation. After concluding that these activities fell
outside of that situation, and thus the scope of
Laurelbrook’s holding, the district court fashioned a
new test to ascertain whether the tasks at issue
constitute compensable work.
Under the district court’s approach, a court would
ask whether the activity in dispute was “‘well beyond
the bounds of what could fairly be expected to be part
of the internship’ or educational program.” Eberline v.
Douglas J. Holdings, Inc., 339 F. Supp. 3d 634, 643
(E.D. Mich. 2018) (quoting Schumann v. Collier
Anesthesia, 803 F.3d 1199, 1214–15 (11th Cir. 2015)).
If it is, the court would then consider “whether the

13a
employer is taking unfair advantage of the student’s
need to complete the internship or educational program.” Id. If the court found that the employer was in
fact taking unfair advantage of the student’s need to
complete the educational program, it would determine
that the relationship is one of employment for FLSA
purposes so long as the time spent on the activities
was not de minimis. It was under this test that the
district court found that the plaintiffs were employees
under the FLSA and granted their motion for partial
summary judgment.
The district court erred in using this new test. Its
error stems from its central premise for departing
from Laurelbrook’s test: that the activities at issue are
“not within the training or learning situation.” Id. at
645. To be sure, the janitorial tasks assigned to the
plaintiffs were not a part of Douglas J’s written
curriculum, not required by the state regulations
governing cosmetology education, and not directly
supervised by instructors. But other aspects of the
relationship between Douglas J and its students lead
us to conclude that the janitorial work took place
within the educational context, regardless of its
ultimate educational benefit. The students were in the
salons as part of the educational program, were
assigned the tasks at issue by the same instructors
who oversaw their practical training, received
academic credit for the time spent on the tasks, and
were told that they would be sent home—potentially
delaying their graduation from the school—if they
failed to complete the assigned tasks. We therefore
conclude that the tasks spring from the students’
relationship with Douglas J, meaning that we must
analyze this FLSA claim related to those tasks under
the primary-beneficiary test as laid out in
Laurelbrook.

14a
B. Application of the Primary-Beneficiary
Test
We now turn to the second question: How does the
primary-beneficiary test apply in a case where
students in a training or learning environment seek
compensation for some, but not all, of the work they
perform during the course of the educational relationship with the school? The parties present competing
visions. The plaintiffs contend that we should apply
the primary-beneficiary test only to the segment of
time for which they seek compensation, asking which
party is the primary beneficiary of plaintiffs’ janitorial
work. Douglas J asks us to apply the test to the entire
relationship between the parties and would have us
conclude that FLSA plaintiffs are not entitled to compensation for any of the work they perform within the
vocational training program so long as the trainees
are the primary beneficiaries of the program as a
whole.
We conclude that when a plaintiff asserts an
entitlement to compensation based only on a portion
of the work performed in the course of an educational
relationship, courts should apply the primary-beneficiary test we laid out in Laurelbrook only to that part
of the relationship, not to the broader relationship as
a whole.
1. Propriety of a Targeted Approach for
the Segment of Work at Issue
We start with Laurelbrook itself. There, the
putative employer was a Seventh-Day Adventist high
school where students learn “in both academic and
practical settings.” Laurelbrook, 642 F.3d at 520. As
part of the practical curriculum, and in line with the
school’s “stated mission,” students were assigned to

15a
work in the school’s kitchen and housekeeping
departments, as well as in a sanitarium operated by
the school. Id. The Secretary of Labor sued the school,
contending that the students were employees under
the FLSA based on the work they did as part of the
school’s practical learning program. Id. at 519.
After explaining the rationale for the primarybeneficiary test, we analyzed the work performed as
part of the school’s vocational training. Id. at 529–32.
Instructive here, our analysis focused exclusively on
the work that was the subject of the case. Id. To
determine who was the primary beneficiary of this
work, we considered the benefits of the students’
kitchen, housekeeping, and sanitarium work to the
school and the benefits that the students received
from the work, ultimately concluding that the
students were the primary beneficiaries because the
practical learning that the work afforded students
was part of the school’s educational program. Id.
Notably, we did not consider the unchallenged parts
of the program, such as the parts of the curriculum
that included traditional classroom instruction, as no
party contended that the high school students were
employees during the time they spent in class and
only the vocational program was at issue. Id. Thus, we
effectively adopted the test that the plaintiffs ask us
to use here; we considered whether the students were
the primary beneficiaries of the activities for which
their status as employees was in dispute.
Comparisons to other areas of employment also
support the conclusion that relationships can be segmented for purposes of an FLSA analysis such that a
person is an employee in one part of the relationship
but not another. For example, the FLSA exempts from

16a
the definition of “employee” “any individual who volunteers to perform services for a public agency which
is a State, a political subdivision of a State, or an
interstate governmental agency” when the individual
“receives no compensation” and the services she
volunteers to perform are “not the same type of
services which the individual is employed to perform
for such public agency.” 29 U.S.C. § 203(e)(4)(A).
The Department of Labor has issued regulations
governing when a person who is employed by the state
in one capacity can be considered a volunteer in
another capacity. See 29 C.F.R. § 553.103. These
regulations clarify that a person can simultaneously
have an employment- and a non-employment relationship with the same entity. The Fourth Circuit applied
§ 203(e)(4)(A) and the accompanying regulations to a
case involving city firefighters who also worked on
volunteer rescue squads that performed emergency
medical services for the city. See Benshoff v. City of
Virginia Beach, 180 F.3d 136 (4th Cir. 1999). It
determined that the firefighters were not employees
entitled to compensation when it came to their work
on the volunteer rescue squads, even though they
were employed by the city as firefighters. Id. at 149.
This is just one example of how courts have routinely
segmented working relationships for the analysis of
FLSA claims.
Other circuits that have considered FLSA claims
brought by cosmetology students also use a targeted
approach that focuses on the segments of work at
issue. The Ninth Circuit, for example, considered a
case where students sought compensation for all time
spent in salons but not their time receiving classroom
instruction and applied the primary-beneficiary test
to the time spent in the salons without considering the

17a
time spent in the classroom. Benjamin v. B&H Educ.,
Inc., 877 F.3d 1139, 1142, 1147–48 (9th Cir. 2017).
And the Seventh Circuit’s analysis in Hollins v.
Regency Corp. encompassed a similar scope, focusing
on how the time in the salons related to the
educational goals of the cosmetology program to reject
a claim that the students were entitled to compensation. See 867 F.3d 830, 836–37 (7th Cir. 2017). In the
end, these cases rejected the plaintiffs’ claims not
because they were the primary beneficiaries of their
entire relationship with their schools, but because the
plaintiffs received the primary benefit of the segments
of the relationship that were in dispute.
The dissent takes a different view of other circuits’
approach to this question, arguing that we have split
with three other circuits that “have held that cosmetology students who work at for-profit cosmetology
schools are not employees under the FLSA.” Dissent
at 27. As an initial matter, our opinion today only
addresses how district courts should analyze claims
for compensation related to a segment of work
performed by a student at a vocational school, and we
do not reach the question of whether the plaintiffs
prevail under that standard. So the fact that other
circuits resolved broader student claims in favor of
cosmetology schools based on the facts of those cases
does not create a circuit split. This is especially so
given that our precedent directs us to resolve disputes
in this context by turning to the “economic reality” of
the relationship between the parties “on a case-bycase basis” and that employment status is “not fixed
by labels that parties may attach to their relationship.” Laurelbrook, 642 F.3d at 522 (quoting first
Alamo, 471 U.S. at 301, then Donovan, 736 F.2d at
1116, then Powell v. U.S. Cartridge Co., 339 U.S. 497,
528 (1950) (Frankfurter, J., dissenting)).

18a
Insofar as the dissent argues that we have
deviated from other circuits or our own precedent by
applying the primary-beneficiary test to the segment
of work at issue, it is similarly mistaken. Despite
saying that other courts have “eschewed a ‘segmentation’ approach,” Dissent at 27 n.7, the dissent does not
identify a single case where another court has
addressed a claim for compensation limited to a
portion of an educational program and considered elements of the parties’ broader relationship in applying
the primary-beneficiary test. Cf. Velarde v. GW GJ,
Inc., 914 F.3d 779, 785–89 (2d Cir. 2019) (analyzing a
cosmetology student’s work in the clinic salon when
he claimed an entitlement to compensation for all
time in the salon); Benjamin, 877 F.3d at 1147–48
(same); Hollins, 867 F.3d at 837 (same, and noting
that its holding was specific to the record of
challenged activities before the court); Jochim v. Jean
Madeline Educ. Ctr. of Cosmetology, Inc., 98 F. Supp.
3d 750, 752, 755, 757–60 (E.D. Pa. 2015) (same);
Ortega v. Denver Inst. LLC, No. 14-cv-01351-MEH,
2015 WL 4576976, at *13–17 (D. Colo. July 30, 2015);
Atkins v. Capri Training Ctr., Inc., No. 2:13-cv-06820
(SDW), 2014 WL 4930906, at *7–10 (D.N.J. Oct. 1,
2014); Lane v. Carolina Beauty Sys., Inc., No.
6:90CV00108, 1992 WL 228868, at *3–4 (M.D.N.C.
July 2, 1992) (considering a case where a former
participant in a cosmetology school’s teacher-training
course sought compensation for all work done during
enrollment in the course). Simply put, the dissent does
not cite a case from this court or any other that used
an approach inconsistent with the one we describe
today. The primary-beneficiary test allows courts to
separate claims brought by students who are merely
doing the work their curriculum requires from those
doing work that does not provide a similar

19a
curriculum-based benefit to the students. Through
this test, we advance the FLSA’s stated objective of
ensuring that a minimum wage is paid to all
employees “engaged in commerce.” 29 U.S.C. § 206(a).
Adopting Douglas J’s proposed approach of applying
the primary-beneficiary test to the whole educational
program as opposed to the portion of the program
actually at issue runs counter to the purpose of the
primary-beneficiary test. It would raise the potential
of zones of exploitation in which schools could use
their students in place of paid employees to complete
work unrelated to the educational purpose of the
program, so long as the amount of extra work was not
so large as to render the school the primary beneficiary of the overall relationship. Nothing in our case
law, nor in the language of the statute, indicates that
Congress intended or anticipated this outcome under
the FLSA. Cf. Alamo, 471 U.S. at 301–02 (noting that
permitting an enterprise to use a workforce of volunteers who otherwise meet the criteria for employee
status might have a wage-depressing effect across the
market, which would be contrary to the purpose of the
FLSA).
Here, because of Michigan’s occupational licensing requirements, schools like Douglas J are an access
point through which a person who wants to make a
living as a cosmetologist must pass. To the students,
then, the benefit of attending cosmetology school is
not merely academic, it is a statutory requirement
they must fulfill before they can work in their chosen
profession. Douglas J’s approach would let a school
extract uncompensated labor from students that is
non-educational so long as the value of that labor to
the school does not exceed the value of the overall
relationship to the students. But the benefit to the
student is being able to work at all. In other words,

20a
this approach could lead to the type of exploitation
that the FLSA was designed to combat.
Our targeted approach solves this problem in
accordance with the purpose of the FLSA. It rejects
claims for compensation where the school receives an
incidental benefit from a student’s work as part of the
educational program. But it allows for the possibility
of compensation for labor that—although related to
the educational relationship in an attenuated way—
does not actually provide a benefit to students that
exceeds the benefit of free labor received by the school.
The dissent also states that our approach isolates
the challenged activities from their educational
context. Dissent at 24. Quite the opposite. Our holding
that the primary-beneficiary test may be applied
specifically to a segment of the vocational training
program does not mean that the segment being
analyzed can or should be taken out of its context.
Where the segment of work at issue provides benefits
as a result of its place in the educational relationship,
our test would consider those benefits. Thus, for
example, the district court should consider the fact
that the students here received academic credit for the
challenged work and should evaluate the relationship
between these activities and the school’s curriculum.
The district court should not, however, consider
benefits that come from a different part of the broader
relationship that is not connected to the work at issue.
2. Practical Considerations
Douglas J raises a variety of practical concerns
with our application of Laurelbrook to this case. These
concerns include that the approach will result in
conflicting determinations based on similar facts, will

21a
make FLSA claims in vocational-learning relationships more complex, and will require courts to
separate a broader relationship into compensable and
non-compensable tasks—all of which are related.
None present serious challenges to the administrability of this rule.
The FLSA has long required fact-intensive analyses of employment circumstances. With any legal test,
including the one that Douglas J proposes for this
case, there is a possibility that different courts or
judges might reach differing conclusions based on
similar facts. Appellate review adequately addresses
this concern.
Analyzing segments of the broader relationship
also does not make the district court’s job unduly complex. Courts are well-situated to conduct such a targeted analysis. We already do so, for example, when
we consider claims brought by employees seeking
compensation for their lunch breaks. In Jones-Turner
v. Yellow Enterprise Systems, LLC, we held that
emergency medical technicians were not entitled to
compensation for their lunch breaks when they were
expected to respond to emergency calls but were not
required to stay in their trucks or perform other duties
during the breaks. 597 F. App’x 293, 297–98 (6th Cir.
2015). We have also determined that mail carriers
were not entitled to compensation for lunch breaks
when they remained responsible for items and
receipts that they were carrying during the break but
were not otherwise required to perform duties related
to their jobs during those periods. Hill v. United
States, 751 F.2d 810, 814 (6th Cir. 1984). Similarly,
we found that machine workers were not entitled to
compensation when they were occasionally required

22a
to respond to supervisor inquiries or machine breakdowns during the breaks because those interruptions
were rare. Myracle v. General Elec. Co., 33 F.3d 55,
1994 WL 456769, at *5 (Table) (6th Cir. 1994) (per
curiam). In these cases, we require an analysis of the
specific facts of the plaintiff employees’ lunch break to
determine if the plaintiffs are acting as employees
during that time, an FLSA analysis that courts have
experience undertaking. Thus, we are not persuaded
that they would have difficulty analyzing segments of
the broader educational relationship between school
and student.
As for Douglas J’s final concern, it is correct that
our approach may result in a court finding some tasks
to be compensable but not others. But this is a feature
of the approach, as it allows people who are acting as
employees under the FLSA to be compensated
accordingly. And to the extent that Douglas J fears an
increase in claims related to segments of an educational relationship, we have established safeguards.
We already reject claims for compensation when they
are based on activities undertaken for de minimis
amounts of time or are too difficult in practice to
record. Aiken v. City of Memphis, 190 F.3d 753, 758
(6th Cir. 1999). Indeed, if the time the plaintiffs spent
on the extracurricular janitorial and cleaning tasks
were de minimis, we might do so in this case. The
record, however, reflects that some of the plaintiffs
may have spent more than 20 percent of their time at
Douglas J on those tasks. That amount of time is
unlikely to be de minimis, and it is appropriate that
our test requires a separate analysis of it.
3. Remand
Today, we only address the proper test to analyze
claims like the one before us. As we have discussed,

23a
the district court did not apply this test when it
granted the plaintiffs’ motion for summary judgment.
And absent exceptional circumstances, we do not
resolve issues until the district court has ruled on
them first. E.g., United States v. Poole, 407 F.3d 767,
773 (6th Cir. 2005). Exceptional circumstances are not
present here, so we decline to reach a conclusion as to
which party is the primary beneficiary of the time the
plaintiffs spent working on general cleaning and janitorial tasks. Accordingly, we do not hold that either
party should prevail under the test we now direct the
district court to apply, and our analysis should not be
read to imply that one party is more likely to prevail
on the merits.
Instead, we remand to the district court to apply
the primary-beneficiary test to the plaintiffs’ motion
for partial summary judgment as described herein.
This will allow the district court to consider the multitude of factors relevant to the primary-beneficiary
inquiry in this case. Under Laurelbrook these include:
the plaintiffs’ lack of expectation of payment; the
educational value, both tangible and intangible, of the
tasks under scrutiny; and the displacement of paid
employees to the school’s competitive benefit in the
commercial marketplace, see 642 F.3d at 522, 529,
531; as well as any other considerations that may
“shed light on which party primarily benefits from the
relationship,” id. at 529. Such additional considerations might include: the mandatory or voluntary
nature of the tasks; the relationship of the work at
issue to the school curriculum, state regulations, and
the school’s stated mission and educational philosophy; the type of work performed in the corresponding
real-world commercial setting; and the academic
credit received by the plaintiffs for the work. Additionally, before concluding any portion of plaintiffs’

24a
work for Douglas J is compensable, the district court
should determine whether the work at issue is for de
minimis amounts of time or is practically speaking too
difficult to record. Aiken, 190 F.3d at 758.
III. CONCLUSION
We therefore reverse the district court’s order
granting partial summary judgment to the plaintiffs
and remand this case to the district court for further
proceedings consistent with this opinion.
__________________________________________
CONCURRING IN PART AND
DISSENTING IN PART
__________________________________________
BATCHELDER, Circuit Judge, concurring in part
and dissenting in part. Three cosmetology-school
graduates seek compensation for unpaid labor under
the Fair Labor Standards Act (FLSA), 29 U.S.C.
§§ 201 et seq., claiming they worked as employees
when they restocked beauty products and cleaned
their schools’ clinic salons. To determine whether an
employment relationship exists in the educational
context, we apply the primary-beneficiary test developed in Solis v. Laurelbrook Sanitarium and School,
Inc., 642 F.3d 518, 529 (6th Cir. 2011). Because the
district court failed to properly apply that test, I
concur in the judgment to reverse and remand. But
the majority opinion likewise fails to properly apply
our precedent and unjustifiably creates a circuit split
with the Second, Seventh, and Ninth Circuits. I therefore respectfully dissent from the rest of the majority
opinion.

25a
I.
Michigan heavily regulates its cosmetology
industry to ensure the health and safety of patrons
receiving cosmetic services. Michigan’s Department of
Licensing and Regulatory Affairs (LARA) establishes
sanitation standards necessary “to prevent the
spreading of an infectious or contagious disease” and
conducts routine inspections to ensure compliance
with those standards. Mich. Comp. Laws
§ 339.1203(1). LARA expects cosmetologists to follow
general state and local health regulations, see Mich.
Admin. Code R. 338.2171(2)(b), and for salons to be
“clean, safe, and sanitary at all times,” id. § 338.2173.
Hair clippings must be disposed of after servicing
every patron; fresh towels must be supplied for every
service; and sinks, tubs, and shampoo bowls must be
“thoroughly cleanse[d] and sanitize[d] . . . immediately after each use.” Id.
Individuals cannot render cosmetology services
without a license, which can be obtained only after
completing 1,500 hours of study at a licensed cosmetology school. Mich. Comp. Laws §§ 339.1203a(1),
.1207(d). Schools must provide at least 190 hours of
combined classroom and practical instruction—90
classroom hours and 40 practical hours—on sanitation, patron protection, personal hygiene, and salon
management. Mich. Admin. Code R. 338.2161.1 These
health and safety topics are tested on the stateadministered licensing examination; students must
1 The LARA requires cosmetology schools to allocate a certain
amount of time to each subject but allows up to 110 “unassigned
hours”—i.e., hours not allocated to any specific topic. Mich.
Admin. Code R. 338.2161. So, the regulation allows cosmetology
schools to assign up to 150 hours of practical work related to
sanitation-related topics.

26a
achieve a score of 75% to pass the test and obtain a
license. Id. §§ 338.2139, .2161. Fifteen percent of the
multiple-choice questions test knowledge of infection
control and client protection, covering topics such as
disinfectants, bacteria, virus, fungus, and decontamination. R. 60-40, PageID: 2664. Ten percent of the
questions ask about Michigan’s cosmetology regulations, including licensing requirements and salonmanagement responsibilities. Id. at 2665. The
multiple-choice exam also includes questions on
relevant safety precautions for every cosmetic service.
Id. at 2664–65. The “practical portion” of the exam
scores students on whether they disinfected their
workstations before and after servicing a client, id. at
2667, 2670, and practiced other safety criteria during
every cosmetic service, see, e.g., id. at 2668 (scoring
students on whether they changed towels and cleaned
spills).
The Douglas J Institute and its affiliate
companies (together, Douglas J) operate several statelicensed, for-profit cosmetology schools in Michigan.
Douglas J implements the LARA’s curriculum
requirements regarding sanitation and patron
protection through five units of instruction. The first
unit includes classroom instruction on safety requirements and guest-servicing skills, offering students
opportunities to practice and test their knowledge. R.
56-11, PageID: 1644. According to Douglas J’s written
curriculum, students are taught how to: clean makeup
brushes and wax pots, see R. 60-41, PageID: 2684,
2687; prevent infections, id. at 2688; and maintain a
professional salon appearance, id. at 2677, 2695,
2700. Students practice sanitizing and disinfecting
their tools, id. at 2679, 2683, 2688, 2700, and are
tested on infection control, id. at 2689, and maintaining a professional image, id. at 2677.

27a
The next four units combine classroom instruction
with practical instruction at Douglas J’s student clinic
salons. R. 56-11, PageID: 1644. In the classroom,
students learn about Michigan’s cosmetology regulations, R. 60-41, PageID: 2708, essential business
standards, id. at 2709, 2710, and salon-life expectations, id. at 2712, 2713. Under the supervision of
licensed instructors, students receive practical
instruction by providing a range of cosmetic services
to clients.
Due to need-work limitations, Douglas J students
cannot spend all of their clinic time servicing clients;
there are too many students and not enough clients.
Douglas J provides its instructors with a list of
activities for those students not working with clients,
including practical work, styling practice, mannequin
competitions, marketing, guest services, and general
salon aesthetics. R. 60-37, PageID: 2652.2 Students
choose how to spend their time; Douglas J does not
force students to participate in any particular activity.
See, e.g., Eberline Dep., R. 60-27, PageID: 2314

2

The record does not support the majority’s assertions that the
cleaning tasks—i.e., the general salon aesthetics activities—are
unsupervised by Douglas J’s instructors. See e.g., Poxson Dep.,
R. 60-28, PageID: 2403 (affirming that the students’ cleaning
efforts were “supervised by instructors”); Eberline Dep. 60-27,
PageID: 2326 (explaining that students would not receive credit
for a service if they had not swept the floor). Indeed, the majority
cites Eberline’s testimony for the proposition that “students
would not be permitted to leave until every station in the studio
(not just the station used by the student) was so clean that ‘you
could eat off of it pretty much.’” Majority Op. at 5 (citing Eberline
Dep., R. 60-27, PageID: 2325). If the Douglas J instructors were
not assessing the quality of the students’ cleaning efforts, who
was?

28a
(explaining that students could choose to clean, concentrate on “bookwork” and “homework assignments”
or “work[] on a mannequin”). Douglas J applies the
hours spent on these activities toward the students’
1,500-hour requirements. A student who refuses to
engage in any of the activities, however, cannot accrue
hours because “sit[ting] around and play[ing] around
on Facebook,” does not count toward the state’s
curriculum requirements. Weaver Dep., R. 60-34,
PageID: 2571–72.
Douglas J employs daytime support staff to
maintain the cleanliness of its schools. The aesthetics
personnel are responsible for cleaning the clinic
salons; guest-services personnel assist clients and also
clean the salons. See, e.g., id. at 2564–66; R. 61,
PageID: 2808. The daytime staff’s cleaning efforts are
supported by a nighttime janitorial service, which
cleans the facilities six nights each week. Weaver
Dep., R. 60-34, PageID: 2566.
II.
Three former Douglas J students—Joy Eberline,
Cindy Zimmerman, and Tracy Poxson—brought a
putative class and collective action under the Fair
Labor Standards Act (FLSA) for their unpaid labor at
the clinic salons. They seek compensation for the
hours spent restocking products and cleaning the
salons, as well as the hours spent providing personal
services to paid customers. Douglas J moved for
summary judgment on all claims. The students filed a
motion for partial summary judgment, arguing that
there was no genuine issue of material fact as to
whether the students were employees when they
conducted general labor and janitorial tasks that “consumed a significant portion of student time, displaced

29a
paid workers, and generated substantial profits for
the schools’ owners.” R. 60, PageID#: 2050.
The district court granted the students’ motion.
See Eberline v. Douglas J. Holdings, Inc., 339 F. Supp.
3d 634, 636 (E.D. Mich. 2018). The district court
recognized that in the educational context, the Sixth
Circuit determines whether an employment relationship exists by applying the primary-beneficiary test
developed in Solis v. Laurelbrook Sanitarium and
School, Inc., 642 F.3d 518 (6th Cir. 2011). Id. at 641–
43. But the district court found that “an all-or-nothing
determination of employee status is not appropriate
in every learning or training situation.” Id. at 643
(citing Schumann v. Collier Anesthesia, P.A., 803 F.3d
1199, 1214–15 (11th Cir. 2015)). The district court
therefore created a two-part test whereby courts
determine if an activity is within the learning situation and if it is, Laurelbrook’s primary-beneficiary
test applies. Id. at 643. But the district court said that
if an activity is
well beyond the bounds of what could fairly be
expected to be a part of the internship or
educational program, then the [c]ourt must
look at whether the alleged employer is taking
unfair advantage of the student’s need to
complete the internship or educational program. If so, then the student would qualify as
an employee for all hours expended in tasks so
far beyond the pale of the contemplated
internship that it clearly did not serve to
further the goals of the internship.
Id. at 643–44 (internal citations, quotation marks,
and editing marks omitted). Finally, the district court
explained that the complained-of activity must not be
“de minimis” because the FLSA requires payment

30a
only where the “employee is required to give up a
substantial measure of his time.” Id. at 647 (quoting
White v. Baptist Mem’l Health Care Corp., 699 F.3d
869, 873 (6th Cir. 2012)).
Applying this standard, the district court found
that restocking products and cleaning the salons were
not educational in nature. Id. at 644–46. Douglas J
took unfair advantage of the students, the district
court said, because it required their students to clean
and therefore exploited the “stark power imbalance”
between the parties. Id. at 646–47. The district court
concluded that the amount of time spent on these
activities was not de minimis and granted the plaintiffs’ motion for partial summary judgment. Id. at 647.
Douglas J moved for an interlocutory appeal,
arguing that the district court’s order was contrary to
the overwhelming weight of authority. Pursuant to 28
U.S.C. § 1292(b), the district court certified its order
for interlocutory appeal, defining the issue as
“whether cleaning, laundering towels, and restocking
products are activities that may be extracted from the
entire relationship between the parties before examining their overall relationship under the primary
benefit test enunciated in [Laurelbrook], because
those activities are ‘beyond the pale of the contemplated [cosmetology education and training].’” R. 105,
PageID: 3913 (quoting Schumann, 803 F.3d at 1215)
III.
We review the district court’s grant of partial
summary judgment de novo and will affirm only if
“there is no genuine dispute as to any material fact
and the movant is entitled to judgment as a matter of
law.” Tchankpa v. Ascena Retail Grp., Inc., 951 F.3d
805, 811 (6th Cir. 2020) (quoting Fed. R. Civ. P. 56(a)).

31a
The plaintiffs have the burden of showing that no such
dispute exists, even with the evidence presented in
the light most favorable to Douglas J and with all
reasonable inferences drawn in its favor. See Hickle v.
Am. Multi-Cinema, Inc., 927 F.3d 945, 951 (6th Cir.
2019).
A.
The FLSA requires an employer to compensate its
employees for services performed. 29 U.S.C. §§ 206,
207. Not all working relationships are subject to the
FLSA; only “employees” are owed wages for unpaid
labor. Tony & Susan Alamo Found. v. Sec’y of Labor,
471 U.S. 290, 299 (1985) (“An individual may work for
a covered enterprise and nevertheless not be an
‘employee.’”). To determine whether an employment
relationship exists, courts assess the “economic reality” of the relationship. Id. at 301 (citation omitted).
That determination depends on “the circumstances of
the whole activity” and the parties’ respective contributions “to the accomplishment of a common objective.” Rutherford Food Corp. v. McComb, 331 U.S. 722,
727, 730 (1947) (citation omitted).
Schools conducting vocational-training programs
or internships may fall under the FLSA’s sweep if the
school employs its students. See Walling v. Portland
Terminal Co., 330 U.S. 148, 151 (1947). Plaintiffs
alleging FLSA violations in the educational context
must prove that the school was the primary beneficiary of the working relationship. Laurelbrook, 642
F.3d at 529; see Herman v. Palo Grp. Foster Home,
Inc., 183 F.3d 468, 472 (6th Cir. 1999) (“A plaintiff
generally has the burden of proving that his employer
violated the FLSA.”). The primary-beneficiary test
assesses the “totality of the circumstances” within the
school-student relationship. Laurelbrook, 642 F.3d at

32a
524. That said, evidence that the school displaced paid
employees with free student labor or failed to provide
students with educational benefits will support a
FLSA claim. Id. at 529.
Solis v. Laurelbrook is the leading case in this
circuit dealing with employment relationships in the
educational context. In Laurelbrook, the Secretary of
Labor sued a boarding school for Seventh-Day
Adventist high-school students, alleging violations of
the FLSA’s child-labor provisions. Id. at 519–20.
Students spent four hours of each school day in the
classroom and four hours in a vocational-training
program. Id. at 520. The vocational-training program
taught “practical skills” in classes such as Agriculture, Grounds Management, Mechanical Arts, and
Plant Services. Id. at 520. The vocational-training
program also required students to work in the school’s
sanitarium: a 50-bed intermediate-care nursing
home. Id. Students were assigned to the sanitarium’s
kitchen and housekeeping departments; those sixteen
years and older could participate in the sanitarium’s
state-certified nursing assistant program and provide
medical assistance to patients. Id.
We found that both parties benefitted from the
students’ work in the vocational-training program.
The school benefitted from the students’ work in the
“practical skills” classes by selling goods produced by
the students, including flowers, produce, and wooden
pallets. Id. at 530. Students also provided services to
the paying public, caring for patients at the sanitarium and repairing cars for customers as part of a
course on collision repair. Id. (“The proceeds from
these sales go directly to [the school’s] operations.”).
The students’ work also helped the sanitarium satisfy
its state-licensing requirements. Id. Nonetheless, the

33a
benefits to the school were offset by the burdens of
instructing the students, which meant that the school
did not displace compensated workers. Id. at 530–31;
see also id. at 520 (finding that the school would not
operate the sanitarium if the students did not work
there because the sanitarium’s “sole purpose is to
serve as a training vehicle for its students”).
The students accrued several benefits from the
vocational program, including hands-on training that
allowed students to practice skills and compete in the
job market after graduation. Id. Students also
received a “well-rounded education” that valued
“responsibility and the dignity of manual labor.” Id. at
531 (finding that the program benefitted students by
teaching them “a strong work ethic” and “leadership
skills”). Ultimately, we held that no employment
relationship existed because the students were the
primary beneficiaries of the vocational-training
program and were therefore not employees under the
FLSA. Id. at 531.
B.
Both the district court and the majority here erred
in their application of Laurelbrook’s primary-beneficiary test. In Laurelbrook, the Secretary of Labor sued
the school for exploiting child labor. But we did not
analyze each challenged activity—i.e., growing flowers and produce, building wooden pallets, repairing
cars, caring for patients, maintaining the school’s
operations—in isolation from the vocational-training
context. Rather, we evaluated how the working
relationship benefited each party, accounting for the
entirety of the school’s vocational-training program.
The instruction provided in the school’s vocational
classes—i.e., Agriculture, Grounds Management,
Mechanical Arts, and Plant Services—were a crucial

34a
part of our analysis. See id. at 531 (finding that
students benefitted from “courses of study that have
been considered and approved of by the state
accrediting agency”).
The primary-beneficiary test thus requires us to
assess how both parties benefitted from the students’
work at Douglas J’s clinic salons.3 We must examine
the students’ time spent practicing cosmetic services—on customers and in classroom exercises—
under the supervision of licensed instructors. And we
must consider the fact that but for the hours spent at
Douglas J’s clinic salons, the students could not have
qualified for the licensing exam or obtained a
cosmetology license.
That Douglas J benefits from its students’ work is
not prima facie proof that the school is the primary
beneficiary: Laurelbrook instructs us to consider how
the benefits are offset by the burdens of running a
cosmetology school. So, for example, we should
consider the fact that Douglas J is in the education
business, not the beauty-salon business. See Hollins
3

The majority emphasizes that the Laurelbrook Court “did not
consider the unchallenged parts of the program, such as the
parts of the curriculum that included traditional classroom
instruction.” Majority Op. at 12. It is true that Laurelbrook
focuses on the students’ vocational education, rather than the
classroom education. But the Laurelbrook Court also found it
significant that students received a “well-rounded education”
that included “hands-on, practical training . . . in an
environment consistent with [the students’] beliefs.”
Laurelbrook, 642 F.3d at 531. The classroom-based instruction
thus factored into the analysis. Nonetheless, even if we exclude
any formal classroom instruction—i.e., any work not involving
hands-on instruction—all of the students’ work must be
accounted for.

35a
v. Regency Corp., 867 F.3d 830, 836 (7th Cir. 2017).
Douglas J did not allow licensed cosmetologists to
work at the clinic salons; only students provided cosmetic services. See Eberline Dep., R. 60-27, PageID:
2320–21. Moreover, we must determine whether the
students’ work displaced compensated employees at
the clinic salons.4 The economic reality of the parties’
relationship—the very reason for their affiliation—
cannot be appreciated without taking these facts into
account.
Instead of applying Laurelbrook’s totality-of-thecircumstances test, the district court separated the
challenged tasks—cleaning and restocking—from the
rest of Douglas J’s clinic-salon program. This analysis
conflicts with Laurelbrook’s holistic requirements by
considering tasks that a judge or a panel of judges
deems educationally valueless in isolation from the
vocational-training context. It thereby enables judges
to make wholly subjective judgments about whether
certain activities are “‘well beyond the bounds of what
could fairly be expected to be a part of the internship’
or educational program.” See Eberline, 339 F. Supp. at
543 (quoting Schumann, 803 F.3d at 1214–15).5
4

The plaintiffs claim that they proved that the students’ work
displaced paid staff. See Appellee Br. at 9. But no one disputes
that Douglas J employs support staff and a nighttime janitorial
service to maintain the cleanliness of the schools. See, e.g.,
Eberline, 339 F. Supp. 3d at 637. The district court should
therefore determine the extent to which paid workers were
displaced by the students work.
5 In creating this new test for FLSA claims, the district court
relied on dicta from Schumann, 803 F.3d at 1199, a case in which
the Eleventh Circuit clarified the standard for determining
whether an employment relationship exists in the internship

36a
There is no meaningful distinction between the
district court’s approach and the majority’s “segmentation” approach—both analyze the challenged
activities in isolation from the educational context.6
context. In remanding the case, the Schumann Court cautioned
that “the proper resolution of a case may not necessarily be an
all-or-nothing determination” because it could “envision a
scenario where a portion of the student’s efforts constitute a bona
fide internship that primarily benefits the student, but the
employer also takes unfair advantage of the student's need to
complete the internship.” Id. at 1214. The Schumann Court
imagined
an employer who requires an intern to paint the
employer's house in order for the student to complete a
[medical] internship of which the student was
otherwise the primary beneficiary. Under those circumstances, the student would not constitute an “employee” for work performed within the legitimate confines
of the internship but could qualify as an “employee” for
all hours expended in painting the house, a task so far
beyond the pale of the contemplated internship that it
clearly did not serve to further the goals of the
internship.
Id. at 1215. The district court’s application of the Schumann
hypothetical is unpersuasive. In the Schumann hypothetical, the
two relationships—one educational relationship and one employment relationship—are clearly demarcated by both time and
place. Here, the challenged activities cannot be so easily
extracted from the rest of the vocational-school setting because
those activities were part and parcel of all the activities occurring
under the broad sweep of Douglas J’s curriculum. Cf. Majority
Op. at 10–11 (concluding “that the janitorial work took place
within the educational context”).
6 The majority refers to its approach as a “targeted” approach
because it targets specific segments of the work at issue. Majority
Op. 12–13. But even under a so-called targeted approach, the
result is the same: it instructs courts to analyze only the work

37a
But by evaluating only some activities conducted at
the clinic salons, the majority fails to consider the
entire working relationship between the parties and
therefore contravenes our binding precedent in
Laurelbrook. The majority says that in Laurelbrook,
“we considered whether the students were primary
beneficiaries of the activities for which compensation
was in dispute.” Majority Op. at 12 (emphasis added).
That is not true. Laurelbrook does not isolate the
challenged activities (i.e., the students’ provision of
goods and services to the paying public) from the rest
of the vocational program (i.e., the vocational classes
and practical instruction). Laurelbrook considers
whether the students were primary beneficiaries of
the school’s entire vocational program—not whether
the students were primary beneficiaries when they
engaged in certain activities.
C.
The majority opinion creates a circuit split; the
Second, Seventh, and Ninth Circuits have held that
cosmetology students who work at for-profit cosmetology schools are not employees under the FLSA. See
Velarde v. GW GJ, Inc., 914 F.3d 779 (2d Cir. 2019);
Benjamin v. B&H Educ., Inc., 877 F.3d 1139 (9th Cir.
2017); Hollins, 867 F.3d at 830. And contrary to the
majority’s assertion, see Majority Op. at 13–14, no
other federal court has applied its novel “segmentation” approach to determine whether the FLSA
applies in the cosmetology-school context.7
activities in its crosshairs without regard to the target’s
surroundings.
7 District courts in the Third, Fourth, and Tenth Circuits have
also eschewed a “segmentation” approach, considering the

38a
The Second and Ninth Circuits considered seven
factors (the Glatt factors) to hold that cosmetology
schools did not owe their students wages for hours
worked at their clinic salons. See Velarde, 914 at 785
n.7 (citing Glatt v. Fox Searchlight Pictures, Inc., 811
F.3d 528, 536–37 (2d Cir. 2016)); Benjamin, 877 F.3d
at 1146–47.8 The Glatt factors evaluate the entirety of
the working relationship—not mere segments of it—
between a cosmetology school and its students, assessing (1) the students’ expectation of compensation,
(2) the school’s provision of clinical and hands-on
training, (3) the students’ receipt of academic credit,
(4) the extent to which the work accommodates the
students’ academic commitments by corresponding to
an academic calendar, (5) the duration of the program,
(6) the displacement of paid workers, and (7) the
students’ expectation of employment with the school
after the program. Velarde, 914 F.3d at 785 n.7;
Benjamin, 877 F.3d at 1146–47; see also Hollins v.
Regency Corp., 144 F. Supp. 3d 990, 998–1007 (N.D.
Ill. 2015), aff’d, 867 F.3d 830 (7th Cir. 2017) (applying
the Glatt factors to hold that cosmetology students
were the primary beneficiaries).
totality of the circumstances at the schools’ clinic salons. See
Jochim v. Jean Madeline Educ. Ctr. Of Cosmetology, Inc., 98 F.
Supp.3d 750, 757–60 (E.D. Penn. 2015); Ortega v. Denver Inst.
LLC, No. 14-cv-01351, 2015 WL 4576976, *13–17 (D. Colo. July
30, 2015); Atkins v. Capri Training Ctr., Inc., No. 2:13-cv-06820,
2014 WL 4930906, at *8–10 (D.N.J. Oct. 1, 2014); Lane v.
Carolina Beauty Sys., Inc., No. 6:90CV00108, 1992 WL 228868,
*3–4 (M.D.N.C. July 2, 1992).
8

In Hollins, 867 F.3d at 837, the Seventh Circuit affirmed the
district court’s use of the Glatt factors but declined to “make[] a
one-size-fits-all decision about programs that include practical
training, or internships, or tasks that appear to go beyond the
boundaries of a program.”

39a
In Velarde and Benjamin, the Second and Ninth
Circuits applied the Glatt factors to find that cosmetology students were not employees under the FLSA.
In both cases, the courts found that the students
primarily benefitted from the vocational training
because the students willfully enrolled in the programs knowing they would receive neither compensation for their services nor employment with the school.
Moreover, the schools’ curricula required students to
work no more than the number of hours mandated by
the state-licensing laws. Finally, the schools provided
hands-on training related to classroom instruction,
gave students opportunities to perform services under
the supervision of instructors, and did not displace
paid employees. See Velarde, 914 F.3d at 786–88;
Benjamin, 877 F.3d at 1139. The Second and Ninth
Circuits thus evaluated cosmetology students’ work in
the context of the schools’ entire clinic-salon programs, measuring whether students served primarily
as employees of the schools’ training programs or
acted primarily as students. Velarde, 914 F.3d at 785.
Nor does the Department of Labor (DOL) interpret the FLSA to cover “segments” of work conducted
by students in vocational-training programs or
internships. Rather, the DOL instructs investigators
to apply the seven Glatt factors to determine whether
students working at for-profit businesses are employees under the FLSA. U.S. Dep’t of Labor, Wage &
Hour Div., Field Assistance Bull. No. 2018-2,
Determining Whether Interns at For-Profit Employers
Are Employees Under the FLSA (2018). The DOL
recognizes that the “[student]-employer relationship
should not be analyzed in the same manner as the
standard employer-employee relationship because the
[student] enters into the relationship with the expectation of receiving educational or vocational benefits

40a
that are not necessarily expected with all forms of
employment.” Id. (citing Glatt, 811 F.3d at 536).
The majority opinion ignores this distinction,
thereby confusing the issue of whether a student is an
employee with the issue of whether an employee is
owed compensation. See Majority Op. at 13, 15–16
(citing cases concerning FLSA claims brought by
employees). The latter question—the compensabletime question—is not focused on the nature of the
relationship between the parties; the employeremployee relationship is a given. Rather, the question
is narrowly focused on whether the employee is working during a particular time period. See, e.g., Hill v.
United States, 751 F.2d 810, 812 (6th Cir. 1984)
(holding that an employee was not working during a
lunch period because the employee “had no substantial duties . . . that would inhibit his ability
adequately and comfortably to pursue interests of a
private nature”). The primary-beneficiary analysis
makes a broader inquiry, focusing on the benefits
accrued to each party by virtue of the educational and
working relationship.
The majority eradicates any distinction between
these distinct legal issues. The “segmentation”
approach sidesteps the primary-beneficiary analysis
by ignoring the context of the relationship. This
approach is inconsistent with the purposes of FLSA,
which “was obviously not intended to stamp all
persons as employees who, without any express or
implied compensation agreement, might work for
their own advantage on the premises of another.” See
Portland Terminal Co., 330 U.S. at 151.

41a
D.
Finally, the majority’s analysis is premised on the
assumption that restocking shelves and cleaning
salons are activities that confer little (if any) educational benefit to aspiring cosmetologists. See Majority
Op. 6; id. at 5 (finding that the salon aesthetics
activities are “less related to the school’s purpose” of
training students for a career in cosmetology); id. at
11 (“[T]he janitorial tasks assigned to the plaintiffs
were not part of Douglas J’s written curriculum, not
required by the state regulations governing cosmetology education, and not supervised by instructors.”);
id. at 15–16 (explaining that the challenged activities
fail to provide a “curriculum-based benefit” and are
“unrelated to the educational purpose of the relationship”). Having made this subjective judgment, the
majority holds that that the activities “[did] not actually provide a benefit to students that exceed[ed] the
benefit of free labor received by the school.” Id. at 15.9
But the plaintiffs failed to provide sufficient
evidence to support the majority’s assumption. Start
9 At the same time, the majority faulted the district court for
failing to recognize that the challenged activities “spring from
the students’ [educational] relationship with Douglas J.”
Majority Op. at 11. In rejecting the district court’s analysis, the
majority concedes that “[t]he students were in the salons as part
of the educational program, were assigned the tasks at issue by
the same instructors who oversaw their practical training,
received academic credit for the time spent on the tasks, and
were told that they would be sent home—potentially delaying
their graduation from the school—if they failed to complete the
assigned tasks.” Id. But if it is true that the challenged activities
are “unrelated to the educational purpose of the program,” see id.
at 14, why would we apply the primary-beneficiary analysis to
these activities?

42a
with the curriculum requirements.10 Douglas J’s
written curriculum includes classroom and practical
instruction on cleanliness, infection control, and
maintaining a professional salon image. See R. 60-41;
R. 60-37 (giving instructors examples of salonaesthetics activities, including cleaning, laundry, and
restocking). One of Douglas J’s owners testified that
the school requires students to clean and do laundry
because the LARA requires cosmetologists to keep
their businesses “clean, safe, and sanitary at all
times,” Mich. Admin. Code R. 338.2171, .2173, and
cosmetology schools to teach sanitation, patron protection, personal hygiene, and salon management, id.
§ 338.2161; see Weaver Dep., R. 60-34, PageID: 2571.
That the LARA prescribes cosmetology-specific
measures to prevent infections and contagious disease
in salons, requires schools to provide instruction on
sanitation and salon management, and tests students
on these topics, speaks to the educational value of the
challenged activities. There is therefore a reasonable
connection between Douglas J’s cleaning and restocking requirements and the LARA’s curriculum requirements regarding sanitation, patron protection, and
salon management. The plaintiffs failed to rebut that
connection with evidence that the challenged
activities are somehow unrelated to the educational
purpose of the relationship. See, e.g., Velarde, 914
F.3d at 787 (finding that “clerical and janitorial work”
allowed students to “gain[] familiarity with an industry by day to day professional experience”) (citation
10 Although the majority states that Douglas J asserts that the
activities “may” be included in the curriculum, see Majority Op.
at 6 n.1 (emphasis added), Douglas J explicitly asserts that the
“general salon aesthetics” are a required component of its clinicsalon program, see Appellant Br. at 14.

43a
omitted); Hollins, 867 F.3d at 836–37 (explaining that
schools reasonably regarded activities like cleaning
and restocking shelves as “part of the job of the
cosmetologist,” especially since “Salon Safety and
Sanitation” is a “heavily tested subject area on the
[state] licensing exam”).
IV.
For the foregoing reasons, I concur in the judgment to reverse and remand for the district court to
correctly apply Laurelbrook’s primary-beneficiary
test. But I respectfully dissent from the majority opinion’s rendition of that test because it directly conflicts
with our precedent and creates an unjustifiable split
from our sister circuits.

44a
Appendix B
UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT
No. 19-1781
JOY EBERLINE;
POXSON;
ZIMMERMANN,

TRACY
CINDY

Plaintiffs - Appellees,
v.

FILED
Dec 17, 2020

DOUGLAS J. HOLDINGS,
INC.; DOUGLAS J. AIC, INC.; DEBORAH S.
DOUGLAS J. EXCHANGE, HUNT, Clerk
INC.;
DOUGLAS
J.
INSTITUTE, INC.; SCOTT A.
WEAVER; TJ WEAVER,
Defendants - Appellants.
Before: COLE, Chief Judge; BATCHELDER and
STRANCH, Circuit Judges.
JUDGMENT
On Appeal from the United States District Court
for the Eastern District of Michigan at Ann Arbor.
THIS CAUSE was heard on the record from the
district court and was argued by counsel.
IN CONSIDERATION THEREOF, it is
ORDERED that the district court’s partial grant of
summary judgment in favor of the plaintiffs is
REVERSED and REMANDED for further proceedings consistent with the opinion of this court.
ENTERED BY ORDER OF THE COURT
Deborah S. Hunt, Clerk

45a
Appendix C
UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF MICHIGAN
SOUTHERN DIVISION
Joy Eberline, et al.,
Plaintiffs,

Case No.
14-cv-10887

v.
Douglas J. Holdings, Inc., et al.,
Defendants.
/

Judith E. Levy
United States
District Judge

OPINION AND ORDER GRANTING
PLAINTIFFS’ MOTION FOR PARTIAL
SUMMARY JUDGMENT [60] AND GRANTING
IN PART AND DENYING IN PART
DEFENDANTS’ MOTION FOR SUMMARY
JUDGMENT [56]
Three former students at defendants’ cosmetology
schools brought this putative class and collective
action under the Fair Labor Standards Act (“FLSA”)
and state law. They allege that when they clean, do
laundry, and restock products during the clinical
training portion of defendants’ curriculum, they are
employees entitled to compensation. The key issues in
this case are whether the plaintiff students or the
defendant schools are the primary beneficiary of their
relationship with one another, and whether certain
tasks the students are required to complete—such as
cleaning the clinic, classrooms, and breakroom; doing
the laundry; and restocking the products—are so far
beyond the scope of their education that the tasks
cannot fairly be considered a part of the training.

46a
The Court is now presented with cross-motions for
summary judgment. Plaintiffs bring a motion for
partial summary judgment, seeking a determination
that they are employees when they perform the
aforementioned tasks. Defendants bring a motion for
summary judgment, arguing that all of the students’
claims must fail because they are students and not
employees within the meaning of the FLSA.
For the reasons set forth below, plaintiffs’ motion
for partial summary judgment is granted, and defendants’ motion for summary judgment is denied in
part. In light of the fact that plaintiffs clarified during
oral argument that they are only seeking employee
status for time spent on cleaning, doing laundry, and
restocking products, there is no dispute on the
remainder of the time spent in the clinic. Therefore,
defendant’s motion for summary judgment as to the
remaining time and the other portions of the parties’
relationship is granted in part.
I.

Background

Plaintiffs are three former cosmetology students
at defendants’ schools. Joy Eberline attended defendants’ Ann Arbor school and graduated in 2012. Cindy
Zimmermann attended defendants’ Grand Rapids
institute part-time and also graduated in 2012. Tracy
Poxson graduated from defendants’ East Lansing
school in 2013. Each passed the state cosmetology
licensing exam after graduating.
Defendants are four companies owned and operated by individual defendants Scott Weaver, T.J.
Weaver, and Kristi Bernhardt. Scott and T.J. Weaver
are the only directors of the defendant companies.
Scott Weaver is the defendant with primary decisionmaking authority over the companies. (Dkt. 60-4 at

47a
14-16.) He also serves on the Michigan Board of
Cosmetology. (Dkt. 60-4 at 8.) Kristi Berhnhardt was
the Chief Financial Officer of the corporate defendants during the time period at issue in this litigation.
The four corporate defendants are Douglas J.
Institute, Douglas J. AIC, Douglas J. Exchange, and
Douglas J. Holdings, Inc. Douglas J. Institute, Inc.
operates cosmetology schools in Ann Arbor, East
Lansing, Grand Rapids, and Royal Oak, Michigan, as
well as Knoxville, Tennessee. (Dkt. 60-3 at 2.) Douglas
J. AIC, Inc. operates an additional cosmetology school
in Chicago, Illinois. (Dkt. 60-4 at 14.) Douglas J.
Exchange, Inc. operates salons in Ann Arbor and
Rochester Hills, Michigan. (Id. at 31.) Douglas J.
Holdings, Inc. owns each of the other defendant companies. (Dkt. 60-5.) Defendants Scott and T.J. Weaver
each own half of Douglas J. Holdings, Inc. (Dkt. 60-6.)
Defendants’ businesses are for-profit companies
from which the Weaver defendants earn a considerable amount of money. For example, Douglas J.
Institute earned a net profit of over $1.5 million each
year between 2010 and 2014. (Dkt. 69-1.) The revenue
driving this profit comes from tuition, kit sales,1
beauty product sales, and salon services sales to the
public. (Dkt. 69-2 at 2; Dkt. 69-3 at 2.) Students are
charged $17,850 for the full-time program and
$17,000 for the part-time program, inclusive of the kit
fee. (Dkt. 60-23; Dkt. 60-26.) The companies are set up
such that the net profit flowed through Douglas J.

1

Kit sales refer to the schools’ requirement that students
purchase certain equipment and beauty products from the school
as part of their training. Students are charged $1,700 for the kit.
(Dkt. 60-23 at 2.)

48a
Holdings to Scott and T.J. Weaver as income. (Dkt. 6015 at 6.)
At the time, defendants employed various types of
workers as part of their business model. One type of
worker defendants employed was support staff. The
support staff were broken into two positions:
aesthetics and guest services. Defendants employed
aesthetics personnel “to consistently ensure the Institute is kept clean and materials including towels and
products are always available.” (Dkt. 61 at 2.) These
employees were primarily responsible for “keeping the
place clean throughout the course of the day, [and]
helping keep up with things such as laundry, any
dishes, [and] cleaning.” (Dkt. 60-4 at 19.) The printed
job description for aesthetics personnel informed
potential new hires that the role required “sweeping,
dusting, polishing, window cleaning[,] shelf cleaning[,] . . . load[ing] and unload[ing] [the] dishwasher[,]
. . . ensur[ing] [the] back-bar and stock areas are clean
and tidy[,] [and] other general cleaning tasks as
assigned.” (Dkt. 61.)
The other support staff role in defendants’ operations was guest services personnel. The guest services
team primarily staffed the front desk to greet and
assist clients when they came in the door. (Dkt. 60-34
at 5.) They were also responsible for keeping the waiting area “clean and tidy.” (Dkt. 60-4 at 23.) The guest
services training manual instructed staffers to “come
out from behind the desk and hold doors, dust shelves,
vacuum rugs, [and] clean windows” when they have
down time. (Dkt. 60-47 at 4.) They were also expected
to perform hourly “aesthetic checks,” in which they
would tend to guests and “vacuum all rugs (including
elevator) and clean the glass at all sets of doors.” (Id.
at 5.)

49a
The work of the support staff was bolstered by a
nighttime janitorial service. Defendants hired
Daenzer Building Services to clean the facilities six
nights each week. (Dkt. 60-34 at 19.)
In addition to support staff, defendants employed
licensed cosmetology instructors. (Dkt. 60-4 at 19.)
These individuals had both a state-issued cosmetology
license and a state-issued cosmetology instructor’s
license (Dkt. 60-34 at 8), and they oversaw the
cosmetology students’ time in the clinic and in the
classroom. (Id. at 9.) Each time a student saw a client
in the clinic, the appointment would begin with a
consultation between the student, the instructor, and
the client to ensure the student provided the client
with all of the services the client sought. (Id.) When
the student finished, the instructor would review the
student’s performance to ensure it was adequate. (Id.)
The instructors also oversaw the work of student
instructors. Student instructors are licensed cosmetologists who have returned to school to obtain an
additional license to teach cosmetology. (Id. at 11.)
They were not paid for their time on the floor2 and
were expected to work hand-in-hand with the instructors to oversee the cosmetology students in the clinic.
(Id. at 12.) Occasionally, a student instructor supervised the cosmetology students in lieu of a licensed
instructor. (Dkt. 60-27 at 42.)
The instructors and student instructors supervised the cosmetology students’ time in the clinic
according to defendants’ curriculum, which was based
on Michigan state requirements for licensing cosmetologists. The state requires students to spend 1,500
hours in cosmetology school, in both a clinical and
2

None of the plaintiffs are student instructors.

50a
classroom setting, to become eligible to take a stateadministered licensing exam. (Dkt. 60-20.) The
student must then pass that exam to obtain a license
to practice cosmetology. (Id.) As an accredited and
licensed cosmetology school (Dkt. 60-18 at 6), defendants were obligated by law to conform their curriculum to the subject matter tested on the state licensing
exam. Mich. Comp. Laws § 339.1205(2)(a).
The state-mandated curriculum requires cosmetology students to spend much of their time practicing
their skills on clients under instructors’ supervision.
(Dkt. 60-20.) Students worked in the clinic throughout
their enrollment, and they were required to spend
certain amounts of time on different skills and treatments. For example, the state curriculum required
eighty practical hours of facials, fifty-five practical
hours of manicures, 400 practical hours of hairdressing, 170 practical hours of hair coloring, and 180
practical hours of chemical hair restructuring, among
other categories of skills. (Id.) It also mandated forty
clinical hours on “Sanitation/Patron Protection, Laws
& Rules, Personal Hygiene, Salon Management, [and]
Mechanical & Electrical Equipment Safety.” (Id.)
Neither the state-mandated clinical curriculum nor
defendants’ application of that curriculum include any
time in the clinic for learning the salon business. (Id.
See also Dkt. 60-46.)
Defendants implemented Michigan’s cosmetology
curriculum, using their own grading criteria and
course outlines, in five units: Cosmetology Introduction, Alpha, Beta, Gamma, and Salon Life. (Dkt. 6044.) Over the course of the units, which included both
classroom and clinical time, students learned a wide
range of necessary cosmetology skills, such as how to
cut hair in various styles, color hair, apply makeup,

51a
perform a facial, perform a manicure, chemically treat
hair, and many others. (See generally Dkt. 60-41.) The
curriculum called for students to spend multiple hours
over multiple weeks learning these skills in the
classroom and clinic, but called for just three hours of
classroom training in the “Salon Business.” (Id.) Students were also taught lessons in patient protection
and tool sanitation, but the curriculum included no
lessons on how to do laundry, restock products, or
perform other basic cleaning tasks in a salon. (See Id.)
The Michigan state-administered cosmetology
exam mirrors what is set forth in the curriculum and
tests students’ competency in various areas related to
the profession. It tests both theory and clinical ability.
(Dkt. 60-40.) On the clinical portion of the exam,
students are asked to perform a manicure, a facial,
chemical services, haircutting services, and more.
(Id.) Applicants are tested on sanitation/patient protection during the clinical exam, including whether
they use sanitized tools; wash their hands; dispose of
waste in the trash; and “[e]nsure[ ] [the] workstation
remains sanitary by changing towels when soiled,
cleaning spills, and maintaining sanitary implements/
materials throughout service.” (Id. at 10.)
Students are not permitted to sit for the exam
unless they “have successfully completed a course of
study of at least 1,500 hours.” (Dkt. 60-40 at 14.) The
students tracked their qualifying hours on a log. Each
time a student completed a task, the instructor would
affirm its completion on that log. (Dkt. 60-27 at 46;
Dkt. 60-46.) The students tracked their hours by type
of service performed so that they could ensure they
spent the requisite number of hours on each type of
service. (Dkt. 60-46.)

52a
In addition to completing the required treatments
and services found on the hours log and in the curriculum, plaintiffs spent a significant amount of time
on tasks outside the curriculum, such as cleaning.
Eberline explained:
there was always the laundry to be done so
[students would] have to do load after load of
towels, of course, washing them, drying them,
folding them, putting them in the cabinets
where they belong, et cetera; of course, emptying the dirty ones out and putting those in the
laundry. But aside from that, there was the
continuous sweeping of the floors, the entire
floor, not just the area where [a student was],
the whole salon floor. If somebody at the end
of the day didn’t wipe down their own stuff
and they’re already gone, which happened
daily, [students] would not be allowed to leave
until every station was like you could eat off
of it pretty much. Dusting of the shelfs [sic] in
the guest services area, dusting of all the
products that were sitting on the shelves,
Windexing or whatever glass cleaner they
prefer to use.
(Dkt. 60-27 at 30-31.)
Poxson had a similar experience, noting that they
“would have to do laundry, [ ] would fold the towels,
wash the towels, [and] clean the color station out . . . .”
(Dkt. 60-28 at 43.) There was “a break room downstairs that [students] had to clean” (Id. at 43), as well
as a requirement to “stock the shelves and wipe them
down” in the reception area. (Id. at 37.) Students were
instructed to maintain the shampooing station, which
required them to “take all the shampoo bottles and
wipe them all down, wipe the bowls down, chairs

53a
down, [and] fill the shampoo back up from . . . stock
bottles that were under the sink.” (Id. at 44.) They also
cleaned the wax area and color station. (Id.)
The same was true for Cynthia Zimmermann. She
testified that students were asked to “clean the back
bar where the shampoo bowls and stuff are, clean
where the color station was, do the laundry, take it
from the washer to the dryer, fold when it came out of
the dryer, empty the trash, and then when we had
classroom, we had to do the boards, wipe those down,
clean off the tables, clean the floor, sweep the floor.”
(Dkt. 60-29 at 33.)
The plaintiffs each testified that they would spend
multiple hours cleaning on a slow day and at least half
an hour cleaning every day. (Dkt. 60-27 at 44, 48; Dkt.
60-28 at 44; Dkt. 60-29 at 35.) Spending this amount
of time cleaning was not voluntary, but rather
something instructors were encouraged to have the
students do. (See Dkt. 60-39. See, e.g., Dkt. 60-27 at
30-31, 42-44; Dkt. 60-28 at 25-26, 44-45; Dkt. 60-29 at
33-34.) Defendants provided their instructors with
multiple documents that directed them to have the
students clean, do laundry, and restock products
when there was “down time” (Dkt. 60-39) or when
there were “not enough external guests or models
scheduled to keep the students busy with guests
throughout the shift.” (Dkt. 60-37.) When an
instructor followed this guidance and asked a student
to clean, it was mandatory because, as Scott Weaver
testified, “if a student is refusing to participate in any
activity, then they would be sent home for the day
. . . .” (Dkt. 60-34 at 22.) Being sent home for the day
would prevent a student from accumulating training
hours that day, and would force the student to make
up the hours at a later date.

54a
In addition, there were some days where “it was
strictly cleaning.” (Dkt. 60-28 at 25.) Those days were
Mondays, when the clinic was closed to clients during
the day. Students who had fallen behind on their
hours or wanted to get ahead were able to come in and
participate in a “deep cleaning” of both “the clinic and
the classrooms.” (Dkt. 60-28 at 25.)
Plaintiffs spent a substantial amount of time on
these cleaning tasks. Eberline testified that on a slow
day in the clinic she spent about “four hours of the
day” on cleaning and other work outside the curriculum (Dkt. 60-27 at 44) and a “half hour to forty-five
minutes out of the day” on a busy day. (Id. at 48.) She
estimated that she spent 348 of her 1,075 clinical and
unassigned hours on cleaning,3 representing 32% of
her time spent in the clinic. (Dkt. 71 at 23.) Poxson
testified that on a slow day, she spent “between two
and three hours” cleaning and the last half hour of her
day cleaning on a busy day. (Dkt. 60-28 at 44.) She
estimated that she spent 304 of her 1,075 clinical
hours on cleaning, representing 28% of her time spent
in the clinic. (Dkt. 71 at 23.) Zimmermann testified
that she spent “about a half hour” cleaning each day,
but acknowledged the amount of time fluctuated
depending on how much there was to do. (Dkt. 60-29
at 34.) She estimated that she spent 150 of her 1,075
clinical hours on cleaning, representing 14% of her
3 Of the 1,500 educational hours cosmetology students are
required to complete, 965 must be in the clinic. (Dkt. 60-20.) The
curriculum also contains 110 unassigned hours. (Id.) Because the
record does not set forth how the unassigned hours are typically
spent, the Court assumes that all of the 110 unassigned hours
are completed in the clinic. This is a favorable view of the facts
for defendants, as required by Fed. R. Civ. P. 56, because the
greater number of overall clinical hours students have subsequently reduces the percentage of clinical time spent cleaning.

55a
time in the clinic. (Dkt. 71 at 23.) Taken together,
plaintiffs on average spent 267 of their 1,075 required
hours cleaning. This accounted for an average of 25%
of their time in the clinic. (Id.)
Cleaning was not the only work students did outside the curriculum. On some days the students would
be assigned to guest services. (Dkt. 60-27 at 46.) When
they were assigned to guest services, students would
“greet guests when they would come in . . . run the
tickets for the guest services employees, get the guests
their preferred coffee, tea, whatever, and then . . .
sweeping or dusting or whatnot.” (Id.)
Students were also expected to encourage clients
to purchase the products used in the clinic. Though
not part of the state-mandated curriculum, making
sales pitches was part of defendants’ curriculum.
(Dkt. 60-34 at 28.) Students were evaluated on
whether they engaged in certain “behavior” that is
“intended to motivate guests to purchase product.”
(Id.) Defendants also “track[ed] the student’s per
guest numbers of retail sales of the product” and
provided incentives to the students who sold the most
product. (Id. at 29.)
Because these tasks were outside the scope of the
state-mandated curriculum, the hours log form had no
designated space to credit the students for these
hours. In order to credit the students for hours
actually spent in the clinic—even if those hours were
not spent on tasks within the curriculum—instructors
told students to “just put down what [they] needed
hours in. It didn’t matter if we really didn’t do that
that day . . . .” (Dkt. 60-28 at 25.) It was mandatory
that the students spent 1,500 total hours in school,
and toward the end of the program students were
“instructed to magically make those numbers work, so

56a
[students were] to take whatever hours that [they]
haven’t actually done, whatever these things up here
say, and [students would] have to fill in blanks and
rework the numbers to make it all work out.” (Dkt. 6027 at 46.)
Even though defendants had students perform
tasks outside of the curriculum and record their hours
improperly, students graduating from defendants’
schools still passed the state cosmetology licensing
exam at a high rate. As of 2012, 85% of defendants’
students obtained a cosmetology license. (Dkt. 56-21.)
II. Summary Judgment Standard
Summary judgment is proper when “the movant
shows that there is no genuine dispute as to any
material fact and the movant is entitled to judgment
as a matter of law.” Fed. R. Civ. P. 56(a). The Court
may not grant summary judgment if “the evidence is
such that a reasonable jury could return a verdict for
the nonmoving party.” Anderson v. Liberty Lobby,
Inc., 477 U.S. 242, 248 (1986). The Court “views the
evidence, all facts, and any inferences that may be
drawn from the facts in the light most favorable to the
nonmoving party.” Pure Tech Sys., Inc. v. Mt. Hawley
Ins. Co., 95 F. App’x 132, 135 (6th Cir. 2004) (citing
Skousen v. Brighton High Sch., 305 F.3d 520, 526 (6th
Cir. 2002)).
III. Legal Analysis
The dispositive question on these cross motions is
whether plaintiffs were defendants’ employees while
they were students at defendants’ cosmetology
schools. Because the parties disagree which primary
beneficiary factor test this court should apply to determine whether plaintiffs were employees and how the
test functions in situations where a student may be a

57a
student and an employee at different times, it is
necessary to discuss the context of the Sixth Circuit’s
primary beneficiary test and arrive at a framework for
this analysis. Then, the framework is applied to the
plaintiffs’ motion for partial summary judgment.
Finally, the defendants’ motion for summary judgment is analyzed under that framework.
a. The Laurelbrook Framework
The FLSA, “[w]ithout doubt . . . covers trainees,
beginners, apprentices, or learners if they are
employed to work for an employer for compensation.”
Walling v. Portland Terminal Co., 330 U.S. 148, 151
(1947). But for that coverage to attach, the “trainees,
beginners, apprentices, or learners” must be “employees” as defined by the Act. Id. The FLSA does not cover
“[a]n individual who, ‘without promise or expectation
of compensation, but solely for his personal purpose or
pleasure, work[s] in activities carried on by other
persons either for their pleasure or profit . . . .’” Solis
v. Laurelbrook Sanitarium and Sch., Inc., 642 F.3d
518, 522 (6th Cir. 2011) (quoting Tony & Susan Alamo
Found. v. Sec’y of Labor, 471 U.S. 290, 295 (1985)).
“Whether a particular situation is an employment relationship is a question of law” for the Court to decide.
Fegley v. Higgins, 19 F.3d 1126, 1132 (6th Cir. 1994).
The FLSA defines an employee as “any individual
employed by an employer.” 29 U.S.C. § 203(e)(1). This
definition of an employee is unhelpful as a starting
point for the analysis of whether an individual is an
employee of another, and “labels that parties may attach to their relationship” do not control. Laurelbrook,
642 F.3d at 522 (quoting Powell v. U.S. Cartridge Co.,
339 U.S. 497, 528 (1950)). Instead, “it is the ‘economic
reality’ of the relationship between parties that
determines whether their relationship is one of

58a
employment or something else.” Id. That economic
reality is evaluated on “a case-by-case basis upon the
circumstances of the whole business activity.” Id.
(quoting Donovan v. Brandel, 736 F.2d 1114, 1116
(6th Cir. 1984)). But to “state that economic realities
govern is no more helpful than attempting to determine employment status by reference directly to the
FLSA's definitions themselves.” Id. “There must be
some ultimate question to answer, factors to balance,
or some combination of the two.” Id.
In order to render an “economic realities test” into
something useful for courts to apply, the Sixth Circuit
has instructed that “the proper approach for determining whether an employment relationship exists in
the context of a training or learning situation is to
ascertain which party derives the primary benefit
from the relationship.” Id. at 529. Other circuits have
similarly concluded that determining the primary
beneficiary of the relationship is the proper approach
for evaluating whether a student, trainee, or intern is
an employee under the FLSA. E.g., Glatt v. Fox
Searchlight Pictures, Inc., 811 F.3d 528 (2d Cir. 2015);
Schumann v. Collier Anesthesia, P.A., 803 F.3d 1199
(11th Cir. 2015); Benjamin v. B&H Educ., Inc., 877
F.3d 1139 (9th Cir. 2017); Blair v. Wills, 420 F.3d 823,
829 (8th Cir. 2005); Reich v. Parker Fire Prot. Dist.,
992 F.2d 1023 (10th Cir. 1993); see also Hollins v.
Regency Corp., 867 F.3d. 830 (7th Cir. 2017) (acknowledging the Second Circuit’s Glatt decision and the
Eleventh Circuit’s Schumann decision as persuasive,
but not explicitly applying the primary beneficiary
analysis). Indeed, this notion that employment status
turns on who is the primary beneficiary of the relationship was first articulated by the Supreme Court
nearly seventy years ago. See Walling, 330 U.S. at 153
(holding trainees were not employees because they

59a
received training “in a manner which would most
greatly benefit the trainees”).
Though the courts of appeal generally agree that
the primary beneficiary test is the correct analysis in
this context, they have each applied the test in slightly
different ways. For example, in Glatt, a case where the
court was asked to decide if interns working for a film
production company were employees, the Second
Circuit established a seven-factor balancing test that
looks at the relationship between the intern’s education and the work performed at the internship. Glatt,
811 F.3d at 536-37; see also Schumann, 803 F.3d at
1212-13 (adopting the Glatt factors); Benjamin, 877
F.3d at 1147 (same). In contrast, in Reich, a case
brought by firefighters alleging they should be paid
for time spent training at a fire-fighting academy, the
Tenth Circuit took a different approach and adopted a
balancing test using the Department of Labor Wage
and Hour Division’s proposed six-factor analysis
derived from Walling. Reich, 992 F.2d at 1027.
The Sixth Circuit’s application of the primary
beneficiary test, which binds this Court, is different
still from Glatt and Reich. See Benjamin, 877 F.3d at
1146 (contrasting Schumann and Laurelbrook when
observing “[o]ther courts have adopted either Glatt’s
primary beneficiary test or have established a similar
test in cases involving interns or trainees”). In fact,
the Laurelbrook court explicitly rejected the formulation of the primary beneficiary test used in Reich.
Laurelbrook, 642 F.3d at 525 (“We find the [Wage and
Hour Division]'s test to be a poor method for determining employee status in a training or educational
setting.”). Instead, the court identified “[f]actors such
as whether the relationship displaces paid employees
and whether there is educational value derived from

60a
the relationship” as relevant, but not exclusive, “considerations to guide the inquiry.” Id. at 529. It went
on to weigh those factors and others in four categories:
benefits to the institution, considerations unique to
the educational context that offset the benefits to the
institution, tangible benefits to the students, and
intangible benefits to the students. Id. at 530-33.
However, because the primary beneficiary test is
the “framework for discerning employee status in
learning or training situations,” it is not applicable to
everything a student or intern may do over the course
of her education or internship. See Laurelbrook, 642
F.3d at 529. As the Eleventh Circuit recognized in
Schumann, an all-or-nothing determination of employee status is not appropriate in every learning or
training situation. See Schumann, 803 F.3d at 121415. In some such contexts, the employer “takes unfair
advantage of the student's need to complete the
internship by making continuation of the internship
implicitly or explicitly contingent on the student's
performance of tasks or his working of hours well
beyond the bounds of what could fairly be expected to
be a part of the internship.” Id. at 1214-15. Where this
is the case, “the student would not constitute an
‘employee’ for work performed within the legitimate
confines of the internship but could qualify as an
‘employee’ for all hours expended in . . . tasks so far
beyond the pale of the contemplated internship that it
clearly did not serve to further the goals of the
internship.” Id. at 1215.
The Eleventh Circuit is explicit about what the
court in Laurelbrook assumes: the primary benefit
test only applies to activities within the “learning or
training situation.” Though the Schumann court
refers to the plaintiffs as “students” or “interns” and

61a
their program with the defendant as an “internship,”
the “training or learning situation” terminology from
Laurelbrook is analogous. Schumann recognizes that
not all activity a student may do is part of the learning
or training situation. Activity beyond the confines of
the learning situation falls within the protection of the
FLSA when the employer takes unfair advantage of
the student’s need to complete the education to
require the student to perform those tasks.
In this case, the Schumann inquiry is directly on
point because this case is nearly identical to
Schumann. In Schumann, the plaintiffs were college
students training to become nurse anesthetists. 803
F.3d at 1203. They were required “to participate in a
minimum of 550 clinical cases” as part of obtaining
their degree and license, and they sued the anesthesiology practice that hosted their clinical training.
Thus, even though the Schumann court referred to
the relationship between the plaintiffs and the defendant as an “internship,” they, like plaintiffs here, were
students completing the clinical training required to
earn their degree and professional license.
Given the Sixth Circuit Laurelbrook test and the
threshold matter of whether an activity is within the
training or learning situation from Schumann, courts
must make several inquiries when presented with a
possible hybrid situation like that in Schumann.
First, the Court must first determine if the complained of activity is within the learning situation. If
the activity is within the learning situation, then the
primary beneficiary test as articulated in Laurelbrook
applies. But if the activity is outside the training or
learning situation, meaning it is “well beyond the
bounds of what could fairly be expected to be a part of
the internship” or educational program, then the

62a
Court must look at whether the employer is taking
unfair advantage of the student’s need to complete the
internship or educational program. Schumann, 803
F.3d at 1214-15. If so, then the student would “qualify
as an ‘employee’ for all hours expended in . . . tasks so
far beyond the pale of the contemplated internship
that it clearly did not serve to further the goals of the
internship.” Id. at 1215.
b. Plaintiffs’ Motion
Judgment

for

Partial

Summary

Plaintiffs bring a motion for partial summary
judgment seeking a determination that they are
employees with respect to cleaning, laundry, and
restocking tasks.4 As set forth above, the Court
applies the following framework. First, the Court
addresses the threshold question of whether these
activities are within the training or learning situation. If these activities are within the training or
learning situation, then the Laurelbrook primary
beneficiary test is applied. But if these activities are
not, then the inquiry moves on to whether the defendants took unfair advantage of plaintiffs’ need to complete their education by requiring them to complete
those tasks outside of the training or learning
situation. Finally, if the defendants did take unfair
advantage, then the Court must ask if the time spent
on the tasks was de minimus.

4 At oral argument, plaintiffs clarified that the current motion
did not seek to have all of the time they spent in the clinic
declared work under the FLSA. Rather, they explained that the
motion is limited to the time spent cleaning, doing laundry, and
restocking products as described in plaintiffs’ brief. (Dkt. 60 at
14.)

63a
i.

Whether the Activities are within the
Training or Learning Situation

Though the Sixth Circuit has not yet considered a
case where it was required to determine if activity was
within the training or learning situation, prior cases
on whether a program as a whole was educationally
valid is instructive. For example, in Laurelbrook students performed manual labor, which was considered
a core part of the students’ education because
“receiving a well-rounded education—one that
includes hands-on, practical training—is a tenet of the
Seventh–day Adventist Church,” and Laurelbrook
was a Seventh-day Adventist school. 642 F.3d at 531.
Conversely, the district court in Marshall v.
Baptist Hospital, Inc. found students were performing
manual tasks that were not related to their education
and training, so much so that the whole program was
so deficient it could not constitute an education. 473
F. Supp. 468, 474-77 (M.D. Tenn. 1979), rev’d on other
grounds, Marshall v. Baptist Hospital, Inc., 668 F.2d
234 (6th Cir. 1981). There, X-ray technician “trainees”
were required to have forty hours a week in “classroom and practicum training” by spending mornings
in clinical training at a hospital and afternoons in the
classroom in order to complete the program, receive a
certificate, and then sit for a licensing examination.
Id. at 470-71. The court found that the trainees were
employees because they either received no instruction
when they performed X-rays or they performed tasks
that were “at best only of peripheral value” to their
educational goals. Id. at 475. On tasks related to the
subject matter of education, the court specifically
looked at the fact that students did not keep any
records of their time spent as required by the training
program and that students were unsupervised when

64a
they performed X-rays. Id. On the tasks unrelated to
the subject matter of their education, the court looked
at whether other staff was hired to complete the work.
Id.
Plaintiffs show that the specific manual activities
of cleaning, doing the laundry, and restocking
products were outside of the training and learning
situation based on the state mandated curriculum
requirements, the defendants’ curriculum, the lack of
supervision during these activities, the lackadaisical
recordkeeping, and the fact that support staff was also
hired to complete these tasks.
The state curriculum demonstrates the activities
were outside of the training or learning situation.
Though the state mandated curriculum includes education about sanitation of tools and the cosmetologist’s
work space, Zimmermann explained that sanitation is
“cleaning of your tools so they are sanitized.” (Dkt. 6029 at 33.) Zimmerman’s observation is consistent with
the requirements set by the Michigan Board of Cosmetology. It tests sanitation and patron protection in
the practical portion of the licensing exam by ensuring
that the applicant uses sanitized tools, washes her
hands, disposes of waste in the trash, and “[e]nsures
[the] workstation remains sanitary by changing
towels when soiled, cleaning spills, and maintaining
sanitary implements/materials throughout service.”
(Dkt. 60-40.) Students are not tested on their ability
to do laundry, restock products, or complete deep
cleaning tasks outside their workstation.
Moreover, defendants’ printed curriculum aligns
with the state’s testing criteria and does not purport
to instruct students on these extra-curricular tasks.
Nor were these tasks were part of a general education
regarding the salon business. Defendants’ curriculum

65a
included three classroom hours on the “Salon
Business” and no clinic time on the subject. Those
three classroom hours were the extent of plaintiffs’
education in the salon business. Plaintiffs were not
taught key salon business skills such as how to permit
and license a salon, develop a business plan, hire and
train employees, keep required records, pass regulatory inspections, or general principles of business
operations. (Dkt. 60-27 at 40-41.).
Other evidence demonstrates that these tasks
were not within the training or learning situation. As
in Marshall, defendants provide no evidence that
students received instruction on cleaning, doing the
laundry, or restocking the shelves. Furthermore, similar to the students in Marshall who did not keep
records consistent with the training program, the
students here were instructed to place the time they
spent cleaning wherever they needed time. And again
as in Marshall, defendants employed staff to complete
the tasks at issue. Here, aesthetics staff were responsible for the same cleaning and laundry tasks as
student.
As the Schumann court warned, there may be
cases where the activities are “so far beyond the pale
of the contemplated [training] that it clearly did not
serve to further the goals of the [training].”
Schumann, 803 F.3d at 1215. This case is one of them.
Cleaning, doing laundry, and restocking products is
outside of the training and learning situation because
those activities are beyond the pale of the contemplated educational goals of the cosmetology program
as shown by the state mandated curriculum, the
defendants’ curriculum, the lack of supervision given
students while completing these tasks, the lack of
proper recordkeeping, and the fact that staff was

66a
hired to do the same tasks. Unlike Laurelbrook where
the manual labor was a key part of the education,
these tasks are beyond the pale of the contemplated
cosmetology education and training the plaintiffs
sought with defendants.
Defendants rely on three cases cited in
Laurelbrook for the proposition that manual labor—
like what defendants required of plaintiffs—was part
of their education. The first two are distinguishable
along the lines of Laurelbrook. In Blair v. Wills, a
student sued a Baptist boarding school alleging he
was an employee when completing manual labor and
the Eleventh Circuit held that the students’ labor was
“an integral part of the educational curriculum,” and
he was thus not an employee. 420 F.3d 823, 829 (8th
Cir. 2005). In Woods v. Wills, the district court relied
on Blair to find that labor was part of a curriculum
designed to “develop Christian values of respect for
authority, for Biblical self-image, and self-discipline,
and to foster academic development.” 400 F. Supp. 2d
1145, 1166 (E.D. Mo. 2005), which relies on Blair.
However, the labor at issue in those cases was deeply
intertwined with the schools’ educational mission and
curriculum, and reflected the religious values that
were a fundamental part of each institution as in
Laurelbrook. Defendants still present no evidence
showing that the manual labor here, cleaning, doing
laundry, and restocking products, is similarly so
crucial and steeped into their educational mission and
curriculum.
Defendants then turn to Bobilin v. Board of
Education, State of Hawaii, where the district court
determined that students working in the school cafeteria were not employees by deferring to the local
school district’s determination of what activities had

67a
educational value. 403 F. Supp. 1095, 1109 (D. Haw.
1975). However, Bobilin is simply consistent with this
Court’s findings because the court deferred to state
and local education officials to determine what type of
labor had educational value. Here, the Michigan
Board of Cosmetology indicates through the content
tested on its licensing exam and its hours requirements that the type of manual labor these plaintiffs
engaged in is not part of an education in cosmetology.
ii. Whether the Possible Employer Took
Unfair Advantage of Students’ Need to
Complete Their Educational Program
Once the Court has determined that an activity is
not within the training or learning situation, the
inquiry moves to whether the employer took “unfair
advantage” of the students by making “continuation
of [the educational program] implicitly or explicitly
contingent on the student’s performance of [those]
tasks.” See Schumann, 803 F.3d at 1214. Such is the
case here because defendants explicitly and implicitly
required plaintiffs to clean, do laundry, and restock
products.
Defendants have not disputed that students were
explicitly required to complete these tasks. Defendants provided instructors with a document called
“Student Down Time Ideas” that directed instructors
to assign cleaning tasks when students were not
working with a client. (Dkt. 60-39.) Another document
detailing “clinic management procedure” also urged
instructors to assign cleaning tasks when students
were not working with a client. (Dkt. 60-37.) Furthermore, students were unable to decline to perform
these tasks because, as defendant Scott Weaver
testified, that “if a student is refusing to participate in
any activity, then they would be sent home for the

68a
day” and would be unable to accumulate practical
hours towards graduation. (Dkt. 60-34 at 22.)
Particularly important is that the requirement
was also implicit due to the stark power imbalance
between defendants and plaintiffs. Plaintiffs had no
alternatives to completing the cleaning, laundry, and
restocking tasks. They have little incentive to be sent
home for refusing to clean due to the cost of the
program, about $17,850 (Dkt. 60-25), and the accompanying student loans. (Dkt. 60-27 at 4; Dkt. 60-28 at
19; Dkt. 60-29 at 24.) Defendant Scott Weaver made
it very clear that uncooperative students were unsuccessful in the defendants’ program. Furthermore,
plaintiffs needed to complete the program and obtain
a license to practice cosmetology in order work in their
chosen profession and pay off their loans. Accordingly,
they had little ability or incentive to say no when
defendants’ instructors told them to complete tasks
that were otherwise part of the job description of
defendants’ paid aesthetics and guest services staff.
iii. Whether the Tasks Completed Were De
Minimus
Even after a court has concluded that an activity
is outside the training or learning situation and that
the employer has taken unfair advantage of the
student or intern, the activity must also not be de
minimus. The FLSA includes an important limitation
in that it only requires payment for tasks where the
“employee is required to give up a substantial measure of his time.” White v. Baptist Mem'l Health Care
Corp., 699 F.3d 869, 873 (6th Cir. 2012) (quoting Hill
v. United States, 751 F.2d 810, 814 (6th Cir. 1984)).
Employers need not pay for de minimis work, such as
when “the matter in issue concerns only a few seconds
or minutes of work.” Id.

69a
Here, plaintiffs spent a substantial amount of
time on these non-curricular tasks. They testified they
spent as much as “four hours of the day” cleaning on
some days (Dkt. 60-27 at 44), and spent at least “a half
hour” cleaning each day. (Dkt. 60-29 at 34.) Plaintiffs’
counsel estimated Eberline spent 32% of her clinic
time cleaning, Poxson spent 28% of her clinic time
cleaning, and Zimmermann estimated 14% of her
clinic time cleaning, which averages out to one quarter of clinic time spent cleaning. (Dkt. 71 at 23.) This
amount of time is more than a few seconds or minutes,
and thus the complained of tasks were not de minimis.
There is no genuine issue of material fact as to the
nature and extent of plaintiffs’ cleaning, restocking,
and laundry tasks because defendants offer no competing figures. Accordingly, they were employees as a
matter of law with respect to those tasks. Because
they were employees, the FLSA entitles them to
compensation for the time spent on those tasks.
IV. Conclusion
In conclusion, even though plaintiffs were the
primary beneficiaries of their relationship with defendants within the confines of a training or learning
situation, see Laurelbrook, 642 F.3d at 529, defendants required plaintiffs to engage in certain tasks “so
far beyond the pale of the contemplated internship
[clinical program] that it clearly did not serve to
further the goals of the internship [clinical program].”
See Schumann, 803 F.3d at 1215. Thus, plaintiffs
were employees with respect to those tasks—cleaning,
laundry, and restocking products—which accounted
for more than a de minimis portion of their time, but
not with respect to any other activities performed in
the clinic or in the classroom.

70a
Accordingly, plaintiffs’ motion for partial summary judgment (Dkt. 60) is GRANTED, and defendants’ motion for summary judgment is DENIED with
respect to the cleaning, laundry, and restocking tasks,
but GRANTED as to all other tasks. (Dkt. 56.)
IT IS SO ORDERED.
Dated: October 1, 2018 s/Judith E. Levy
Ann Arbor, Michigan JUDITH E. LEVY
United States District Judge
CERTIFICATE OF SERVICE
The undersigned certifies that the foregoing
document was served upon counsel of record and any
unrepresented parties via the Court’s ECF System to
their respective email or First Class U.S. mail
addresses disclosed on the Notice of Electronic Filing
on October 1, 2018.
s/Shawna Burns
SHAWNA BURNS
Case Manager

71a
Appendix D
UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF MICHIGAN
SOUTHERN DIVISION
Joy Eberline, et al.,
Plaintiffs,

Case No.
14-cv-10887

v.
Douglas J. Holdings, Inc., et al.,
Defendants.

Judith E. Levy
United States
District Judge

/
OPINION AND ORDER GRANTING
DEFENDANTS’ MOTION TO AMEND AND
CERTIFY ORDER FOR INTERLOCUTORY
APPEAL [81], DENYING MOTIONS FOR
LEAVE TO FILE AMICUS CURIAE BRIEF
[90, 91], AND STAYING CASE
On October 1, 2018, the Court issued an opinion
and order granting plaintiffs’ motion for partial
summary judgment and granting in part and denying
in part defendants’ motion for summary judgment.
Eberline v. Douglas J. Holdings, Inc., 339 F. Supp. 3d
634 (E.D. Mich. 2018). The Court held that plaintiffs,
former students in defendants’ cosmetology schools,
were employees entitled to compensation under the
Fair Labor Standards Act (“FLSA”), 29 U.S.C. § 203,
when they clean, do laundry, and restock products
during the clinical training portion of the defendants’
curriculum. (Id. at 34.) However, the Court found that
plaintiffs were not employees at all other times in the
clinical training program, in part because the Court
believed that plaintiffs no longer dispute this as a

72a
result of comments made at oral argument. (Id. at 2.)
Thus, the cross-motions for summary judgment on the
cleaning, laundering, and restocking activities were
decided in plaintiffs’ favor, while summary judgment
was granted on the remaining part of defendants’
motion related to all other aspects of the parties’
relationship.
The parties filed several motions in response to
that order. Plaintiffs filed a motion for reconsideration, arguing that during oral argument they did not
intend to limit their FLSA claims to time spent
cleaning, laundering towels, and restocking products.
(Dkt. 78 at 3.) Defendants filed a motion to amend and
certify the order for interlocutory appeal and stay the
case. (Dkt. 81.) Several would-be amici curiae sought
to file briefs in support of the motion to certify the
Court’s order for interlocutory appeal (Dkts. 90, 91),
which plaintiffs oppose. (Dkts. 97, 98.)
I.

Analysis
A. Certification of Order for Interlocutory
Appeal

A district court shall permit a party to appeal a
non-final order when the court is “of the opinion that
such order involves [1] a controlling question of law
[2] as to which there is substantial ground for difference of opinion and [3] that an immediate appeal from
the order may materially advance the ultimate termination of the litigation . . . .” 28 U.S.C. § 1292(b); see
also In re Trump, 874 F.3d 948, 950–51 (6th Cir.
2017); cf. 28 U.S.C. 1291 (stating that courts of
appeals usually have jurisdiction over final orders
from district courts). The burden is on the moving
party to show that each requirement of § 1292(b) is
satisfied, see In re Miedzianowski, 735 F.3d 383, 384

73a
(6th Cir. 2012), and the district court must “expressly
find in writing that all three § 1292(b) requirements
are met,” Couch v. Telescope Inc., 611 F.3d 629, 633
(9th Cir. 2010); § 1292(b). Such appeals are the
exception, however, not the rule. In re City of
Memphis, 293 F.3d 345, 350 (6th Cir. 2002) (stressing
that “[r]eview under § 1292(b) is granted sparingly
and only in exceptional cases”). Here, all three
conditions of § 1292(b) are met and this is the
exceptional case that warrants an interlocutory
appeal.
1. Controlling Question of Law
First, the order turns on a controlling question of
law. “A legal issue is controlling if it could materially
affect the outcome of the case.” Memphis, 874 F.3d at
351 (citing In re Baker & Getty Fin. Servs., Inc. v. Nat’l
Union Fire Ins. Co., 954 F.2d 1169, 1172 n.8 (6th Cir.
1992)). In this case, the issue is whether cleaning,
laundering towels, and restocking products are
activities that may be extracted from the entire
relationship between the parties before examining
their overall relationship under the primary benefit
test enunciated in Solis v. Laurelbrook Sanitarium
and School, Inc., 642 F.3d 518 (6th Cir. 2011), because
those activities are “beyond the pale of the
contemplated [cosmetology education and training].”
Eberline, 339 F. Supp. 3d at 644–45 (citing Schumann
v. Collier Anesthesia, P.A., 803 F.3d 1199, 1215 (11th
Cir. 2015)). This issue may materially affect the
outcome of the case because considering these
activities alone led the Court to grant plaintiffs’
motion for partial summary judgment. Moreover,
should the Court of Appeals disagree with the Court’s
analysis, the Court would need to consider those
activities as a part of the entire relationship between

74a
the parties. This would affect the Court’s earlier
analysis, and therefore could affect the outcome of the
case. Therefore, the order granting plaintiffs’ motion
for partial summary judgment turns on a controlling
question of law.
2. Substantial Ground for Difference of
Opinion
Second, there is substantial ground for difference
of opinion on the controlling legal issue. Substantial
grounds for difference of opinion exist “when ‘the
question is difficult, novel and either a question on
which there is little precedent or one whose correct
resolution is not substantially guided by previous
decisions.’” Miedzianowski, 735 F.3d at 384 (citing
City of Dearborn v. Comcast of Mich. III, Inc., No. 0810156, 2008 U.S. Dist. LEXIS 107527, at *7 (E.D.
Mich. Nov. 24, 2008)). An issue is novel “where
reasonable jurists might disagree on an issue’s
resolution.” Trump, 874 F.3d at 952 (quoting Reese v.
BP Expl., Inc., 643 F.3d 681, 688 (6th Cir. 2011)). The
controlling legal issue in the order is novel and its
resolution is not substantially guided by previous
decisions.
It is novel because the Sixth Circuit has not yet
had an occasion to consider whether activities or tasks
that are entirely unrelated to the training or learning
situation, and that appear to take unfair advantage of
a student’s need to complete certain requirements, fit
within the Laurelbrook framework. In fact, the Sixth
Circuit has not considered an FLSA case in the
context of an externship, internship, or other sort of

75a
vocational training program as other circuits have.1
Glatt v. Fox Searchlight Pictures, Inc., 811 F.3d 528
(2d Cir. 2016); Schumann v. Collier Anesthesia, P.A.,
803 F.3d 1199 (11th Cir. 2015); Benjamin v. B&H
Educ., Inc., 877 F.3d 1139 (9th Cir. 2017); Blair v.
Wills, 420 F.3d 823, 829 (8th Cir. 2005); Reich v.
Parker Fire Prot. Dist., 992 F.2d 1023 (10th Cir. 1993).
Nor has it considered whether cosmetology students
can be employees under FLSA as other circuits have.
Velarde v. GW GJ, Inc., 914 F.3d 779 (2d Cir. 2019);
Benjamin v. B &H Educ. Inc., 877 F.3d 1139 (9th Cir.
2017); Hollins v. Regency Corp., 867 F.3d 830 (7th Cir.
2017).
Relatedly, the issue is not substantially guided by
Sixth Circuit precedent. Laurelbrook had no occasion
to consider separating the non-de minimis tasks that
bore no relation to the training or educational
program; there, the plaintiffs chose a Seventh-Day
Adventist education, which “include[d] hands-on,
practical training.” 642 F.3d at 531. The question in
Laurelbrook was whether students were entitled to
compensation when they participated in the
vocational training portion of their education. Id. Nor
did Marshall v. Baptist Hospital, Inc., 473 F. Supp.
465 (M.D. Tenn. 1979), rev’d on other grounds, 668
F.2d 234 (6th Cir. 1981), consider a limited number of
tasks that were beyond the pale of the expected
training program. The entire x-ray trainee program in
Marshall was so deficient that there was no
educational value, leading the court to find the
hospital was the primary beneficiary. See 473 F. Supp.
at 476–77. Therefore, there was no reason for the
1 It has, however, adopted a primary benefit test like the circuits
that have addressed such contexts. See Eberline, 339 F. Supp. 3d
at 642.

76a
court to consider extracting those tasks that were
entirely unrelated to the educational goal from the
relationship. And although Marshall is cited with
approval by Laurelbrook, id. at 526–28, it is not
binding precedent. Thus, there is no precedent that
speaks to whether tasks beyond the pale of the
contemplated training or learning situation must be
evaluated with the rest of the rest of the relationship
under Laurelbrook’s primary benefit test.2
2 The Court disagrees with defendants’ characterization of the
Court’s analysis as a “task-by-task determination of a primary
benefit.” (e.g., Dkt. 81 at 25). The Court identified a “threshold
question”: whether tasks are within the training or learning
situation. Eberline, 339 F. Supp. 3d at 642–44. A task is only
extracted from the relationship if it is “so far beyond the pale of
the contemplated [training or learning situation] that it clearly
[does] not serve to further the goals of the [training or learning
situation].” See id. at 643. And furthermore, plaintiffs must show
that the time spent on those tasks is more than de minimis. See
id. Every other aspect of the relationship is considered within the
entire relationship and evaluated under the primary benefit test.
See id. at 643.
Schumann’s “beyond the pale” language permits an individual
to be both a student and employee under FLSA, Axel v. Fields
Motorcars of Fla., 711 F. App’x 942, 946 (11th Cir. 2017) (citing
Schumann, 803 F.3d at 1214), creating a pressure-release valve
within the primary benefit test framework. It prevents the odd
case of an institution abusing the holistic nature of the primary
benefit test to avoid compensating students for their labor
carrying out tasks that are entirely unrelated to the training or
educational program by offering an otherwise bona fide training
or educational program, but conditioning the students’
completion of the program upon the fulfillment of those
unrelated tasks, along with other legitimate tasks. Nothing in
the Court’s order suggests that if the tasks were within the
training or learning situation, it would not apply Laurelbrook to
“determin[e] whether employment relationship exists in the

77a
Admittedly, other courts disagree with this
Court.3 See Velarde v. GW GJ, Inc., 914 F.3d 779 (2d
Cir. 2019); Benjamin v. B &H Educ. Inc., 877 F.3d
1139 (9th Cir. 2017); Hollins v. Regency Corp., 867
F.3d 830 (7th Cir. 2017). And the Eleventh Circuit has
not yet had an opportunity to apply Schumann to find
that an individual is an employee when he or she
completes tasks beyond the pale of the contemplated
training or educational program, but is a student in
all other legitimate respects, though it has reaffirmed
Schumann. See Axel, 711 F. App’x at 946 (citing
Schumann, 803 F.3d at 1214) (applying the Glatt
primary benefit test). Substantial ground for
disagreement exists.

context of a training or learning situation.” Eberline, 339 F Supp.
3d at 641 (emphasis added) (quoting Laurelbrook, 642 F.3d at
529).
3 Defendants cite Walling v. Portland Terminal Co., 330 U.S. 148
(1947), for the proposition that “students in professional,
occupational, or vocational schools are not employees.” (Dkt. 81
at 16.) However, this assumes the question in this case—are
plaintiffs students or employees under FLSA? And two cases
defendants offer as examples of disagreement with the Court did
not consider administrative, clerical, janitorial, or menial tasks
done by cosmetology students as is the case here. See Winfield v.
Babylon Beauty Sch. of Smithtown, Inc., No. 13-cv-06289, 2018
WL 5298748, at *3 (E.D.N.Y. Mar. 14, 2018) (“Although the
plaintiff was responsible for keeping her workstation clean
(another skill tested on the licensing test), she was never required
to do janitorial work or administrative tasks.” (emphasis added));
Lane v. Carolina Beauty Sys., Inc., No. 6:90CV00108, 1992 U.S.
Dist. LEXIS 15338, at *3 (M.D.N.C. July 2, 1992) (noting that a
teacher trainee’s responsibilities included “attending to
administrative duties regarding the students and the school,”
which were “part of the required curriculum established by the
Board [of Cosmetic Art Examiners].” (emphasis added)).

78a
3. Materially Advance Ultimate Termination
of Litigation
Third, an interlocutory appeal may materially
advance the termination of litigation. To determine
whether “[a]n interlocutory appeal will materially
advance the litigation,” courts consider “if it will ‘save
substantial judicial resources and litigant expense.’”
U.S. ex rel. Elliott v. Brickman Grp. Ltd., LLC, 845 F.
Supp. 2d 858, 871 (S.D. Ohio 2012) (quoting In re
Regions Morgan Keegan ERISA Litig., 741 F.Supp.2d
844, 849 (W.D. Tenn. 2010)). This includes “sav[ing]
the parties and the judicial system substantial
resources and expense by avoiding extensive
discovery, motion practice, and potentially a trial.”
Newsome v. Young Supply Co., 873 F. Supp. 2d 872,
879 (E.D. Mich. 2012). This requirement “is closely
tied” to whether the interlocutory order involves a
controlling question of law. Id. at 878 (quoting
Comcast, 2008 U.S. Dist. LEXIS 107527, at *7).
An interlocutory appeal may save the Court and
parties expense here. Following the Court’s ruling, the
parties must engage in additional discovery to
determine how much time was spent cleaning,
laundering towels, and restocking products. Plaintiffs
must also engage in class-related discovery and seek
class certification, as they represent plaintiffs across
several states. This will add significantly to this
expense. Moreover, if the appeal results in reversal, it
would remove the need to address plaintiffs’ motion
for reconsideration on the Court’s grant of the rest of
defendants’ motion for summary judgment (Dkt. 78)
because all tasks must be considered part of the
parties’ relationship. And a reevaluation of the
motions for summary judgment could lead to the
avoidance of trial—a significant savings for all

79a
involved. This is all the more so because the
interlocutory appeal would address a controlling
matter of law. Finally, because there is room for
substantial disagreement, the appeal is not an effort
to unduly protract litigation. Thus, the appeal may
materially advance the ultimate termination of
litigation.
B. Appropriateness of Stay
An order granting defendants permission to file
an interlocutory appeal will not automatically stay
the case; the district court must explicitly stay the
case. § 1292(b). The decision to stay a case “ordinarily
rests within the sound discretion of the District Court”
as “[t]he power to stay proceedings is incidental to the
power inherent in every court to control the
disposition of the causes in its docket with economy of
time and effort for itself, for counsel and for litigants.”
FTC v. E.M.A. Nationwide, Inc., 767 F.3d 611, 626–27
(6th Cir. 2014) (citing Ohio Envtl. Council v. U.S. Dist.
Court, S. Dist. of Ohio, E. Div., 565 F.2d 393, 396 (6th
Cir. 1977)). The Court exercises its discretion to stay
this case.
It is appropriate to grant the stay because if the
Court is reversed, the Court’s and the parties’ time
and resources spent continuing the litigation will
have been wasted. Additionally, a reversal would
render plaintiffs’ motion for reconsideration on the
Court’s grant of defendants’ motion for summary
judgment on the parties’ relationship (Dkt. 78) moot
because cleaning, laundering, and restocking
products would have to be considered within the
whole relationship. Thus, a stay is appropriate.

80a
II. Conclusion
For the reasons set forth above, defendants have
met the three conditions for under § 1292(b).
Accordingly,
Defendants’ motion (Dkt. 81) is GRANTED, and
so the motions to file amicus briefs (Dkts. 90, 91) are
DENIED AS MOOT.
The Court’s Opinion and Order (Dkt. 77) is
AMENDED, as Federal Rule of Appellate Procedure
5(a)(3) requires, to include a statement that the Court
believes the Order involves a controlling question of
law as to which there is substantial ground for
difference of opinion and that an immediate appeal
from the order may materially advance the ultimate
termination of the litigation under § 1292(b).
Furthermore, the case is STAYED pending the
United States Court of Appeals for the Sixth Circuit’s
disposition of any timely petition by defendants
according to § 1292(b), and that stay shall continue
until any appellate proceedings relating to that
petition have been finally concluded. This includes a
decision by this Court on plaintiffs’ pending motion for
reconsideration. (Dkt. 78.)
IT IS SO ORDERED.
Dated: March 1, 2019 s/Judith E. Levy
Ann Arbor, Michigan JUDITH E. LEVY
United States District Judge
CERTIFICATE OF SERVICE
The undersigned certifies that the foregoing
document was served upon counsel of record and any
unrepresented parties via the Court’s ECF System to
their respective email or First Class U.S. mail

81a
addresses disclosed on the Notice of Electronic Filing
on.
s/Shawna Burns
SHAWNA BURNS
Case Manager

82a
Appendix E
No. 19-0104
UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT
In re: DOUGLAS J.
HOLDINGS, INC., et al.,
Petitioners.

Before: MOORE,
Circuit Judges.

)
)
)
)
)
)

FILED
Jul 17, 2019
DEBORAH S.
HUNT, Clerk
ORDER

GRIFFIN,

and

MURPHY,

Douglas J. Holdings, Douglas J. AIC, Douglas J.
Exchange, Douglas J. Institute, Scott A. Weaver, and
TJ Weaver (“DJH”)—corporations and individuals
operating cosmetology schools—petition for permission to appeal the grant of partial summary judgment
to Plaintiffs Joy Eberline, Tracy Poxson, and Cindy
Zimmermann—graduates of DJH’s schools—in their
class and collective action under the Fair Labor
Standards Act (“FLSA”). The American Association of
Cosmetology Schools moves for leave to file an amicus
brief. Plaintiffs oppose both the petition and the
motion.
We may, in our discretion, permit an appeal to be
taken from an order certified for interlocutory appeal
by the district court if: (1) the order involves a controlling question of law; (2) a substantial difference of
opinion exists regarding the correctness of the decision; and (3) an immediate appeal may materially

83a
advance the ultimate conclusion of the litigation. 28
U.S.C. § 1292(b).
In this case, graduates of DJH’s cosmetology
schools seek compensation for hours spent as students
on certain tasks that they say were unrelated to their
educational program. Employees covered under the
FLSA must be paid a minimum wage. See 29 U.S.C.
§ 206(a)(1). The FLSA broadly defines “employee” and
“employer.” See 29 U.S.C. § 203(d), (e). Whether an
employment relationship exists is not fixed by the
parties’ labels. Solis v. Laurelbrook Sanitarium &
Sch., Inc., 642 F.3d 518, 522 (6th Cir. 2011). Thus,
students in accredited vocational schools are not categorically excluded from being classified as employees.
Id. at 523−24. Rather, the “economic reality” of the
relationship determines whether it is an employment
relationship or something else. Id. at 522. “[T]he
proper approach for determining whether an employment relationship exists in the context of a training or
learning situation is to ascertain which party derives
the primary benefit from the relationship.” Id. at 529.
Here, before it applied the primary beneficiary test,
the district court extracted certain tasks that it determined were wholly unrelated to the parties’ educational relationship. It granted summary judgment to
the plaintiffs with respect to those tasks. DJH
contends that review under § 1292 should be granted
to examine this determination. We agree that this
determination meets the requirements of § 1292(b).
The petition for permission to appeal is
GRANTED. The motion for leave to file an amicus
brief in support of the petition is DENIED.
ENTERED BY ORDER OF THE COURT
Deborah S. Hunt, Clerk

84a
Appendix F
No. 19-1781
UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT
JOY EBERLINE; TRACY
POXSON; CINDY
ZIMMERMANN,
Plaintiffs-Appellees,
v.
DOUGLAS J. HOLDINGS,
INC.; DOUGLAS J. AIC, INC.;
DOUGLAS J. EXCHANGE,
INC.; DOUGLAS J.
INSTITUTE, INC.; SCOTT A.
WEAVER; TJ WEAVER,
Defendants-Appellants.

)
)
)
)
)
)
)
)
)
)
)
)
)
)

FILED
Feb 9, 2021
DEBORAH S.
HUNT, Clerk
ORDER

BEFORE: COLE, Chief Judge; BATCHELDER
and STRANCH, Circuit Judges.
The court received a petition for rehearing en
banc. The original panel has reviewed the petition for
rehearing and concludes that the issues raised in the
petition were fully considered upon the original
submission and decision of the case. The petition then
was circulated to the full court. No judge has
requested a vote on the suggestion for rehearing en
banc.
Therefore, the petition is denied.
ENTERED BY ORDER OF THE COURT
Deborah S. Hunt, Clerk

85a
Appendix G
29 U.S. Code § 203. Definitions
As used in this chapter—
(a) “Person” means an individual, partnership,
association, corporation, business trust, legal representative, or any organized group of persons.
(b) “Commerce” means trade, commerce, transportation, transmission, or communication among the
several States or between any State and any place
outside thereof.
(c) “State” means any State of the United States
or the District of Columbia or any Territory or possession of the United States.
(d) “Employer” includes any person acting
directly or indirectly in the interest of an employer in
relation to an employee and includes a public agency,
but does not include any labor organization (other
than when acting as an employer) or anyone acting in
the capacity of officer or agent of such labor
organization.
(e)
(1) Except as provided in paragraphs (2), (3),
and (4), the term “employee” means any individual employed by an employer.
(2) In the case of an individual employed by a
public agency, such term means—
(A) any individual employed by the
Government of the United States—
(i) as a civilian in the military departments (as defined in section 102 of title 5),

86a
(ii) in any executive agency (as
defined in section 105 of such title),
(iii) in any unit of the judicial branch
of the Government which has positions in
the competitive service,
(iv) in a nonappropriated fund instrumentality under the jurisdiction of the
Armed Forces,
(v) in the Library of Congress, or
(vi) the [1] Government Publishing
Office;
(B) any individual employed by the
United States Postal Service or the Postal
Regulatory Commission; and
(C) any individual employed by a State,
political subdivision of a State, or an interstate governmental agency, other than such
an individual—
(i) who is not subject to the civil
service laws of the State, political subdivision, or agency which employs him; and
(ii) who—
(I) holds a public elective office of
that State, political subdivision, or
agency,
(II) is selected by the holder of
such an office to be a member of his
personal staff,
(III) is appointed by such an
officeholder to serve on a policymaking level,

87a
(IV) is an immediate adviser to
such an officeholder with respect to
the constitutional or legal powers of
his office, or
(V) is an employee in the
legislative branch or legislative body
of that State, political subdivision, or
agency and is not employed by the
legislative library of such State,
political subdivision, or agency.
(3) For purposes of subsection (u), such term
does not include any individual employed by an
employer engaged in agriculture if such individual
is the parent, spouse, child, or other member of
the employer’s immediate family.
(4)
(A) The term “employee” does not include
any individual who volunteers to perform
services for a public agency which is a State, a
political subdivision of a State, or an interstate governmental agency, if—
(i) the individual receives no compensation or is paid expenses, reasonable
benefits, or a nominal fee to perform the
services for which the individual volunteered; and
(ii) such services are not the same
type of services which the individual is
employed to perform for such public
agency.
(B) An employee of a public agency which
is a State, political subdivision of a State, or

88a
an interstate governmental agency may volunteer to perform services for any other State,
political subdivision, or interstate governmental agency, including a State, political subdivision or agency with which the employing
State, political subdivision, or agency has a
mutual aid agreement.
(5) The term “employee” does not include
individuals who volunteer their services solely for
humanitarian purposes to private non-profit food
banks and who receive from the food banks
groceries.
(f) “Agriculture” includes farming in all its
branches and among other things includes the cultivation and tillage of the soil, dairying, the production,
cultivation, growing, and harvesting of any agricultural or horticultural commodities (including commodities defined as agricultural commodities in
section 1141j(g) [2] of title 12), the raising of livestock,
bees, fur-bearing animals, or poultry, and any practices (including any forestry or lumbering operations)
performed by a farmer or on a farm as an incident to
or in conjunction with such farming operations,
including preparation for market, delivery to storage
or to market or to carriers for transportation to
market.
(g) “Employ” includes to suffer or permit to work.
(h) “Industry” means a trade, business, industry,
or other activity, or branch or group thereof, in which
individuals are gainfully employed.
(i) “Goods” means goods (including ships and
marine equipment), wares, products, commodities,
merchandise, or articles or subjects of commerce of
any character, or any part or ingredient thereof, but

89a
does not include goods after their delivery into the
actual physical possession of the ultimate consumer
thereof other than a producer, manufacturer, or
processor thereof.
(j) “Produced” means produced, manufactured,
mined, handled, or in any other manner worked on in
any State; and for the purposes of this chapter an
employee shall be deemed to have been engaged in the
production of goods if such employee was employed in
producing, manufacturing, mining, handling, transporting, or in any other manner working on such
goods, or in any closely related process or occupation
directly essential to the production thereof, in any
State.
(k) “Sale” or “sell” includes any sale, exchange,
contract to sell, consignment for sale, shipment for
sale, or other disposition.
(l) “Oppressive child labor” means a condition of
employment under which (1) any employee under the
age of sixteen years is employed by an employer (other
than a parent or a person standing in place of a parent
employing his own child or a child in his custody
under the age of sixteen years in an occupation other
than manufacturing or mining or an occupation found
by the Secretary of Labor to be particularly hazardous
for the employment of children between the ages of
sixteen and eighteen years or detrimental to their
health or well-being) in any occupation, or (2) any
employee between the ages of sixteen and eighteen
years is employed by an employer in any occupation
which the Secretary of Labor shall find and by order
declare to be particularly hazardous for the employment of children between such ages or detrimental to
their health or well-being; but oppressive child labor

90a
shall not be deemed to exist by virtue of the employment in any occupation of any person with respect to
whom the employer shall have on file an unexpired
certificate issued and held pursuant to regulations of
the Secretary of Labor certifying that such person is
above the oppressive child-labor age. The Secretary of
Labor shall provide by regulation or by order that the
employment of employees between the ages of fourteen and sixteen years in occupations other than
manufacturing and mining shall not be deemed to
constitute oppressive child labor if and to the extent
that the Secretary of Labor determines that such
employment is confined to periods which will not
interfere with their schooling and to conditions which
will not interfere with their health and well-being.
(m)
(1) “Wage” paid to any employee includes the
reasonable cost, as determined by the Administrator, to the employer of furnishing such employee
with board, lodging, or other facilities, if such
board, lodging or other facilities are customarily
furnished by such employer to his employees:
Provided, That the cost of board, lodging, or other
facilities shall not be included as a part of the
wage paid to any employee to the extent it is
excluded therefrom under the terms of a bona fide
collective-bargaining agreement applicable to the
particular employee: Provided further, That the
Secretary is authorized to determine the fair
value of such board, lodging, or other facilities for
defined classes of employees and in defined areas,
based on average cost to the employer or to groups
of employers similarly situated, or average value
to groups of employees, or other appropriate
measures of fair value. Such evaluations, where

91a
applicable and pertinent, shall be used in lieu of
actual measure of cost in determining the wage
paid to any employee.
(2)
(A) In determining the wage an employer
is required to pay a tipped employee, the
amount paid such employee by the employee’s
employer shall be an amount equal to—
(i) the cash wage paid such employee
which for purposes of such determination
shall be not less than the cash wage
required to be paid such an employee on
August 20, 1996; and
(ii) an additional amount on account
of the tips received by such employee
which amount is equal to the difference
between the wage specified in clause (i)
and the wage in effect under section
206(a)(1) of this title.
The additional amount on account of
tips may not exceed the value of the tips
actually received by an employee. The
preceding 2 sentences shall not apply with
respect to any tipped employee unless
such employee has been informed by the
employer of the provisions of this
subsection, and all tips received by such
employee have been retained by the
employee, except that this subsection
shall not be construed to prohibit the
pooling of tips among employees who
customarily and regularly receive tips.
(B) An employer may not keep tips
received by its employees for any purposes,

92a
including allowing managers or supervisors to
keep any portion of employees’ tips, regardless
of whether or not the employer takes a tip
credit.
(n) “Resale” shall not include the sale of goods to
be used in residential or farm building construction,
repair, or maintenance: Provided, That the sale is
recognized as a bona fide retail sale in the industry.
(o) Hours Worked.—
In determining for the purposes of sections 206
and 207 of this title the hours for which an employee
is employed, there shall be excluded any time spent in
changing clothes or washing at the beginning or end
of each workday which was excluded from measured
working time during the week involved by the express
terms of or by custom or practice under a bona fide
collective-bargaining agreement applicable to the
particular employee.
(p) “American vessel” includes any vessel which is
documented or numbered under the laws of the
United States.
(q) “Secretary” means the Secretary of Labor.
(r)
(1) “Enterprise” means the related activities
performed (either through unified operation or
common control) by any person or persons for a
common business purpose, and includes all such
activities whether performed in one or more establishments or by one or more corporate or other
organizational units including departments of an
establishment operated through leasing arrangements, but shall not include the related activities
performed for such enterprise by an independent

93a
contractor. Within the meaning of this subsection,
a retail or service establishment which is under
independent ownership shall not be deemed to be
so operated or controlled as to be other than a
separate and distinct enterprise by reason of any
arrangement, which includes, but is not necessarily limited to, an agreement, (A) that it will
sell, or sell only, certain goods specified by a particular manufacturer, distributor, or advertiser,
or (B) that it will join with other such establishments in the same industry for the purpose of
collective purchasing, or (C) that it will have the
exclusive right to sell the goods or use the brand
name of a manufacturer, distributor, or advertiser
within a specified area, or by reason of the fact
that it occupies premises leased to it by a person
who also leases premises to other retail or service
establishments.
(2) For purposes of paragraph (1), the
activities performed by any person or persons—
(A) in connection with the operation of a
hospital, an institution primarily engaged in
the care of the sick, the aged, the mentally ill
or defective who reside on the premises of such
institution, a school for mentally or physically
handicapped or gifted children, a preschool,
elementary or secondary school, or an institution of higher education (regardless of
whether or not such hospital, institution, or
school is operated for profit or not for profit),
or
(B) in connection with the operation of a
street, suburban or interurban electric railway, or local trolley or motorbus carrier, if the
rates and services of such railway or carrier

94a
are subject to regulation by a State or local
agency (regardless of whether or not such
railway or carrier is public or private or
operated for profit or not for profit), or
(C) in connection with the activities of a
public agency, shall be deemed to be activities
performed for a business purpose.
(s)
(1) “Enterprise engaged in commerce or in the
production of goods for commerce” means an
enterprise that—
(A)
(i) has employees engaged in
commerce or in the production of goods for
commerce, or that has employees handling, selling, or otherwise working on goods
or materials that have been moved in or
produced for commerce by any person; and
(ii) is an enterprise whose annual
gross volume of sales made or business
done is not less than $500,000 (exclusive
of excise taxes at the retail level that are
separately stated);
(B) is engaged in the operation of a hospital, an institution primarily engaged in the
care of the sick, the aged, or the mentally ill or
defective who reside on the premises of such
institution, a school for mentally or physically
handicapped or gifted children, a preschool,
elementary or secondary school, or an institution of higher education (regardless of
whether or not such hospital, institution, or

95a
school is public or private or operated for
profit or not for profit); or
(C) is an activity of a public agency.
(2) Any establishment that has as its only
regular employees the owner thereof or the
parent, spouse, child, or other member of the
immediate family of such owner shall not be considered to be an enterprise engaged in commerce
or in the production of goods for commerce or a
part of such an enterprise. The sales of such an
establishment shall not be included for the
purpose of determining the annual gross volume
of sales of any enterprise for the purpose of this
subsection.
(t) “Tipped employee” means any employee
engaged in an occupation in which he customarily and
regularly receives more than $30 a month in tips.
(u) “Man-day” means any day during which an
employee performs any agricultural labor for not less
than one hour.
(v) “Elementary school” means a day or residential school which provides elementary education, as
determined under State law.
(w) “Secondary school” means a day or residential
school which provides secondary education, as determined under State law.
(x) “Public agency” means the Government of the
United States; the government of a State or political
subdivision thereof; any agency of the United States
(including the United States Postal Service and Postal
Regulatory Commission), a State, or a political
subdivision of a State; or any interstate governmental
agency.

96a
(y) “Employee in fire protection activities” means
an employee, including a firefighter, paramedic, emergency medical technician, rescue worker, ambulance
personnel, or hazardous materials worker, who—
(1) is trained in fire suppression, has the legal
authority and responsibility to engage in fire suppression, and is employed by a fire department of
a municipality, county, fire district, or State; and
(2) is engaged in the prevention, control, and
extinguishment of fires or response to emergency
situations where life, property, or the environment is at risk.

97a
29 U.S. Code § 206. Minimum wage
(a) Employees engaged in commerce; home
workers in Puerto Rico and Virgin Islands;
employees in American Samoa; seamen on
American vessels; agricultural employees Every
employer shall pay to each of his employees who in
any workweek is engaged in commerce or in the production of goods for commerce, or is employed in an
enterprise engaged in commerce or in the production
of goods for commerce, wages at the following rates:
(1) except as otherwise provided in this
section, not less than—
(A) $5.85 an hour, beginning on the 60th
day after May 25, 2007;
(B) $6.55 an hour, beginning 12 months
after that 60th day; and
(C) $7.25 an hour, beginning 24 months
after that 60th day;
(2) if such employee is a home worker in
Puerto Rico or the Virgin Islands, not less than
the minimum piece rate prescribed by regulation
or order; or, if no such minimum piece rate is in
effect, any piece rate adopted by such employer
which shall yield, to the proportion or class of
employees prescribed by regulation or order, not
less than the applicable minimum hourly wage
rate. Such minimum piece rates or employer piece
rates shall be commensurate with, and shall be
paid in lieu of, the minimum hourly wage rate
applicable under the provisions of this section.
The Administrator, or his authorized representative, shall have power to make such regulations or
orders as are necessary or appropriate to carry out
any of the provisions of this paragraph, including

98a
the power without limiting the generality of the
foregoing, to define any operation or occupation
which is performed by such home work employees
in Puerto Rico or the Virgin Islands; to establish
minimum piece rates for any operation or
occupation so defined; to prescribe the method and
procedure for ascertaining and promulgating
minimum piece rates; to prescribe standards for
employer piece rates, including the proportion or
class of employees who shall receive not less than
the minimum hourly wage rate; to define the term
“home worker”; and to prescribe the conditions
under which employers, agents, contractors, and
subcontractors shall cause goods to be produced
by home workers;
(3) if such employee is employed as a seaman
on an American vessel, not less than the rate
which will provide to the employee, for the period
covered by the wage payment, wages equal to
compensation at the hourly rate prescribed by
paragraph (1) of this subsection for all hours
during such period when he was actually on duty
(including periods aboard ship when the employee
was on watch or was, at the direction of a superior
officer, performing work or standing by, but not
including off-duty periods which are provided
pursuant to the employment agreement); or
(4) if such employee is employed in agriculture, not less than the minimum wage rate in effect under paragraph (1) after December 31, 1977.
(b) Additional applicability to employees
pursuant to subsequent amendatory provisions
Every employer shall pay to each of his employees
(other than an employee to whom subsection (a)(5) [1]

99a
applies) who in any workweek is engaged in commerce
or in the production of goods for commerce, or is
employed in an enterprise engaged in commerce or in
the production of goods for commerce, and who in such
workweek is brought within the purview of this
section by the amendments made to this chapter by
the Fair Labor Standards Amendments of 1966, title
IX of the Education Amendments of 1972 [20 U.S.C.
1681 et seq.], or the Fair Labor Standards Amendments of 1974, wages at the following rate: Effective
after December 31, 1977, not less than the minimum
wage rate in effect under subsection (a)(1).
(c) Repealed. Pub. L. 104–188, [title II],
§ 2104(c), Aug. 20, 1996, 110 Stat. 1929
(d) Prohibition of sex discrimination
(1) No employer having employees subject to
any provisions of this section shall discriminate,
within any establishment in which such employees are employed, between employees on the
basis of sex by paying wages to employees in such
establishment at a rate less than the rate at which
he pays wages to employees of the opposite sex in
such establishment for equal work on jobs the performance of which requires equal skill, effort, and
responsibility, and which are performed under
similar working conditions, except where such
payment is made pursuant to (i) a seniority
system; (ii) a merit system; (iii) a system which
measures earnings by quantity or quality of production; or (iv) a differential based on any other
factor other than sex: Provided, That an employer
who is paying a wage rate differential in violation
of this subsection shall not, in order to comply
with the provisions of this subsection, reduce the
wage rate of any employee.

100a
(2) No labor organization, or its agents,
representing employees of an employer having
employees subject to any provisions of this section
shall cause or attempt to cause such an employer
to discriminate against an employee in violation
of paragraph (1) of this subsection.
(3) For purposes of administration and
enforcement, any amounts owing to any employee
which have been withheld in violation of this
subsection shall be deemed to be unpaid minimum
wages or unpaid overtime compensation under
this chapter.
(4) As used in this subsection, the term “labor
organization” means any organization of any kind,
or any agency or employee representation committee or plan, in which employees participate and
which exists for the purpose, in whole or in part,
of dealing with employers concerning grievances,
labor disputes, wages, rates of pay, hours of
employment, or conditions of work.
(e) Employees of employers
contract services to United States

providing

(1) Notwithstanding the provisions of section
213 of this title (except subsections (a)(1) and (f)
thereof), every employer providing any contract
services (other than linen supply services) under
a contract with the United States or any subcontract thereunder shall pay to each of his employees whose rate of pay is not governed by chapter
67 of title 41 or to whom subsection (a)(1) of this
section is not applicable, wages at rates not less
than the rates provided for in subsection (b) of this
section.

101a
(2) Notwithstanding the provisions of section
213 of this title (except subsections (a)(1) and (f)
thereof) and the provisions of chapter 67 of title
41, every employer in an establishment providing
linen supply services to the United States under a
contract with the United States or any subcontract thereunder shall pay to each of his employees in such establishment wages at rates not less
than those prescribed in subsection (b), except
that if more than 50 per centum of the gross
annual dollar volume of sales made or business
done by such establishment is derived from providing such linen supply services under any such
contracts or subcontracts, such employer shall pay
to each of his employees in such establishment
wages at rates not less than those prescribed in
subsection (a)(1) of this section.
(f) Employees in domestic service Any
employee—
(1) who in any workweek is employed in
domestic service in a household shall be paid
wages at a rate not less than the wage rate in
effect under subsection (b) unless such employee’s
compensation for such service would not because
of section 209(a)(6) of the Social Security Act [42
U.S.C. 409(a)(6)] constitute wages for the purposes of title II of such Act [42 U.S.C. 401 et seq.],
or
(2) who in any workweek—
(A) is employed in domestic service in one
or more households, and
(B) is so employed for more than 8 hours
in the aggregate, shall be paid wages for such
employment in such workweek at a rate not

102a
less than the wage rate in effect under
subsection (b).
(g) Newly hired employees who are less than
20 years old
(1) In lieu of the rate prescribed by subsection
(a)(1), any employer may pay any employee of
such employer, during the first 90 consecutive
calendar days after such employee is initially
employed by such employer, a wage which is not
less than $4.25 an hour.
(2) In lieu of the rate prescribed by subsection
(a)(1), the Governor of Puerto Rico, subject to the
approval of the Financial Oversight and Management Board established pursuant to section 2121
of title 48, may designate a time period not to
exceed four years during which employers in
Puerto Rico may pay employees who are initially
employed after June 30, 2016, a wage which is not
less than the wage described in paragraph (1).
Notwithstanding the time period designated, such
wage shall not continue in effect after such Board
terminates in accordance with section 2149 of title
48.
(3) No employer may take any action to displace employees (including partial displacements
such as reduction in hours, wages, or employment
benefits) for purposes of hiring individuals at the
wage authorized in paragraph (1) or (2).
(4) Any employer who violates this subsection
shall be considered to have violated section
215(a)(3) of this title.
(5) This subsection shall only apply to an
employee who has not attained the age of 20 years,
except in the case of the wage applicable in Puerto

103a
Rico, 25 years, until such time as the Board
described in paragraph (2) terminates in accordance with section 2149 of title 48.

104a
29 U.S. Code § 207. Maximum hours
(a) Employees engaged in interstate commerce; additional applicability to employees
pursuant to subsequent amendatory provisions
(1) Except as otherwise provided in this section, no employer shall employ any of his employees who in any workweek is engaged in commerce
or in the production of goods for commerce, or is
employed in an enterprise engaged in commerce
or in the production of goods for commerce, for a
workweek longer than forty hours unless such
employee receives compensation for his employment in excess of the hours above specified at a
rate not less than one and one-half times the
regular rate at which he is employed.
(2) No employer shall employ any of his
employees who in any workweek is engaged in
commerce or in the production of goods for
commerce, or is employed in an enterprise
engaged in commerce or in the production of goods
for commerce, and who in such workweek is
brought within the purview of this subsection by
the amendments made to this chapter by the Fair
Labor Standards Amendments of 1966—
(A) for a workweek longer than forty-four
hours during the first year from the effective
date of the Fair Labor Standards Amendments of 1966,
(B) for a workweek longer than forty-two
hours during the second year from such date,
or
(C) for a workweek longer than forty
hours after the expiration of the second year
from such date, unless such employee receives

105a
compensation for his employment in excess of
the hours above specified at a rate not less
than one and one-half times the regular rate
at which he is employed.
(b) Employment pursuant to collective
bargaining agreement; employment by independently owned and controlled local enterprise
engaged in distribution of petroleum products
No employer shall be deemed to have violated subsection (a) by employing any employee for a workweek
in excess of that specified in such subsection without
paying the compensation for overtime employment
prescribed therein if such employee is so employed—
(1) in pursuance of an agreement, made as a
result of collective bargaining by representatives
of employees certified as bona fide by the National
Labor Relations Board, which provides that no
employee shall be employed more than one
thousand and forty hours during any period of
twenty-six consecutive weeks; or
(2) in pursuance of an agreement, made as a
result of collective bargaining by representatives
of employees certified as bona fide by the National
Labor Relations Board, which provides that
during a specified period of fifty-two consecutive
weeks the employee shall be employed not more
than two thousand two hundred and forty hours
and shall be guaranteed not less than one thousand eight hundred and forty-hours (or not less
than forty-six weeks at the normal number of
hours worked per week, but not less than thirty
hours per week) and not more than two thousand
and eighty hours of employment for which he shall
receive compensation for all hours guaranteed or

106a
worked at rates not less than those applicable
under the agreement to the work performed and
for all hours in excess of the guaranty which are
also in excess of the maximum workweek applicable to such employee under subsection (a) or two
thousand and eighty in such period at rates not
less than one and one-half times the regular rate
at which he is employed; or
(3) by an independently owned and controlled
local enterprise (including an enterprise with
more than one bulk storage establishment)
engaged in the wholesale or bulk distribution of
petroleum products if—
(A) the annual gross volume of sales of
such enterprise is less than $1,000,000
exclusive of excise taxes,
(B) more than 75 per centum of such
enterprise’s annual dollar volume of sales is
made within the State in which such enterprise is located, and
(C) not more than 25 per centum of the
annual dollar volume of sales of such enterprise is to customers who are engaged in the
bulk distribution of such products for resale,
and such employee receives compensation for
employment in excess of forty hours in any
workweek at a rate not less than one and onehalf times the minimum wage rate applicable
to him under section 206 of this title, and if
such employee receives compensation for
employment in excess of twelve hours in any
workday, or for employment in excess of fiftysix hours in any workweek, as the case may
be, at a rate not less than one and one-half

107a
times the regular rate at which he is
employed.
(c), (d) Repealed. Pub. L. 93–259, § 19(e), Apr.
8, 1974, 88 Stat. 66
(e) “Regular rate” defined As used in this
section the “regular rate” at which an employee is
employed shall be deemed to include all remuneration
for employment paid to, or on behalf of, the employee,
but shall not be deemed to include—
(1) sums paid as gifts; payments in the nature
of gifts made at Christmas time or on other special
occasions, as a reward for service, the amounts of
which are not measured by or dependent on hours
worked, production, or efficiency;
(2) payments made for occasional periods
when no work is performed due to vacation,
holiday, illness, failure of the employer to provide
sufficient work, or other similar cause; reasonable
payments for traveling expenses, or other
expenses, incurred by an employee in the furtherance of his employer’s interests and properly
reimbursable by the employer; and other similar
payments to an employee which are not made as
compensation for his hours of employment;
(3) Sums [1] paid in recognition of services
performed during a given period if either, (a) both
the fact that payment is to be made and the
amount of the payment are determined at the sole
discretion of the employer at or near the end of the
period and not pursuant to any prior contract,
agreement, or promise causing the employee to expect such payments regularly; or (b) the payments
are made pursuant to a bona fide profit-sharing
plan or trust or bona fide thrift or savings plan,

108a
meeting the requirements of the Administrator
set forth in appropriate regulations which he shall
issue, having due regard among other relevant
factors, to the extent to which the amounts paid to
the employee are determined without regard to
hours of work, production, or efficiency; or (c) the
payments are talent fees (as such talent fees are
defined and delimited by regulations of the
Administrator) paid to performers, including
announcers, on radio and television programs;
(4) contributions irrevocably made by an
employer to a trustee or third person pursuant to
a bona fide plan for providing old-age, retirement,
life, accident, or health insurance or similar
benefits for employees;
(5) extra compensation provided by a premium rate paid for certain hours worked by the
employee in any day or workweek because such
hours are hours worked in excess of eight in a day
or in excess of the maximum workweek applicable
to such employee under subsection (a) or in excess
of the employee’s normal working hours or regular
working hours, as the case may be;
(6) extra compensation provided by a
premium rate paid for work by the employee on
Saturdays, Sundays, holidays, or regular days of
rest, or on the sixth or seventh day of the workweek, where such premium rate is not less than
one and one-half times the rate established in
good faith for like work performed in nonovertime
hours on other days;
(7) extra compensation provided by a premium rate paid to the employee, in pursuance of
an applicable employment contract or collective-

109a
bargaining agreement, for work outside of the
hours established in good faith by the contract or
agreement as the basic, normal, or regular
workday (not exceeding eight hours) or workweek
(not exceeding the maximum workweek applicable to such employee under subsection (a),[2]
where such premium rate is not less than one and
one-half times the rate established in good faith
by the contract or agreement for like work
performed during such workday or workweek; or
(8) any value or income derived from
employer-provided grants or rights provided pursuant to a stock option, stock appreciation right,
or bona fide employee stock purchase program
which is not otherwise excludable under any of
paragraphs (1) through (7) if—
(A) grants are made pursuant to a
program, the terms and conditions of which
are communicated to participating employees
either at the beginning of the employee’s participation in the program or at the time of the
grant;
(B) in the case of stock options and stock
appreciation rights, the grant or right cannot
be exercisable for a period of at least 6 months
after the time of grant (except that grants or
rights may become exercisable because of an
employee’s death, disability, retirement, or a
change in corporate ownership, or other circumstances permitted by regulation), and the
exercise price is at least 85 percent of the fair
market value of the stock at the time of grant;
(C) exercise of any grant or right is
voluntary; and

110a
(D) any determinations regarding the
award of, and the amount of, employerprovided grants or rights that are based on
performance are—
(i) made based upon meeting previously established performance criteria
(which may include hours of work,
efficiency, or productivity) of any business
unit consisting of at least 10 employees or
of a facility, except that, any determinations may be based on length of service or
minimum schedule of hours or days of
work; or
(ii) made based upon the past
performance (which may include any
criteria) of one or more employees in a
given period so long as the determination
is in the sole discretion of the employer
and not pursuant to any prior contract.
(f) Employment necessitating irregular
hours of work No employer shall be deemed to have
violated subsection (a) by employing any employee for
a workweek in excess of the maximum workweek
applicable to such employee under subsection (a) if
such employee is employed pursuant to a bona fide
individual contract, or pursuant to an agreement
made as a result of collective bargaining by representatives of employees, if the duties of such employee
necessitate irregular hours of work, and the contract
or agreement (1) specifies a regular rate of pay of not
less than the minimum hourly rate provided in subsection (a) or (b) of section 206 of this title (whichever
may be applicable) and compensation at not less than
one and one-half times such rate for all hours worked
in excess of such maximum workweek, and (2)

111a
provides a weekly guaranty of pay for not more than
sixty hours based on the rates so specified.
(g) Employment at piece rates No employer
shall be deemed to have violated subsection (a) by
employing any employee for a workweek in excess of
the maximum workweek applicable to such employee
under such subsection if, pursuant to an agreement or
understanding arrived at between the employer and
the employee before performance of the work, the
amount paid to the employee for the number of hours
worked by him in such workweek in excess of the
maximum workweek applicable to such employee
under such subsection—
(1) in the case of an employee employed at
piece rates, is computed at piece rates not less
than one and one-half times the bona fide piece
rates applicable to the same work when performed
during nonovertime hours; or
(2) in the case of an employee performing two
or more kinds of work for which different hourly
or piece rates have been established, is computed
at rates not less than one and one-half times such
bona fide rates applicable to the same work when
performed during nonovertime hours; or
(3) is computed at a rate not less than one and
one-half times the rate established by such
agreement or understanding as the basic rate to
be used in computing overtime compensation
thereunder: Provided, That the rate so established shall be authorized by regulation by the
Administrator as being substantially equivalent
to the average hourly earnings of the employee,
exclusive of overtime premiums, in the particular
work over a representative period of time; and if

112a
(i) the employee’s average hourly earnings for the
workweek exclusive of payments described in
paragraphs (1) through (7) of subsection (e) are
not less than the minimum hourly rate required
by applicable law, and (ii) extra overtime compensation is properly computed and paid on other
forms of additional pay required to be included in
computing the regular rate.
(h) Credit toward minimum wage or
overtime compensation of amounts excluded
from regular rate
(1) Except as provided in paragraph (2), sums
excluded from the regular rate pursuant to subsection (e) shall not be creditable toward wages
required under section 206 of this title or overtime
compensation required under this section.
(2) Extra compensation paid as described in
paragraphs (5), (6), and (7) of subsection (e) shall
be creditable toward overtime compensation payable pursuant to this section.
(i) Employment
establishment

by

retail

or

service

No employer shall be deemed to have violated
subsection (a) by employing any employee of a retail
or service establishment for a workweek in excess of
the applicable workweek specified therein, if (1) the
regular rate of pay of such employee is in excess of one
and one-half times the minimum hourly rate applicable to him under section 206 of this title, and (2) more
than half his compensation for a representative period
(not less than one month) represents commissions on
goods or services. In determining the proportion of
compensation representing commissions, all earnings

113a
resulting from the application of a bona fide commission rate shall be deemed commissions on goods or
services without regard to whether the computed
commissions exceed the draw or guarantee.
(j) Employment in hospital or establishment
engaged in care of sick, aged, or mentally ill
No employer engaged in the operation of a
hospital or an establishment which is an institution
primarily engaged in the care of the sick, the aged, or
the mentally ill or defective who reside on the premises shall be deemed to have violated subsection (a) if,
pursuant to an agreement or understanding arrived
at between the employer and the employee before
performance of the work, a work period of fourteen
consecutive days is accepted in lieu of the workweek
of seven consecutive days for purposes of overtime
computation and if, for his employment in excess of
eight hours in any workday and in excess of eighty
hours in such fourteen-day period, the employee
receives compensation at a rate not less than one and
one-half times the regular rate at which he is
employed.
(k) Employment by public agency engaged
in fire protection or law enforcement activities
No public agency shall be deemed to have violated
subsection (a) with respect to the employment of any
employee in fire protection activities or any employee
in law enforcement activities (including security
personnel in correctional institutions) if—
(1) in a work period of 28 consecutive days the
employee receives for tours of duty which in the
aggregate exceed the lesser of (A) 216 hours, or (B)
the average number of hours (as determined by
the Secretary pursuant to section 6(c)(3) of the

114a
Fair Labor Standards Amendments of 1974) in
tours of duty of employees engaged in such
activities in work periods of 28 consecutive days
in calendar year 1975; or
(2) in the case of such an employee to whom a
work period of at least 7 but less than 28 days
applies, in his work period the employee receives
for tours of duty which in the aggregate exceed a
number of hours which bears the same ratio to the
number of consecutive days in his work period as
216 hours (or if lower, the number of hours
referred to in clause (B) of paragraph (1)) bears to
28 days, compensation at a rate not less than one
and one-half times the regular rate at which he is
employed.
(l) Employment in domestic service in one or
more households
No employer shall employ any employee in
domestic service in one or more households for a workweek longer than forty hours unless such employee
receives compensation for such employment in accordance with subsection (a).
(m) Employment in tobacco industry For a
period or periods of not more than fourteen workweeks in the aggregate in any calendar year, any
employer may employ any employee for a workweek
in excess of that specified in subsection (a) without
paying the compensation for overtime employment
prescribed in such subsection, if such employee—
(1) is employed by such employer—
(A) to provide services (including stripping and grading) necessary and incidental to
the sale at auction of green leaf tobacco of type
11, 12, 13, 14, 21, 22, 23, 24, 31, 35, 36, or 37

115a
(as such types are defined by the Secretary of
Agriculture), or in auction sale, buying, handling, stemming, redrying, packing, and storing
of such tobacco,
(B) in auction sale, buying, handling,
sorting, grading, packing, or storing green leaf
tobacco of type 32 (as such type is defined by
the Secretary of Agriculture), or
(C) in auction sale, buying, handling,
stripping, sorting, grading, sizing, packing, or
stemming prior to packing, of perishable cigar
leaf tobacco of type 41, 42, 43, 44, 45, 46, 51,
52, 53, 54, 55, 61, or 62 (as such types are
defined by the Secretary of Agriculture); and
(2) receives for—
(A) such employment by such employer
which is in excess of ten hours in any workday,
and
(B) such employment by such employer
which is in excess of forty-eight hours in any
workweek, compensation at a rate not less
than one and one-half times the regular rate
at which he is employed.
An employer who receives an exemption
under this subsection shall not be eligible for
any other exemption under this section.
(n) Employment by street, suburban, or
interurban electric railway, or local trolley or
motorbus carrier
In the case of an employee of an employer engaged
in the business of operating a street, suburban or
interurban electric railway, or local trolley or motorbus carrier (regardless of whether or not such railway

116a
or carrier is public or private or operated for profit or
not for profit), in determining the hours of employment of such an employee to which the rate prescribed
by subsection (a) applies there shall be excluded the
hours such employee was employed in charter activities by such employer if (1) the employee’s employment in such activities was pursuant to an agreement
or understanding with his employer arrived at before
engaging in such employment, and (2) if employment
in such activities is not part of such employee’s
regular employment.
(o) Compensatory time
(1) Employees of a public agency which is a
State, a political subdivision of a State, or an
interstate governmental agency may receive, in
accordance with this subsection and in lieu of
overtime compensation, compensatory time off at
a rate not less than one and one-half hours for
each hour of employment for which overtime
compensation is required by this section.
(2) A public agency may provide compensatory time under paragraph (1) only—
(A) pursuant to—
(i) applicable provisions of a collective
bargaining agreement, memorandum of
understanding, or any other agreement
between the public agency and representatives of such employees; or
(ii) in the case of employees not
covered by subclause (i), an agreement or
understanding arrived at between the
employer and employee before the performance of the work; and

117a
(B) if the employee has not accrued
compensatory time in excess of the limit applicable to the employee prescribed by paragraph
(3).
In the case of employees described in
clause (A)(ii) hired prior to April 15, 1986, the
regular practice in effect on April 15, 1986,
with respect to compensatory time off for such
employees in lieu of the receipt of overtime
compensation, shall constitute an agreement
or understanding under such clause (A)(ii).
Except as provided in the previous sentence,
the provision of compensatory time off to such
employees for hours worked after April 14,
1986, shall be in accordance with this
subsection.
(3)
(A) If the work of an employee for which
compensatory time may be provided included
work in a public safety activity, an emergency
response activity, or a seasonal activity, the
employee engaged in such work may accrue
not more than 480 hours of compensatory time
for hours worked after April 15, 1986. If such
work was any other work, the employee
engaged in such work may accrue not more
than 240 hours of compensatory time for
hours worked after April 15, 1986. Any such
employee who, after April 15, 1986, has
accrued 480 or 240 hours, as the case may be,
of compensatory time off shall, for additional
overtime hours of work, be paid overtime
compensation.

118a
(B) If compensation is paid to an employee
for accrued compensatory time off, such
compensation shall be paid at the regular rate
earned by the employee at the time the
employee receives such payment.
(4) An employee who has accrued compensatory time off authorized to be provided under
paragraph (1) shall, upon termination of employment, be paid for the unused compensatory time
at a rate of compensation not less than—
(A) the average regular rate received by
such employee during the last 3 years of the
employee’s employment, or
(B) the final regular rate received by such
employee, whichever is higher [3]
(5) An employee of a public agency which is a
State, political subdivision of a State, or an
interstate governmental agency—
(A) who has accrued compensatory time
off authorized to be provided under paragraph
(1), and
(B) who has requested the use of such
compensatory time, shall be permitted by the
employee’s employer to use such time within
a reasonable period after making the request
if the use of the compensatory time does not
unduly disrupt the operations of the public
agency.
(6) The hours an employee of a public agency
performs court reporting transcript preparation
duties shall not be considered as hours worked for
the purposes of subsection (a) if—

119a
(A) such employee is paid at a per-page
rate which is not less than—
(i) the maximum rate established by
State law or local ordinance for the jurisdiction of such public agency,
(ii) the maximum rate otherwise
established by a judicial or administrative
officer and in effect on July 1, 1995, or
(iii) the rate freely negotiated
between the employee and the party
requesting the transcript, other than the
judge who presided over the proceedings
being transcribed, and
(B) the hours spent performing such
duties are outside of the hours such employee
performs other work (including hours for
which the agency requires the employee’s
attendance) pursuant to the employment
relationship with such public agency.
For purposes of this section, the amount
paid such employee in accordance with subparagraph (A) for the performance of court
reporting transcript preparation duties, shall
not be considered in the calculation of the regular rate at which such employee is employed.
(7) For purposes of this subsection—
(A) the term “overtime compensation”
means the compensation required by subsection (a), and
(B) the terms “compensatory time” and
“compensatory time off” mean hours during
which an employee is not working, which are
not counted as hours worked during the

120a
applicable workweek or other work period for
purposes of overtime compensation, and for
which the employee is compensated at the
employee’s regular rate.
(p) Special detail work for fire protection
and law enforcement employees; occasional or
sporadic employment; substitution
(1) If an individual who is employed by a
State, political subdivision of a State, or an
interstate governmental agency in fire protection
or law enforcement activities (including activities
of security personnel in correctional institutions)
and who, solely at such individual’s option, agrees
to be employed on a special detail by a separate or
independent employer in fire protection, law
enforcement, or related activities, the hours such
individual was employed by such separate and
independent employer shall be excluded by the
public agency employing such individual in the
calculation of the hours for which the employee is
entitled to overtime compensation under this
section if the public agency—
(A) requires that its employees engaged in
fire protection, law enforcement, or security
activities be hired by a separate and independent employer to perform the special detail,
(B) facilitates the employment of such
employees by a separate and independent
employer, or
(C) otherwise affects the condition of
employment of such employees by a separate
and independent employer.
(2) If an employee of a public agency which is
a State, political subdivision of a State, or an

121a
interstate governmental agency undertakes, on
an occasional or sporadic basis and solely at the
employee’s option, part-time employment for the
public agency which is in a different capacity from
any capacity in which the employee is regularly
employed with the public agency, the hours such
employee was employed in performing the different employment shall be excluded by the public
agency in the calculation of the hours for which
the employee is entitled to overtime compensation
under this section.
(3) If an individual who is employed in any
capacity by a public agency which is a State,
political subdivision of a State, or an interstate
governmental agency, agrees, with the approval of
the public agency and solely at the option of such
individual, to substitute during scheduled work
hours for another individual who is employed by
such agency in the same capacity, the hours such
employee worked as a substitute shall be excluded
by the public agency in the calculation of the hours
for which the employee is entitled to overtime
compensation under this section.
(q) Maximum hour exemption for employees
receiving remedial education Any employer may
employ any employee for a period or periods of not
more than 10 hours in the aggregate in any workweek
in excess of the maximum workweek specified in
subsection (a) without paying the compensation for
overtime employment prescribed in such subsection,
if during such period or periods the employee is
receiving remedial education that is—
(1) provided to employees who lack a high
school diploma or educational attainment at the
eighth grade level;

122a
(2) designed to provide reading and other
basic skills at an eighth grade level or below; and
(3) does not include job specific training.
(r) Reasonable break time for nursing
mothers
(1) An employer shall provide—
(A) a reasonable break time for an employee to express breast milk for her nursing
child for 1 year after the child’s birth each
time such employee has need to express the
milk; and
(B) a place, other than a bathroom, that is
shielded from view and free from intrusion
from coworkers and the public, which may be
used by an employee to express breast milk.
(2) An employer shall not be required to compensate an employee receiving reasonable break
time under paragraph (1) for any work time spent
for such purpose.
(3) An employer that employs less than 50
employees shall not be subject to the requirements of this subsection, if such requirements
would impose an undue hardship by causing the
employer significant difficulty or expense when
considered in relation to the size, financial
resources, nature, or structure of the employer’s
business.
(4) Nothing in this subsection shall preempt a
State law that provides greater protections to
employees than the protections provided for under
this subsection.

